<html>
<title> - S. 1948 AND S. 2299</title>
<body><pre>[Senate Hearing 113-510]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-510

                          S. 1948 AND S. 2299

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 18, 2014

                               __________

         Printed for the use of the Committee on Indian Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                    U.S. GOVERNMENT PRINTING OFFICE 

91-818 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001













                      COMMITTEE ON INDIAN AFFAIRS

                     JON TESTER, Montana, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
MARIA CANTWELL, Washington           LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
              Rhonda Harjo, Minority Deputy Chief Counsel
              
              
              
              
              
              
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 18, 2014....................................     1
Statement of Senator Barrasso....................................     3
Statement of Senator Begich......................................    19
Statement of Senator Heitkamp....................................    15
Statement of Senator Johnson.....................................     3
Statement of Senator Murkowski...................................    17
Statement of Senator Tester......................................     1

                               Witnesses

Brockie, Clarena, Dean of Student Affairs, Aaniiih Nakoda College    28
    Prepared statement...........................................    30
Delgado, Hon. Ed, Chairman, Oneida Tribe of Indians of Wisconsin.    41
    Prepared statement...........................................    43
Mendoza, William, Executive Director, White House Initiative on 
  American Indian and Alaska Native Education, U.S. Department of 
  Education......................................................     4
    Prepared statement...........................................     5
Rawlins, Namaka, Director of Strategic Partnerships and 
  Collaboration, Aha Punana Leo, Inc.............................    46
    Prepared statement...........................................    49
Roach, Sonta Hamilton, Elementary School Teacher, Innoko River 
  School; Board Member, Doyon Limited............................    21
    Prepared statement...........................................    23
Robinson, Hon. Lillian Sparks, Commissioner, Administration for 
  Native Americans, U.S. Department of Health and Human Services.     7
    Prepared statement...........................................     9
Shortbull, Thomas, President, Oglala Lakota College..............    35
    Prepared statement...........................................    36

                                Appendix

Ammann, Brooke Mosay, Director, Waadookodaading Ojibwe Language 
  Immersion School, prepared statement...........................    79
Bundy, J. Michael, Ph.D., Superintendent, Two Eagle River 
  Alternative School for the Confederated Salish and Kootenai 
  Tribes, prepared statement.....................................    65
Harper, Leslie, Director, Niigaane Ojibwemowin Immersion, 
  prepared statement.............................................    77
National Indian Education Association (NIEA), prepared statement.    69
Response to written questions submitted by Hon. Brian Schatz to:
    Hon. Ed Delgado..............................................    94
    Clarena Brockie..............................................    93
    William Mendoza..............................................   117
    Namaka Rawlins...............................................    96
    Hon. Lillian Sparks Robinson.................................   112
    Thomas Shortbull.............................................    90
Response to Written Questions Submitted by Hon. Jon Tester to 
  William Mendoza................................................   114
Response to Written Questions Submitted by Hon. Tom Udall to Hon. 
  Lillian Sparks Robinson........................................   111
Roman Nose, Quinton, Executive Director, Tribal Education 
  Departments National Assembly (TEDNA), prepared statement......    81
Schatz, Hon. Brian, U.S. Senator from Hawaii, prepared statement.    65
Sullivan Sr., Michael D., Professor, The College of St. 
  Scholastica, prepared statement................................    80
Support letters submitted by:
    Pam Agoyo....................................................    86
    Kamana`opono M. Crabbe.......................................    89
    Jennifer Hall................................................    87
    Nokomis Paiz.................................................    88
    Elizabeth Sahkahtay Strong...................................    87
United Tribes Technical College (UTTC), prepared statement.......    85
Wilson, Ryan, President, National Alliance to Save Native 
  Languages, prepared statement..................................    73

 
                          S. 1948 AND S. 2299

                              ----------                              


                        WEDNESDAY, JUNE 18, 2014


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. Jon Tester, 
Chairman of the Committee, presiding.

             OPENING STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    The Chairman. I call this meeting of the Committee on 
Indian Affairs to order.
    Today the Committee will discuss two bills that address an 
issue that is very important to me and to many of my colleagues 
on this Committee: Native student achievement. The first bill 
is S. 1948, the Native Language Immersion Student Achievement 
Act. The second is S. 2299, a Bill to Reauthorize the Native 
American Language Program of the 1974 Native American Programs 
Act. Both of these measures share a similar goal of increasing 
Native academic achievement through supporting Native language 
instruction and ensuring Native students are college and 
career-ready.
    Language matters. It is how we as human beings convey our 
ideas, our feelings and our hopes. I think about the power of 
language and words and the impact they have to effect change. 
Just think about Lincoln's Gettysburg Address or Martin Luther 
King's I Have A Dream speech. Words comfort and uplift us. That 
is why we sing lullabies to our children and Christmas carols 
during the holidays.
    I am struck by what Chairman Delgado said in his testimony. 
He said that language is medicine. And when Oneida teaches 
their children of this medicine, the children in the community 
begin to heal. This is why these bills we are talking about 
today matter.
    The history of Native languages in this Country is one of 
great tragedy and also great triumph. In the early years of 
this Nation, the Federal policy toward American Indians was 
forced assimilation designed to eradicate tribal cultures. 
Children were forced into boarding schools, and among other 
things, forbidden to speak their Native languages. Years later, 
however, during both world wars, the contribution of Native 
American code talkers speaking in their native language was 
instrumental in helping the Allied forces preserve freedom and 
democracy. To honor these American heroes, their people and 
their long histories, we must preserve and maintain these 
languages.
    Later this week, hundreds of Native language experts will 
convene in Arlington, Virginia, for the 2014 Native American 
Languages Summit, which is being held by the Departments of 
Interior and Education and Health and Human Services. This 
collaborative summit the interagency roles and responsibilities 
in support of Native language and Native language learning as a 
pathway to social and academic success for tribal communities. 
I applaud the efforts these agencies have made in moving toward 
an understanding of just how vital Native languages are, and 
for working on strategies to support language acquisition and 
revitalization.
    We will hear from several tribal witnesses today who are on 
the ground and doing the hard work of saving tribal languages, 
which, as many of you know, is often a daunting task. Through 
decades of failed Federal policy, Native languages have been 
pushed to the brink of extinction. Some of the folks we have 
here with us today are working to change that. I would like to 
especially welcome Clarena Brockie, who comes from the Aaniiih 
Nakoda College at Fort Belknap Reservation in my home State of 
Montana. Clarena not only serves as dean of students at the 
college but she is also a State representative in the Montana 
legislature and represents her tribal community to the entire 
State. I want to thank you for coming and sharing your 
experiences on Native languages with us today, Clarena.
    The two pieces of legislation that we will focus on 
represent a commitment to the language, culture and education 
of Native students and investment in Native communities. 
Language is at the very heart of culture. There is power in a 
child speaking the same language that her ancestors spoke. And 
any child's sense of self and where she comes from is enhanced 
by speaking her language.
    At a time when there are too many words that tear 
communities down, it is important to have a language that helps 
to build up not only Native children, but all children. This is 
what these bills do and why they have widespread support of 
tribes. I look forward to hearing from the Administration and 
tribal leaders today about how those two bills will impact 
their respective agencies and communities.
    Before I turn it over to Senator Barrasso, I just want to 
say thank you all for being here. Lillian, not to put you on 
the spot, but the testimony from your agency came in at 11:30 
this morning. That is unacceptable. If you would take that back 
to them and tell them it is unacceptable.
    I sit on Appropriations. If we can't get this stuff in time 
to fully analyze, we will deal with it through the 
Appropriations process and give them a reason not to get the 
stuff in on time. So please pass that along. It is unfair to 
the people on this Committee and totally unfair to the staff.
    Ms. Sparks. I apologize.
    The Chairman. That is fine. Senator Barrasso?

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. I 
agree with your comments completely.
    Today, Mr. Chairman, we are going to examine two bills that 
are intended to support and promote Native American languages. 
Native American languages are an important component of Indian 
communities and of American history. Native Code talkers were 
used in World War I and World War II to transmit coded messages 
in their native language. Over time, the fluent use of these 
languages has diminished, in some cases almost to the point, as 
you said, Mr. Chairman, of extinction. Fortunately, tribes have 
worked diligently to preserve these languages in schools and in 
their communities.
    I look forward to hearing today how our Native languages 
are contributing to students' academic success and 
recommendations for improving the programs. I welcome the 
witnesses and look forward to the testimony.
    The Chairman. Thank you, Senator Barrasso.
    Senator Johnson?

                STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Mr. Chairman and Vice Chairman 
Barrasso, for holding this important hearing on two pieces of 
legislation that aim to revitalize Native American languages.
    I would like to give a very warm welcome to our witnesses 
who have strong ties to my State of South Dakota: Bill Mendoza, 
Lillian Sparks, and my good friend, Thomas Shortbull. All of 
our witnesses today have a deep understanding of the importance 
of education and the preservation of Native languages. The 
Native American Languages Reauthorization Act, which my fellow 
colleague, Senator Murkowski, and I introduced this year, will 
reauthorize the Native Languages grant program that is 
administered by the HHS Administrations for Native Americans.
    The Native American Languages Act was established in 1992 
and was recently reauthorized by the Esther Martinez Native 
American Languages Preservation Act of 2006. This grant program 
is vital to tribal communities struggling to maintain their 
Native languages. Across Indian Country, tribal organizations, 
tribal colleges and universities and Native American 
organizations access these important funds to create and 
implement programs that are saving Native languages from the 
brink of extinction. ANA has also demonstrated the significant 
impact this native language grants program has in Indian 
Country. In their 2012 Impact Report, ANA evaluated one-third 
of its grantees and found that nearly 5,000 youth and adults 
increased their ability to speak a Native language or achieved 
fluency. One-third of the total grantees also trained 178 
Native language instructors.
    The Native Languages Act has helped to save Native 
languages and encourages both young children and adults to 
develop fluency in their Native language. Across South Dakota 
and Indian Country, this vital grant funding gives the 
opportunity for our cherished Native elders to sit down with 
the younger generation to pass on Native languages. We must 
continue our efforts to promote Native language revitalization 
programs to ensure the preservation of Native American 
cultures, histories and traditions.
    The continuity of Native languages is a link to previous 
generations and should be preserved for future generations. I 
look forward to the testimony today. Thank you again, Mr. 
Chairman, for holding this hearing.
    The Chairman. Thank you, Senator Johnson.
    I want to now welcome our first panel to the Committee 
hearing today. First we have Mr. William Mendoza, who is the 
Executive Director for the White House Initiative on American 
Indian and Alaska Native Education at the Department of 
Education. Welcome. Next we are going to hear from Ms. Lillian 
Sparks, who is the Commissioner for the Administration for 
Native Americans, at the Department of Health and Human 
Services. Welcome, Lillian.
    I would ask you to keep your verbal comments to five 
minutes or as close to that as you can. Your entire testimony 
will be part of the record, and your full written statement 
will be entered in. With that, Mr. Mendoza, you may begin.

 STATEMENT OF WILLIAM MENDOZA, EXECUTIVE DIRECTOR, WHITE HOUSE 
               INITIATIVE ON AMERICAN INDIAN AND 
          ALASKA NATIVE EDUCATION, U.S. DEPARTMENT OF 
                           EDUCATION

    Mr. Mendoza. Good afternoon, Chairman Tester, Senator 
Barrasso and distinguished members of the Committee. I greet 
you all in the Lakota language, I greet you all as relatives, 
both with my Lakota name, His Shield is Lightning, as well as 
my non-Indian name. I extend my heartfelt handshakes to all of 
you. I am learning the Lakota language, and please forgive me 
if I offend anybody by expressing the desire to learn my 
language.
    Thank you for the opportunity to testify today on S. 1948, 
the Native Language Immersion Student Achievement Act. Although 
the Administration has not taken a formal position on this 
bill, we welcome the opportunity to voice our support for its 
goals; namely, working to meet the unique educational and 
cultural needs of American Indian, Alaska Native and Native 
Hawaiian populations.
    Today, there are only 375,000 American Indian language 
speakers remaining in the United States. As Secretary Duncan in 
his commencement address last year to the College of Menominee 
Nation in Keshena, Wisconsin, the loss of Native languages has 
alienated many American Indians from their own history and 
culture. It has taken away the path to knowing their own 
heritage. Revitalizing Native languages is the first step 
toward preserving and strengthening the culture, societal unity 
and self-sufficiency of tribal nations.
    Research shows that being bilingual increases a child's 
mental flexibility and improves performance on academic 
assessments. Bilingual students tend to have better creativity 
and problem-solving skills and other research supports well-
implemented language immersion approaches. In light of this 
important information, the Department has engaged in many 
activities designed to stem the decline of Native languages. As 
you mentioned, Senator Tester, the Native Language Working 
Group will bring together over 300 culturally-diverse 
participants from all over the Country during our Native 
Languages Summit. These participants will share the challenges 
of teaching and preserving Native languages as well as the 
paths to success.
    Additionally, the Department of Education administers a 
number of Federal grant programs designed to support this work. 
For example, Title VII of the ESEA provides funding to over 
1,300 school districts and BIA-funded schools serving 
approximately 477,000 American Indian and Alaska Native 
students. Grant funds are used as a part of a comprehensive 
program for the linguistic and cultural academic needs of 
Indian students. Through ESEA's Title III, the Office of 
English Language Acquisition, we also administer programs that 
support schools in the pursuit of this goal. Title 3 formula 
grants permit schools to support efforts to increase the 
proficiency of American Indian and Alaska Native students in 
both English and Native languages.
    The Office of English Language Acquisition's Native 
American and Alaska Native Children in School program provides 
$5 million in discretionary grants to support the teaching and 
studying of Native languages. The program supports teacher 
training, curriculum development and evaluation and assessment. 
Funding for this program is contingent on participating 
students' simultaneous increase in English language 
proficiency. Additionally, under the Tribally-Controlled 
Colleges and Universities program funded under the Higher 
Education Act, many tribal colleges and universities have 
implemented Native language programs, including Chief Dull 
Knife College on the Northern Cheyenne Reservation in Montana. 
They offer Cheyenne language courses and a summer language 
immersion program, and the Fort Berthold Community College in 
Newtown, North Dakota, is working to prevent the loss of the 
Mandan language.
    Title III also provides funding support to Alaska Native 
and Native Hawaiian-serving institutions in this area. 
Moreover, the Department of Interior, Bureau of Indian Affairs 
and Bureau of Indian Education have a number of programs that 
promote Native languages from cradle to career. These programs 
also provide funding to public schools, teaching American 
Indian and Alaska Natives through Johnson-O'Malley Assistance 
education grants. It is critically important that we work to 
preserve and maintain the unique education and culture of every 
American Indian, Alaska Native and Native Hawaiian. We look 
forward to working with the Committee on how best to meet the 
goals of S. 1948. After my analysts, whom I also want to thank 
for having the privilege to present, I will be happy to answer 
any of your questions, Senator Tester and other members.
    [The prepared statement of Mr. Mendoza follows:]

Prepared Statement of William Mendoza, Executive Director, White House 
    Initiative on American Indian and Alaska Native Education, U.S. 
                        Department of Education
    Good afternoon, Chairman Tester, Vice Chairman Barrasso, and 
distinguished Members of the Committee. Thank you for the opportunity 
to testify today on S. 1948, legislation introduced by Senator Tester 
and cosponsored by many members of the committee. The Administration 
has not taken a formal position on the bill but welcomes the 
opportunity to work with you and your staff to help meet the goals of 
this proposal--to improve educational outcomes for American Indian/
Alaska Native (AI/AN) and Native Hawaiian populations by helping to 
revitalize Native languages.
S. 1948, ``Native Language Immersion Student Achievement Act''
    S. 1948 would amend Title VII of the Elementary and Secondary 
Education Act of 1965 to establish a grant program to support schools 
using Native language ``immersion'' education programs for preschool, 
primary, secondary, and postsecondary education. Such schools use 
Native languages as the primary language of instruction for all 
curriculum taught. S. 1948 would authorize $5 million for fiscal year 
2015 for such grants.
    Today, only 375,000 American Indian language speakers remain in the 
United States. Recently we learned that the last remaining Navajo 
``code talker,'' instrumental in affecting the outcome of World War II, 
passed on. As Secretary Duncan stated in his commencement address last 
year to the College of the Menominee Nation in Keshena, Wisconsin, the 
loss of Native languages has alienated many American Indians from their 
own history, culture, and ways of knowing their heritage. Revitalizing 
Native languages and ensuring their continuity are the first steps in 
preserving and strengthening a tribal nation's culture and encouraging 
social unity and self-sufficiency.
    In addition, research shows that being bilingual increases a 
child's mental flexibility and improves performance on academic 
assessments, and that bilingual students tend to have better creativity 
and problem-solving skills. Other studies support well implemented 
language immersion approaches.
    The Department of Education (ED) is engaged in a variety of 
activities to promote the preservation and revitalization of Native 
languages, including the following:

  <bullet> Native American Languages Memorandum of Agreement: We are 
        partnering with the Departments of Health and Human Services 
        and Interior to encourage programs and projects that include 
        instruction in, and preservation of, native languages, as a 
        part of the goal of the Native American Languages Memorandum of 
        Agreement, signed in November 2012, which established the 
        Native Language Workgroup. This Workgroup is planning a Native 
        American Languages Summit this month that will bring together 
        grantees of federal Native language programs across agencies to 
        share challenges and paths to success. We expect over 300 
        participants to attend, representing Native languages from 
        across the country. ED will also provide technical assistance 
        to school districts to address the unique educational and 
        cultural needs of Native students, and examine current and 
        future funding programs to identify additional support and 
        resources.

  <bullet> Title VII Formula Grants: The Office of Indian Education has 
        made important changes to the Elementary and Secondary 
        Education Act (ESEA) Title VII formula grant applications for 
        FY 2014 in order to emphasize the statutory requirement that 
        grant funds be used as a part of a comprehensive program for 
        meeting the linguistic and cultural academic needs of Indian 
        students. Title VII grants provide funding to over 
        approximately 1,300 districts and BIE-supported schools that 
        educate approximately 477,000 AI/AN students.

  <bullet> Alaska Native and Native Hawaiian-Serving Institutions 
        Grant: The Office of Postsecondary Education included an 
        Invitational Priority to support activities that strengthen 
        Native language preservation and revitalization in institutions 
        of higher education in the Higher Education Act's Title III 
        Alaska Native and Native Hawaiian-Serving Institutions grant 
        competition in fiscal year 2014.

  <bullet> Alaska Native Education Program: The Alaska Native Education 
        program (ANEP) under the ESEA supports efforts to help meet the 
        unique educational and cultural academic needs of Alaska 
        Natives and to support the development of supplemental 
        educational programs to benefit Alaska Natives. In the fiscal 
        year 2014 competition, ANEP included an Invitational Priority 
        for preservation of Native languages. The goal of this priority 
        was to stem the decline of Alaska Native languages by providing 
        teachers with the skills they need to incorporate Native 
        languages into formal instruction.

  <bullet> Native American and Alaska Native Children in School 
        Program: Authorized under Title III of the ESEA, ED's Office of 
        English Language Acquisition (OELA) administers a $5 million 
        discretionary grant program, the Native American and Alaska 
        Native Children in School program. The program provides grants 
        to eligible entities to support the teaching and studying of 
        Native languages, contingent on a simultaneous increase in 
        English language proficiency for participating students. 
        Schools use these grant funds for teacher training and 
        curriculum development, evaluation, and assessment to support 
        student instruction and parent and community participation. 
        There are currently 25 grantees under the program. The program 
        does not prescribe any particular method for teaching Native 
        languages, but some projects use dual language approaches.

  <bullet> English Language Acquisition State Grants: The English 
        Language Acquisition State grants, also under Title III of the 
        ESEA, permit school districts to use the federal funds to teach 
        Native languages to AI/AN students who are English Language 
        Learners, as long as the outcome of the program is to increase 
        those students' English proficiency.

  <bullet> Tribally Controlled Colleges and Universities Program: Many 
        tribal colleges that receive funding under Title III of the 
        Higher Education Act have implemented Native language programs. 
        For example, the Chief Dull Knife College on the Northern 
        Cheyenne Reservation in Southwest Montana offers Cheyenne 
        language courses, in addition to a summer Cheyenne language 
        immersion program for youth. And the Fort Berthold Community 
        College in New Town, North Dakota, is working on a project that 
        will provide linguistic training to tribal members aimed at 
        preventing the loss of the endangered Mandan language.

    In addition to the Department of Education activities, Department 
of the Interior, Bureau of Indian Affairs (BIA) and Bureau of Indian 
Education (BIE), have a number of programs that support Native 
languages:

  <bullet> The majority of American Indian and Alaska Native students 
        attend public schools and the Johnson-O'Malley Assistance 
        Grants provide funds to public schools to promote Native 
        languages.

  <bullet> In school year 2013-2014, the Indian School Equalization 
        Program (ISEP) provided $23.3 million for language development 
        in BIE-funded schools.

  <bullet> The BIE's Early Childhood Development integrates Native 
        language, culture and history in the preschool programming.

    Again, we look forward to working with the Committee on how best to 
meet the goals of this proposal to preserve and revitalize Native 
languages.
    Thank you for the opportunity to testify today. I am happy to 
answer your questions.

    The Chairman. Thank you for your testimony, Bill.
    You may proceed, Lillian.

          STATEMENT OF HON. LILLIAN SPARKS ROBINSON, 
            COMMISSIONER, ADMINISTRATION FOR NATIVE 
    AMERICANS, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Sparks. Chairman Tester, Vice Chairman Barrasso, 
Senator Johnson, Senator Heitkamp, my name is Lillian Sparks 
Robinson and my Lakota name is Flower Woman. It is my honor to 
testify before this Committee on behalf of the Department of 
Health and Human Services on the Native American Languages 
Revitalization Act.
    We apologize for the late submission of the testimony. This 
topic is incredibly important, not only to our agency, but to 
myself. We will prioritize finalizing testimony at a much 
earlier pace to make sure that you and your staff receive it in 
a timely manner.
    ANA's mission is to support Native communities, including 
American Indians, Alaska Natives, Native Hawaiians and Native 
Pacific Islanders to be self-determining, healthy, culturally 
and linguistically vibrant and economically self-sufficient. We 
support three programs, Native American languages, 
environmental and regulatory enhancement as well as social and 
economic development strategies. We are pleased that this 
Committee is considering reauthorizing the Native Language 
provisions of the Native American Programs Act of 1974, which 
is the statute that authorizes and governs ANA programs. ANA 
believes language revitalization is essential to continuing 
Native American culture and strengthening a sense of community. 
ANA funding provides opportunities to assess, plan, develop, 
implement, projects to ensure the survival and vitality of 
Native languages.
    We have funded many successful projects that resulted in 
increased usage and fluency of Native American languages and 
are happy to see that the second panel includes many of our 
former grantees. For example, the Lower Brule Community College 
in South Dakota received an ANA grant to certify the Lakota 
language instructors for the Lower Brule education system, 
create a K through 12 Lakota language curriculum meeting State 
and national standards for language certification instruction, 
and promote Lakota language and culture in the Lower Brule 
community. Before the project, the Lower Brule Sioux Tribe had 
no language curriculum for K through 12 students. At the 
project's end, there were four trained, certified, experienced, 
motivated and skilled instructors, all capable of making Lakota 
language classes meaningful and accessible to youth on the 
reservation.
    Similarly, the Yakutat Tlingit Tribe of Alaska used its ANA 
language grant to integrate Lingit classes into the Yakutat 
public school system, build the capacity of the tribe's Lingit 
language teachers, and develop electronic resources to be used 
by students and teachers. This project has resulted in 102 
youth and 40 adults increasing their ability to speak Lingit.
    Finally, an ANA grant helped the Fort Belknap College in 
Montana, who I am happy to see will be presenting on the second 
panel, produce young White Clay language speakers, building on 
the initial success of the White Clay Immersion School. At the 
end of the three-year project, the College held 185 language 
classes, trained two language teachers, and developed a 
language curriculum. As a result, nine people achieved fluency 
in the language.
    Since 2010, ANA has held two separate annual competitions 
for language projects, those being the Native American Language 
Preservation and Maintenance Program and the Esther Martinez 
Initiative. Between 2006 and 2013, ANA has received 853 
applications for all of our Native American language projects. 
Of those, 80 applications were for Esther Martinez Initiative 
projects.
    Although Congress has not made additional appropriations to 
expand ANA's discretionary program, ANA has doubled the funds 
for Native language programs by shifting funds from Environment 
and Regulatory Enhancement and Social and Economic Development 
Strategy competitions.
    Listening sessions and tribal consultation indicate that 
the extra investment in Native American languages is critical 
to our communities. However, the Social and Economic 
Development Strategies program continues to be the grant 
program for which we receive the most applications. In fiscal 
year 2013, we reviewed a total of 298 applications, of which 
192 were for Social and Economic Development Strategies. Of 
those 192 applications, we were able to provide funding for 39 
new awards.
    In fiscal year 2014, we expect to fund approximately 20 
percent of our Esther Martinez applications and 60 percent of 
our Preservation and Maintenance grants. The unmet demand in 
both categories does remain high. In addition, based on grantee 
interviews, we believe the authority to fund Esther Martinez 
and Preservation and Maintenance projects for longer periods, 
up to five years, rather than the current three years, would 
result in increased sustainability of the gains made. Grantees 
would have more time to build a community of speakers, to 
strengthen partnerships and secure additional funding as 
projects move beyond planning and initial stages of 
implementation.
    Additional feedback from our grantees also indicates that 
lowering the required number of participating students from 10 
to 5 for language nests and from 15 to 10 for language survival 
schools would allow more communities to apply.
    We are thankful for the continued support of this Committee 
in achieving the ANA mission. We look forward to working with 
Congress to reauthorize the Native American Programs Act, which 
does continue to receive appropriations. From a program 
administration perspective, reauthorizing NAPA as a whole would 
also provide an opportunity to update program regulations which 
track our current statute, which is necessary for improved 
program oversight and accountability.
    We look forward to the day when all Native communities are 
thriving, and we look forward to working with you to make that 
happen. I am happy to answer any questions.
    [The prepared statement of Ms. Sparks follows:]

   Prepared Statement of Hon. Lillian Sparks Robinson, Commissioner, 
  Administration for Native Americans, U.S. Department of Health and 
                             Human Services
    Chairman Tester, Vice Chairman Barrasso, and members of the 
Committee, it is my honor to testify before this Committee on behalf of 
the Department of Health and Human Services on S. 2299. I am a member 
of the Rosebud Sioux Tribe, which is located in South Dakota. I serve 
as the Commissioner for the Administration for Native Americans (ANA), 
which is part of the Administration for Children and Families (ACF).
    ANA's mission is to support Native American communities to be self-
determining, healthy, economically self-sufficient, and culturally and 
linguistically vibrant. We achieve our mission by providing 
discretionary grants, training, and technical assistance to tribes and 
Native American communities, including American Indians, Alaska 
Natives, Native Hawaiians, and Native Pacific Islanders. ANA supports 
three program areas: Native American Languages, Environmental 
Regulatory Enhancement (ERE), and Social and Economic Development 
Strategies (SEDS). We are pleased that this Committee is considering 
reauthorizing the Native American language provisions of the Native 
Americans Programs Act of 1974 (NAPA), the statute that authorizes and 
governs ANA programs.
    For fiscal year (FY) 2013, Congress appropriated approximately 
$45.5 million to ANA, which distributed nearly $40 million to Native 
American communities competitively. Funding for FY 2014 is $46.5 
million, which is an increase from FY 2013. In addition to providing 
competitive grants, ANA uses its funding to provide training and 
technical assistance to Native American communities, as required by 
Section 804 of NAPA. As a result of this training and technical 
assistance, 80 percent of applications for FY 2013 were considered of 
sufficient quality to be funded had additional funds been available.
    ANA believes that language revitalization is essential to 
continuing Native American culture and strengthening a sense of 
community. Use of Native American languages builds identity and assists 
communities in moving toward social cohesion and self-sufficiency. ANA 
encourages applicants to involve elders and other community members in 
determining proposed language project goals and implementing project 
activities. ANA funding provides opportunities to assess, plan, 
develop, and implement projects to ensure the survival and vitality of 
Native American languages.
    For over a decade, ANA awarded Native American language 
preservation and maintenance funds to eligible entities under the 
Native American Languages Act of 1992, but utilization of Native 
American languages continued to decline for a variety of reasons. In 
response to this dramatic and continued decline, Congress passed the 
Esther Martinez Native American Languages Preservation Act of 2006. The 
law amended NAPA to provide grants for language immersion and 
restoration programs, two methods that have proven to be highly 
successful in creating fluent speakers.
    ANA has funded many successful projects that have resulted in 
increased usage and fluency of Native American languages. For example, 
the Lower Brule Community College in South Dakota received an ANA grant 
to certify Lakota language instructors for the Lower Brule education 
system, create a K-12 Lakota language curriculum meeting state and 
national standards for language instruction, and promote Lakota 
language and culture in the Lower Brule community. Before the project, 
the Lower Brule Sioux Tribe had no language curriculum for K-12 
students. At the project's end, the Tribe had four trained, certified, 
experienced, motivated, and skilled educators, all capable of making 
Lakota language classes meaningful and accessible to youth on the 
reservation.
    Similarly, the Yakutat Tlingit Tribe of Alaska used its ANA grant 
to integrate Lingit classes into the Yakutat Public school system, 
build the capacity of Lingit language teachers, and develop electronic 
teaching and learning resources. As a result of the project, 102 youth 
and 40 adults have increased their ability to speak Lingit.
    Finally, an ANA grant helped the Fort Belknap College in Montana 
produce young White Clay language speakers, building on the initial 
success of the White Clay Immersion School. An objective of the project 
was to hire and train two language teachers, develop curriculum and 
training materials, and develop an advisory council to provide guidance 
on the curriculum. At the end of the three year project, the College 
held 185 language classes, trained two language teachers, and developed 
a language curriculum. As a result of these efforts, nine people 
achieved fluency in the language.
    Since 2010, ANA has held two separate annual competitions for 
language projects, the Native American Language Preservation and 
Maintenance Program and the Esther Martinez Initiative (EMI). Between 
2006 and 2013, ANA received 853 applications for all Native American 
language projects. Of those, 80 applications (received between 2008 and 
2013) \1\ were for EMI projects. In 2014, we saw an over 100 percent 
increase in EMI applications, from 14 applications in 2013 to 30 
applications reviewed this year. The total number of language 
applications received is close to the same as previous years, at 94 
applications.
---------------------------------------------------------------------------
    \1\ The Esther Martinez Initiative was enacted in 2006, but it was 
not its own funding category in ANA until FY 2008.
---------------------------------------------------------------------------
    Although Congress has not made additional appropriations to expand 
ANA's discretionary program, the ANA has doubled the funds available 
for Native language programs by shifting funds from ERE and SEDS. In FY 
2014, we provided nearly $13 million ($12,820,867) to roughly 60 
communities, up from approximately $6 million in FY 2010.
    In FY 2014, we expect to fund approximately 20 percent of EMI 
applications and 16 percent of Preservation and Maintenance projects. 
The unmet demand in both categories remains high. In addition, based on 
grantee interviews, we believe that the authority to fund EMI and 
Preservation and Maintenance projects for longer periods (up to five 
years, rather than the current three years) would result in increased 
sustainability of the gains made. Grantees would have more time to 
build a community of speakers, strengthen partnerships, and secure 
additional funding as projects move beyond the initial planning and 
implementation stages. Additional feedback from ANA grantees also 
indicates that lowering the required number of participating students 
from ten to five for language nests, and from fifteen to ten for 
survival schools, would allow more communities to apply. ANA's total 
investment in Native American language projects for FY 2010 to 2014 
will be approximately $60 million.
    Listening sessions and tribal consultation indicate that the extra 
investment in Native American language programs is critical to our 
communities. The Social and Economic Development Strategies program 
continues to be the grant program for which we receive the most 
applications. In FY 2013, ANA reviewed a total of 298 applications, 192 
of which were for SEDS. Of these 192 applications, ANA was able to 
provide funding for 39 new awards at approximately $10 million. This 
provided funding for one in five applications. This total included 
special initiatives like the Native Asset Building Initiative and the 
Sustainable Employment and Economic Development Strategies grants that 
target ANA investment towards economic empowerment, but still within 
the framework of community-driven projects.
    We are thankful for the continued support of this Committee in 
achieving the ANA mission. We look forward to working with Congress to 
reauthorize the Native American Programs Act including the Esther 
Martinez Native Languages Act, which continues to receive 
appropriations. From a program administration perspective, 
reauthorizing NAPA as a whole would also provide an opportunity to 
update outdated program regulations which track the current statute, 
which is necessary for improved program oversight and accountability.
    ANA looks forward to the day when all ``Native Communities are 
Thriving,'' and we look forward to working with you to make that 
happen.
    I would be happy to answer any questions.

    The Chairman. Thank you for your testimony, Lillian.
    I am going to start with you, Mr. Mendoza. Your testimony 
was supportive of the language bills. Yet you led off your 
testimony by saying that you had no position on either of the 
bills. Could you tell me why wouldn't your testimony reflect 
that support?
    Mr. Mendoza. I think, Senator Tester, we have not yet had 
an opportunity to review these bills formally, between Congress 
and the Department. So we welcome that opportunity. We 
certainly wholeheartedly agree with the importance and the need 
to preserve and revitalize Native languages. I think the goals 
of this bill, both bills, are consistent with what we are 
hearing from both tribal leaders and tribal educators across 
the Country.
    The Chairman. Okay, so at what point in time would be a 
reasonable amount of time to give you to come back with either 
a yea or nay recommending on these bills from the Department?
    Mr. Mendoza. I can assure you, Senator Tester, we will make 
it a top priority, given the importance of this issue, the 
current momentum. So I couldn't venture to give you a timeline 
right now, without coordination with some other program offices 
that I can't speak for right now. We will make sure we give you 
both an estimated timeline and ensure that it is a priority for 
us.
    The Chairman. Here is what I would like to see. We are 
going to be in next week, and then we are going to be off a 
week for the 4th of July. If you could give us your 
recommendation, could you give us the recommendation that the 
Department has when we come back the first week we are back in 
July? That gives you two or three weeks to get it done. Thank 
you.
    ESEA, I am sure you are aware, many folks are watching the 
reauthorization of the Elementary and Secondary Education Act 
as to whether it is going to be supporting or not supporting 
Native American students. How is your Department, or is your 
Department working with the Health Committee to ensure that 
Native students and Native languages are supported through 
ESEA?
    Mr. Mendoza. Certainly through the ESEA Blueprint, we have 
already committed to the importance of looking at Title VII, 
looking at strengthening Title VII and the levers that 
immediately can affect the needs to address the unique cultural 
language-related needs of students. And one of the key areas 
for us from the standpoint of the White House Initiative is the 
work that is happening under numerous working groups, the 
culmination of some early activity on our Memorandum of 
Agreement is the Summit itself.
    So some of these activities we point to in our testimony, 
and those are areas that we are building on. We have already 
invested tremendously in terms of technical assistance through 
regional comprehensive centers. Over five years, that will be a 
$5 million investment. We are seeing activities in the South 
Central Comprehensive Center where they have already looked at 
the languages being spoken in the State of Oklahoma and 
developed an alternative certification process for those 
teachers.
    These regional comprehensive centers are also looking at 
data assets and how we can strengthen the information around 
these issues, including the definition of the English learners, 
the Office of English Language Acquisition has also made this a 
priority for them. And we have looked at every lever early on 
here as grant cycles are coming up, and looking at prioritizing 
the significance and importance of Native languages.
    The Chairman. Okay. There are those in the Native academic 
community who contend that reauthorization of the ESEA has 
complicated efforts to support Native languages because of 
conflicts between the Elementary and Secondary Education Act 
and the Native American Languages Act. Has your department 
received any of those concerns? And if you have, how are you 
dealing with them?
    Mr. Mendoza. I am not aware of specific comparisons in that 
regard. I could be wrong. There is an abundance of consultation 
and testimony related to the importance that tribal leaders and 
educators place on Native languages. The Native Languages Act, 
and its importance, was certainly a big part of our response to 
what we heard in consultations, and was therefore a critical 
component of our Memorandum of Agreement with our partners at 
HHS as well as Interior.
    The Chairman. But you have not heard about the conflicts 
between ESEA and NALA?
    Mr. Mendoza. I have not, to the best of my knowledge.
    The Chairman. Senator Barrasso?
    Senator Barrasso. Thank you, Mr. Chairman. Continuing with 
you, Mr. Mendoza, your written testimony noted that school 
districts may use certain Federal funds to teach Native 
languages. And the outcome, however, of the program, must 
increase the students' English proficiency. Can you elaborate a 
little bit on what outcomes you are seeing from these programs?
    Mr. Mendoza. Certainly. One of the things that we remain 
very committed to is how we can utilize these programs to 
achieve the goals of not only strengthening Native languages 
but also ensuring that our students are college and career-
ready. We know that there are concerns in this area, whether we 
are talking about graduation rates, enrolment rates or 
retention rates. We certainly have concerns that although we 
are talking about achievement measures, we know they will look 
at the National Indian Education study that that area of the 
achievement gap, in some ways, has done better, in others is 
still stagnant.
    So the performance of these programs related to that and 
how they relate to the measures for each individual program 
vary. I would feel more comfortable sharing with you follow-up 
information on each of these programs' performance relative to 
those Government Accountability measures.
    Senator Barrasso. I would appreciate that, as well as where 
you see it working, where you see it not working, what the best 
practices are and how you can share that with others, so you 
can get the desired outcomes in all locations. That would be 
helpful.
    Ms. Sparks, the written testimony from Mr. Mendoza, he 
notes that the research shows being bilingual has multiple 
benefits. I think you referred to that as well. It increases a 
child's mental flexibility, it improves performance on academic 
assessments. Can you talk a little bit about what type of 
academic achievements you are seeing from students who are 
served by the Esther Martinez Native Language program that you 
administer?
    Ms. Sparks. Sure. So, the ANA Native Language programs are 
community-driven and community designed. So we don't have the 
same types of benchmarks that a program funded by Title VII at 
Department of Ed may have. And there aren't the same types of 
standards or assessments that are required. But what we do is 
support the community, developing what their baseline language 
fluency may be and then helping them to achieve. That is one of 
the things we have incorporated, with regard to the three 
objectives, there also have to be some impacts they are hoping 
to be able to achieve.
    We would like to see, for all of our immersion projects, 
whether they are funded under Esther Martinez or Native 
Language, that they indicate what their level of fluency will 
be after the end of the three-year project. And we provide 
training and technical assistance.
    I can't give you any solid data with regards to the gains 
that we have seen. But I can tell you that we have seen an 
increased number of teachers trained. Our impact repots have 
indicated an increased number of students actually being able 
to use their Native language.
    And I can tell you, outside of ANA, what the research has 
shown is that students definitely, by the time they reach third 
grade and they have been instructed in their Native language, 
that they are almost on par with their counterparts who are not 
receiving instruction in Native language. By the time they 
reach the eighth grade, they have certainly met and many times 
surpassed their counterparts. And by the time they graduate 
high school, they have just taken off and really are exceeding 
all expectations.
    So we support the research. And one of the things that we 
are trying to achieve under that memorandum of agreement that 
we have with the Department of Ed and with Interior is actually 
being able to take a deeper dive into the research to support 
Native language immersion activities.
    Senator Barrasso. I think Senator Heitkamp mentioned this 
in a previous hearing, of that younger age group, the students 
are running to school, and then a little later on they are 
walking to school, and then a little later they are running 
away from school. It would seem that if we could continue with 
what you are proposing here, in a way that makes that student, 
increases mental flexibility, interest, interaction, 
engagement, that that may help in a lot of different ways, not 
just in this one specific language component of it, so that 
student would continue with that eagerness to go to learn.
    Ms. Sparks. Absolutely. That is something we want to be 
able to continue to support. We also want to be able to find a 
way that the communities aren't having to piecemeal some of 
their language programming. That is one of the goals under our 
Memorandum of Agreement, is to find a way where a community or 
a school that is receiving Title VII funding or receiving BIA 
school funding, whether it is Johnson O'Malley or contract or 
compact or direct funding from the BIE, that they are able to 
apply their Native language grants to those settings as well.
    And also with Head Start, we are finding that a lot of our 
best partnerships start in the Head Start classrooms, using 
Native Language funding from ANA.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. Senator Johnson?
    Senator Johnson. Ms. Sparks, in your testimony and in Mr. 
Shortbull's testimony, it is stated that the projects should be 
authorized up to five-year periods versus the current three-
year periods. How would this impact the total grants awarded by 
ANA if changes were made to the program? Please elaborate.
    Ms. Sparks. Thank you for that question. So ANA strives to 
meet the required appropriations and the repot language every 
year with regard to providing at least $12 million to Native 
language activities, which at least $4 million of that will go 
to immersion activities. We are happy to say that we have 
surpassed those levels every year since 2010 when we first 
started the Esther Martinez initiative.
    What we have found, talking with our grantees, is that 
three years really allows them to be able to start and 
implement a project and really begin to see the gains, but five 
years would allow for the sustainability for the program to be 
even more sustainable, and for them to be able to really think 
about their planning after the five years. We did do some 
preliminary analysis on what it would look like three years to 
five years. We are anticipating that the level of funding would 
remain the same, but we would probably be able to fund about 
two to three less Esther Martinez Initiative projects a year. I 
think it is about five to six, and I can get you the exact 
number, for Preservation and Maintenance.
    So new awards would be lower each year, because our 
continuations would be higher each year.
    Senator Johnson. Mr. Mendoza, teacher preparation, 
recruitment and retention for tribal immersion programs is 
difficult at best. Aside from Title III discretionary grants, 
what efforts has the Department made to award tribal immersion 
programs in their efforts to hire and retain qualified 
teachers?
    Mr. Mendoza. I appreciate the question, Senator Johnson.
    As you all know, all too well, it is tremendously difficult 
to recruit and retain highly-qualified teachers in general to 
some of the areas of the Country where these languages are 
thriving, in an effort to preserve and revitalize them. 
Especially in some of the areas such as up in Senator 
Murkowski's State, where the extreme conditions make it 
tremendously difficult.
    As we look at the challenges around, regardless of the 
models of approaching preservation and revitalization of Native 
languages, those mechanisms, that capacity for that teacher 
preparation is just not there. One of the key areas for us, in 
addition to Title III, to focus on the dual goals of English 
and Native languages, is Title VII professional development 
grants. Those are designed specifically to bring teachers, 
prepare teachers and bring those teachers in-service to tribal 
communities.
    So we remain committed on working to try to address this 
issue in a new and different way. We are looking at it through 
our broader teacher preparation programs. Certainly this is a 
big part of this work that we are doing with regional technical 
assistance centers, as well as our State and Tribal Education 
partnership grants, to make sure that we are working with those 
critical networks, establishing that national network for 
individuals, being purposeful about that work. That is 
embodied, certainly, in some of the recommendations that have 
addressed BIE, they are a critical partner in that. Those 
teachers who are in those school systems as well as these 
tribally-connected school districts that are on or near 
reservations, we need to have greater definition around that 
area.
    So Title VII professional development, as well as the Title 
III professional development program, as you just named, are 
the primary levers for this work.
    Senator Johnson. Ms. Sparks, you mentioned that in order to 
increase the number of Esther Martinez Initiative grant 
applicants, we must consider lowering the required number of 
participants in language nests and survival schools. Can you 
expand on the reasoning behind this suggestion?
    Ms. Sparks. Thank you for that question. In my role as 
Commissioner, I have had an opportunity to visit numerous 
communities that are on the verge of doing Native language 
immersion or have been doing Native language immersion 
activities. But they just cannot meet the student threshold of 
a minimum of 10 students in a language nest or a minimum of 15 
students in their survival school. Just like my colleague, Mr. 
Mendoza, said, I think the greatest examples are probably in 
the State of Alaska, where there are numerous remote and rural 
villages, where the school in itself might be 15 students, all 
of which may not be in immersion classroom settings.
    I can give you an example of one community where they have 
applied several times and they are just on the verge of maybe 
being able to meet 15 students or 5 students for the language 
nest. They are doing some really remarkable things in that 
community and with their language. They have a dedicated 
administration, a dedicated tribal council, dedicated classroom 
teachers and dedicated parents. It is a shame for them to not 
be able to be eligible to apply just because they don't meet 
the student threshold. Certainly we want this to have the most 
impact and increase as many speakers as possible. But we also 
don't want to rule out communities that could still benefit 
from this Esther Martinez Initiative.
    Senator Johnson. Thank you.
    The Chairman. Senator Heitkamp?

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman.
    A couple of questions, but before I start, I do want to 
remark that I had a meeting with a couple of elders on one of 
the reservations who was concerned about the quality of the 
education, the quality of whether in fact these Native American 
languages that were being taught and spoken in immersion school 
was in fact traditional enough. So I want to raise that concern 
because I think it is really critically important that Native 
speakers, traditional speakers actually are involved in the 
creation of these programs, monitoring the quality. That is 
what you don't want to lose, it is such a critical part of the 
culture itself.
    Mr. Mendoza, your written testimony details how the 
Department of Education is working, obviously, to support 
Native languages through ten separate programs in conjunction 
with three separate agencies. I think the tribes that I talk to 
would like to see more consistent funding streams to support 
these Native American immersion programs. Have you explored 
ways to consolidate these funding streams and programs to 
create flexibility in them so tribes can better utilize them?
    Mr. Mendoza. I appreciate the question, Senator. The short 
answer to that is no, we have not. It has been clear to us that 
in looking at the comprehensive needs of these learners and the 
complex issues related to not just teaching in a linguistically 
sound manner, but also the rich diversity that is across the 
Country, 566 different tribes, and the diversity even within 
that, which you pointed out, which I wholeheartedly agree with, 
that we need more information before we even talk about trying 
to collapse, consolidate, move. That is a big part of why we 
have invested in this collaboration with our partners, to bring 
together, and the 300 participants who will be joining us here 
in D.C., that represents our grantees, the people who have been 
navigating those funding sources that you mentioned.
    So it is a critical first step for us to hear from them, to 
assess from what we are learning from them, to try to piece 
with what we have learned through consultation and then to look 
within to try to address those areas.
    Senator Heitkamp. And I can understand what you are saying. 
But I think all of us would agree that we would like to see as 
much efficiency in these programs, because those limited 
dollars will go a lot further.
    Also in your testimony you highlight how the loss of Native 
languages can separate many Native Americans from their culture 
and their history. I have seen that directly. I think many 
languages have lost their last Native speaker, which creates 
challenges in finding classroom instruction. What efforts are 
you doing to identify and preserve the most vulnerable of 
languages? Do you prioritize the vulnerable languages? And how 
are you supporting instruction for Native languages, which, in 
my previous example, where you have somebody who can judge 
whether in fact that is the right program, whether that 
language actually reflects the language that is the traditional 
language? Here you don't even have that kind of ability to 
audit or to hold accountable those programs. How do you fix 
that issue?
    Mr. Mendoza. I appreciate that, it is such an expansive 
question there and one that I have to kind of err on the same 
side as your previous question. I apologize, there is just a 
lot more work here that we need to do than answers at this 
juncture. One of the statistics I cited is the 375,000 language 
speakers. If we take those numbers and apply that to the Native 
population as a whole, we come up with approximately 7.2 
percent, and the percentage goes up even incrementally as we 
look at constraining the definition of who is an Indian based 
off of that.
    So the important work about identifying these languages is 
something that the Initiative has really been trying to grapple 
with and that we are talking about with our partners in the 
Memorandum of Agreement, particularly around the idea of less 
commonly taught languages that we currently look at for world 
languages. Where do Native languages fit in a conversation such 
as less commonly taught, where we have as many as 200 living 
languages right now that at various stages are in a state of 
crisis, if not extinction, where we have as well as areas of 
strength, where we are talking about the Anishinabe language, 
the Blackfeet language or else the Dine language as well, which 
Dine language constantly makes it onto the list of, when we 
look at State and the languages they speak.
    So it is an issue that we are looking at really closely. It 
is only a matter of conception at this point in how we are 
grappling with that issue across Federal agencies.
    Senator Heitkamp. If I could just make one last comment. I 
think all of us who have spent time in Indian Country 
understand the significance of understanding the language to 
understanding the culture, the nuances and the variances. So if 
we are going to hopefully build our hope as a result of 
reestablishing or working toward building out community, the 
preservation of these languages is absolutely an essential 
building block to doing that. We are very interested in how we 
can participate, and I share Senator Tester's urgency that we 
get a response very quickly to the Administration's position.
    Mr. Mendoza. If I may, Senator Heitkamp, when we visited 
with the President to your State, we also were able, had the 
fortunate opportunity to visit the Standing Rock Sioux Tribe's 
partnership with Sitting Bull College as well as the Lakota 
Language Consortium. What is happening there is for all intents 
and purposes happening in touch and go ways with our programs, 
either in ANA grantee at a certain point, in the Office of 
Indian Education grantee at some point, but clearly the tribes 
are investing in this area. That is what really keeps me up at 
night around these issues, is that we are going to miss the 
analysis of just the Federal impact of this, where there is 
such rich innovation and opportunity that is happening among 
tribes across the Country.
    The Chairman. Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
that you have both of these bills before the Committee. I am a 
proud co-sponsor, the lead Republican on these and share 
certainly the comments that so many have made here today about 
the significance, the real urgency as we work to ensure that 
our Native languages, our cultural heritage languages are not 
only preserved but that they are living. We are not locking 
them up, we are allowing our children to be immersed in the 
language of their culture, the language of their heritage, 
develop pride in that and pride in who they are. So as we work 
to help foster these initiatives, know that I am committed to 
making it happen.
    Commissioner Sparks, you mentioned the Esther Martinez 
grants. It is my understanding from data from HHS that we don't 
have any Esther Martinez grants in our State. Yet as you know, 
we have agreement of language preservation and education work 
that is going on within our regions. I am going to be asking 
our Native educators, our school districts, our tribal 
organizations, what barriers they are experiencing in trying to 
access these very important grants. You have mentioned the 
issue just of the small numbers that we have in some of our 
villages. That is true. But we have many other areas where we 
have, of course have significant numbers of students within our 
schools, whether it is in the immersion school in Bethel. So 
the number ought not be the barrier.
    So I am going to try to drill down with this. I would ask 
that you as well work with us to see where we are putting these 
barriers up.
    Mr. Mendoza, I didn't hear your oral testimony here today. 
I did read your statement. I have perhaps more of a statement 
than a question today. Your testimony really provides the whole 
array of Federal efforts on Native education. But I think there 
is a big picture that is missing from at least your written 
testimony. If I may be so bold as to offer some guidance here, 
I think that the White House Initiative on Indian and Alaska 
Native Education has to aggressively demonstrate the nexus 
between Native language revitalization from within our schools 
and increased academic achievement and the well-being among our 
Native youth. What I would have liked to have seen from your 
testimony is the strong reference to the very tremendous body 
of research that exists, whether it is drawing from the 
experience of the Maori in New Zealand to our own language 
revitalization efforts that we have in Alaska to what we will 
hear from our Native Hawaiian witness. In my mind, language 
immersion, culturally-relevant curriculum and place-based 
education are among the most important solutions to addressing 
low achievement and poor educational outcomes to many of our 
Native youth. Those responsible for improving the educational 
outcomes of our Native students I think have to understand and 
really take action, knowing the moral gravity of inaction is 
another generation that we would fail.
    So I think we have clear opportunity here. I really would 
encourage the White House, through this initiative, to look to 
help States, educate States, educate school boards and those 
within the Administration regarding this very, very relevant 
and important link between our Native language revitalization, 
culturally-relevant curriculum and increased academic 
achievement. Hopefully what you are gaining from this hearing 
this afternoon is that urgency that Senator Heitkamp has 
mentioned. I certainly share in that.
    Comment if you are inclined, but I would hope that you 
would take that back with you.
    Mr. Mendoza. Thank you, Senator. And you missed it, my oral 
statement was tremendously inspiring.
    [Laughter.]
    Mr. Mendoza. But on a serious note, I just want to thank 
you for your conviction and that call for action around this. 
That is certainly felt and understood and at the forefront of 
the initiative's work. We are trying to approach this issue in 
as systemic of a way as we can, knowing that there are lots of 
moving parts to this work, lots of areas of the Country that 
are just not having the opportunity to leverage what 
opportunities we do have in front of us.
    So we know there is a shared responsibility in this work, 
because it has an added value to the Nation as a whole to have 
this rich diversity within us and who we are as a Country. This 
really comes back to a statement made in my recent visit to 
North Dakota, where this is not an issue of knowing a language 
to get into college or knowing a language to expand your world 
view or enhance your skill set as an individual. It is about 
life and death. That is exactly how it was expressed to us. Our 
elders are dying and our children are killing themselves. We 
have to have this as a foundation to addressing these other 
critical issues in regard to who we are.
    So I just heed that call to action from you and hope that 
we can continue to work together. That is the commitment that 
we are here to express, to continue to look at these issues 
with you all and to act on them for the future of our youth.
    The Chairman. Thank you, Senator Murkowski.
    Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman. I just 
have a couple of questions. Ms. Sparks, here is the question. 
We have a few schools that are kind of struggling financially. 
One of the issue is with Preservation and Maintenance grants at 
ANA. My question is, and we are trying to figure out some 
flexibility in this legislation that would allow us to go to 
potentially five years, more stability, more sustainability. 
Three years seems long to some, but for this kind of 
programming, it is somewhat short.
    Do you think there is flexibility within the legislation or 
do you think we need to tweak it to create some different 
language in there to create that ability to go to five years?
    Ms. Sparks. Thank you for the question. We certainly have 
heard this, during the ACF tribal grantee meeting, that 
stability is very difficult to achieve in three years. So this 
message is coming across loud and clear to us at ANA.
    With regard to the Preservation and Maintenance Grants, 
which you asked about specifically, we do have some flexibility 
for those grants. They can be one year to five years for 
Preservation and Maintenance. The Esther Martinez, we are tied 
to three years, because when it was drafted, by way of 
background, I worked extensively on Esther Martinez.
    Senator Begich. So you drafted it for the three years.
    Ms. Sparks. I worked on it.
    [Laughter.]
    Ms. Sparks. And I helped work with a lot of other people 
that are sitting behind all of you today. But we didn't realize 
that we were tying our hands to three years with Esther 
Martinez.
    Senator Begich. You are in support of seeing it moved to 
five?
    Ms. Sparks. We are supportive of seeing it move to five. 
And down to one as well, because we are hearing from some 
communities that three years is too long to do some of the 
activities they would like to do under Esther Martinez, and for 
some, three years it not enough. So if we could have the same 
flexibility for Esther Martinez as we do for the Preservation 
and Maintenance Grants, I think that would make our grantees 
very happy.
    Senator Begich. Very good. Let me ask you, Mr. Mendoza, and 
you may have answered this, I got in late because I was coming 
in from another event. Can you just give me a sense of how and 
what your engagement is with working with our Alaska tribes as 
well as, and I say tribes, as well as our village corporations 
and so forth? Because have a different set up. But our tribes 
specifically, can you give me kind of a sense on that?
    Mr. Mendoza. I appreciate the question, Senator. Our 
primary mechanism is of course through a number of programs 
that spend certainly Title VII as well as Title III HEA aid for 
strengthening institutional programs. And an overarching 
initiative as a whole, transition from building upon the 
success of the Tribal Colleges and Universities Initiative to 
looking at the comprehensive challenge and successes of 
American Indian and Alaska Native students nationwide. So in 
each step of our looking at what does that work look like, 
whether it is through the DOI Ed Memorandum looking at our 
Native Language Working Group, the other working groups that we 
are a part of, and certainly outreach and engagement primarily 
our responsibility to consult with Indian tribes around the 
Country. That work is threaded throughout there and in Alaska.
    We have made trips to Alaska, my office has. I was just 
there for National Congress of American Indians to talk to both 
corporations and those villages that were able to make it. 
Through the Alaska Native Education Program, as well as the 
Alaska Native-Native Hawaiian Program in HEA Title III, we make 
sure we keep those conversations close in looking at how we can 
strengthen those programs to be consistent with what is 
happening and unique where it needs to be in regard to the work 
of the Initiative.
    Senator Begich. Do you think as you are having those 
discussions or participating in those groups that will have 
Alaska Natives on them, do you feel there is some uniqueness to 
the way Alaska has to deliver some of its programs, from the 
way you handle others? Is that coming out or is it pretty much 
what you see is pretty consistent across Indian Country in the 
Lower 48 and Alaska Native communities?
    Mr. Mendoza. Tremendous uniqueness, not only geographic but 
diversity as well. The challenges facing Alaska Natives are 
very different, certainly, when you are talking about urban and 
rural. The notion of rural becomes to the extreme when you are 
talking about Alaska Natives. Urban, not necessarily on the 
same lens as a Seattle or Denver. So there are nuances in that 
regard as well. We see activity for the corporations in some of 
the urban areas, whereas we are really interested in looking at 
the partnerships and the strength of collaboration between the 
villages and some of the normal ways of looking at Lower 48 
interests, local education agencies, what do private and 
philanthropic collaboratives look like there.
    And the one that always stands out the most with Alaska are 
certainly costs related to that. Certain geographical 
difference related to infrastructure realities. Accessibility 
around the same kind of assumptions that even our rural 
instances here in the Lower 48 enjoy, such as access to 
internet, libraries. So those challenges are very real, and 
those are some of the uniquenesses that I have been exposed to 
in my work. That guides the work of the Initiative.
    Senator Begich. Thank you very much.
    Mr. Chairman, thank you very much. I just appreciate 
especially your summary there of the recognition that there is 
some uniqueness, which means maybe there will be initiatives or 
policies or laws or regulations, we have to keep that all in 
mind when we are dealing with the Alaska perspective. Thank 
you.

    The Chairman. Thank you, Senator Begich.
    I want to thank the two witnesses. I will be presenting 
some written questions for the record and there may be others 
up here too. Thank you both for your testimony. I appreciate it 
very, very much. If you can stick around for the tribal 
witnesses, it may be beneficial, but that is your call.
    We will go to our second panel now. There are some 
logistical problems, so we are going to run this a little bit 
differently than what I had originally thought. We are going to 
hear from Sonta Hamilton Roach. Sonta is an elementary school 
teacher at the Innoko River School in Shageluk, Alaska, and a 
board member of Doyon Limited. What we are going to do, unless 
there is objection from the panel, Sonta is going to give her 
testimony first. Because of logistical problems, we will ask 
questions. I will start with Senator Murkowski and Senator 
Begich and the rest of us. Then she will be excused to be able 
to catch her flight.
    Then we are going to hear from Ms. Clarena Brockie, who is 
the Dean of Students at Aaniih Nakoda College, in Harlem, 
Montana. Then we are going to hear from Thomas Shortbull, 
President of Oglala Lakota College in Kyle, South Dakota. We 
will also hear from the Honorable Ed Delgado, Chairman of the 
Oneida Tribe of Indians of Wisconsin in Oneida, Wisconsin. 
Finally, we are going to hear testimony from Namaka Rawlins, 
who serves as Director of Strategic Partnerships and 
Collaboration, with `Aha Punana Leo, in Hilo, Hawaii.
    I want to welcome all the witnesses. I would ask that your 
verbal testimony be five minutes, and we are going to enter 
your entire written testimony for the record. Sonta, you can 
start.

 STATEMENT OF SONTA HAMILTON ROACH, ELEMENTARY SCHOOL TEACHER, 
                  INNOKO RIVER SCHOOL; BOARD 
                     MEMBER, DOYON LIMITED

    Ms. Hamilton Roach. Thank you very much. The logistical 
challenge is I have a nine and a half month old waiting back 
home in Alaska.
    Hello, everyone, Mr. Chairman and members of this 
Committee. My name is Sonta Hamilton Roach, and I live in 
Shageluk. I am Deg Hit'an Athabascan. In my community of 
Shageluk there are approximately 80 people, who are primarily 
Athabascan. It is very isolated, as was talked about earlier, 
and is only accessible by air or by boat. I am happy to say 
that I returned home and am currently working as an elementary 
classroom teacher.
    It is truly an honor to be here today, to carry the Alaskan 
torch, and to testify in support of Senate Bill 1948 and Senate 
Bill 2299, fostering the revitalization efforts of Native 
American language programs. At this point in time, and in the 
history of indigenous languages, these two bills will strongly 
and positively impact revitalization efforts. I would say that 
the timing is perfect, but in the same breath, I'd say that it 
is unfortunate that our languages were ever so endangered and 
that this time had to come at all.
    Today across Alaska, the seeds have been planted and there 
are several successful language models and programs that have 
been developed, but only at a small scale. These seeds need 
water. To be successful in revitalization, we need systemic 
change from systems of power that includes schools, tribes, 
Native corporations and non-profits to work together in 
partnership with State agencies and the Federal Government.
    In Alaska, we have made significant headway in adopting 20 
indigenous languages as official languages of Alaska. This bill 
will also allow for that to happen.
    Our indigenous languages have been endangered for 
generations. Our languages were especially impacted when that 
young girl or boy was first punished for speaking their 
language in BIA and mission-run schools. Language, being the 
closest thing to our identity and knowledge base we have, was 
stripped from us, for talking Deg Xinag, my people's language. 
This wasn't eons ago, this was my grandpa, this was my grandma. 
These were our grandparents. As children, they were not allowed 
to speak our languages all because they went to school.
    This is the legacy I am living with as a teacher today. And 
today, we are a new generation, those of us in this room, we 
share a new and exciting view of ourselves, of our communities, 
and of our Nation and the potential that exists in all of us to 
speak and celebrate our languages. It is the view that we as 
Native people have to impact language learning from our 
cultural lens. It is the hook to keep students in school.
    Schools in the Yupi'k region have very successfully 
developed and implemented early childhood education immersion 
models in early childhood education, and it is directly linked 
to higher student achievement and success rates. I had the 
privilege to visit Ayaprun Elitnaurvik Immersion School in 
Bethel, Alaska, and I have never felt so privileged to step 
into anyone's classroom before. The environment encouraged and 
nurtured cultural values, self-identity, and language. The 
sense of place was sacred, holistically nurturing students in 
their learning. It has helped to keep the language in the 
community alive. The proposed legislation can grow this 
experience, fostering success in our students.
    Language is just like looking through the lens of someone's 
culture, the depth of who they are and their experiences, their 
relationship to the land and animals. Place-based and cultural-
based education keeps students engaged. It is the hook that 
increases student achievement. This is known.
    In rural Alaska our communities are plagued with high 
suicide rates, high dropout rates, which correlate directly 
with a loss in culture and loss of language. The key to 
changing this is support for relevant curriculum, support for 
programs like those in Bethel. If this Committee can encourage 
these efforts, we will have strengthened Native American 
languages across the Country.
    Like our national parks, our indigenous languages and 
cultures are our national treasures. The ecological knowledge 
and understanding of living off the land and using resources is 
a treasure. The oral and traditional stories, told through the 
language, is precious and valuable. These bills will ensure 
that our precious treasures will not be lost, but used daily in 
the lives of many.
    Michael Krauss, a linguist and expert in Alaska Native and 
indigenous languages, said that out of 300 North American 
languages, only 200 or 210 languages are spoken today, and in 
Alaska, there are 18 without any children speakers at all, 
including my own. In conclusion, this legislation is a positive 
turning point in our Nation that acknowledges the grassroots 
efforts that are being made to continue keeping languages alive 
today. It brings light to those elders who were beaten for 
speaking, and it empowers the young people to take the lead in 
solidifying our languages as national treasures.
    It is my hope that this legislation is passed quickly and 
my belief that Native Americans will take this opportunity to 
truly revitalize indigenous languages to the fullest extent 
possible, that systemic change will occur, and elders will hear 
their grandchildren and great-grandchildren speaking their 
language once again. Our children will go to school not having 
to change thinking caps, or change the lens in which they view 
the world every single day. But rather, the systems are put 
into place to promote and foster educational and economic 
advancement that truly benefits the next generation.
    I would say thank you, but historically in our language 
there is no word for it. Our relationship is based on 
reciprocity. I know that our relationship will continue to 
grow. [Word in native tongue.] That is good enough.
    Goodbye.
    [The prepared statement of Ms. Hamilton Roach follows:]

Prepared Statement of Sonta Hamilton Roach, Elementary School Teacher, 
            Innoko River School; Board Member, Doyon Limited
    Ade' (hello) Chairman and members of this Committee. My name is 
Sonta Hamilton Roach, and I am Deg Hit'an Athabascan from Shageluk. 
Shageluk is my hometown, with roughly 80 people, and where I currently 
work as a teacher. Add Shageluk info, more picture. Add words and 
language in Athabascan.
    It is truly an honor to be here today, to carry the Alaskan torch, 
and to testify in support of Senate Bill 1958, and Senate Bill 2299, 
fostering the revitalization efforts of Native American language 
programs. At this point in time, and in the history of indigenous 
languages, these two bills will strongly and positively impact 
revitalization efforts. I would say that the timing is perfect, but in 
the same breath, I'd say that its unfortunate that our languages were 
ever so endangered and that this time had to come at all.
    Today across Alaska, the seeds have been planted and there are 
several successful language models and programs that have been 
developed. But only at a small scale. These seeds need water. To be 
successful in revitalization, we need systemic change from systems of 
power that includes schools, Tribes, Native corporations and non-for 
profits to work together in partnership with state agencies and the 
federal government. These bills allow for that to happen!
    Our Indigenous languages have been endangered for generations. Our 
languages were especially impacted when that young girl or boy was 
first punished for speaking their language in BIA and mission run 
schools. Language, being the closest thing to our identity and 
knowledge base we have, was stripped from us--for talking Deg Xinag, my 
people's language. This wasn't eons ago, this was my grandpa, this was 
my grandma. These are ``our'' grandparents. These children cannot speak 
our languages all because they went to school. This is the legacy I am 
living with as a teacher.
    And today, we are a new generation, those of us in this room. We 
share a new and exciting view of ourselves, of our communities, and of 
our nation and the potential that exists in all of us to speak and 
celebrate our languages. It's the view that we as Native people have to 
impact language learning from our cultural lens.
    So what does language learning include? Language learning includes 
immersion camps, language nests, distance delivered language learning, 
and more! For example, schools in the Yupi'k region have very 
successful immersion models for early childhood education, and its 
directly linked to higher student achievement and success rate. Add 
citation for written record. I've had the privilege to visit Ayaprun 
Elitnaurvik immersion school in Bethel, Alaska, and I've never felt so 
privileged to step into anyone's classroom before! The environment 
encouraged and nurtured cultural values, self-identity, and language. 
The sense of place was sacred, holistically nurturing students in their 
learning. The proposed legislation can grow this experience, creating 
success in our students.
    Language learning also includes the Koyukuk Athabascan language 
program through the Yukon Koyukuk School District that is taught via 
video conferencing to several isolated sites across the district, and 
very successfully. The Gwich'in have also recently taken significant 
strides in their language efforts, and have new programs underway. And 
in the North Slope Borough School District, students learn their 
Inupiaq language dialects online! And finally, just this spring the 
Alaska state legislature passed House Bill 216 adopting Native 
languages as official languages of the State of Alaska. Representative 
Johnathan Kriess-Tomkins stated for the record that the bill was, ``An 
important step in recognizing the living, breathing Alaska Native 
languages of the state of Alaska, which continues to grow into daily 
use by many speakers around the state who both practice and teach and 
has been done for millennia prior to statehood.''
    How will this legislation change, impact, or improve language 
learning? First, it will be that hook that teachers use in the 
classroom to engage students in their lesson. It will keep students 
coming into school each and every day, that motivates them and maybe 
even gives them something to live for, literally. It's more than just 
cultural pride, or just learning a language, it's learning a knowledge 
base, a skill-base, and learning who they are!
    Language is just like looking through the lens of someone's 
culture, the depth of who they are and their experiences, their 
relationship to land and animals. Place-based and cultural-based 
education keeps students engaged and increases student achievement. In 
Rural Alaska our communities are plagued with high suicide rates, and 
high drop out rates, which correlate directly with a loss in culture 
and language. The key to changing this, is support for relevant 
curriculum, support for programs like those in Bethel at Ayaprun. If 
this committee can encourage these efforts, we will have strengthened 
Native Americans across the country.
    Like our national parks, our indigenous languages and cultures are 
our national treasures. The ecological knowledge and understanding of 
living off the land and using resources is a treasure. The oral and 
traditional stories, told through the language, is a treasure. These 
bills will ensure that our precious treasures will not be lost, but 
used daily in the lives of many.
    Michael Krauss, a linguist and expert in Alaska Native and 
Indigenous languages said that out of 300 North American languages, 
only 200 or 210 languages are spoken today, and in Alaska, there are 18 
without any children speakers at all.
    In conclusion, this legislation is a positive turning point in our 
nation that acknowledges the grassroots efforts that are being made to 
continue keeping languages alive today, it brings light to those Elders 
who were beaten for speaking, and it empowers the young people to take 
the lead in solidifying our languages as national treasures.
    It is my hope that this legislation is passed quickly and my belief 
that Native Americans will take this opportunity to truly revitalize 
indigenous languages to the fullest extent possible, that systemic 
change will occur, and Elders will hear their grandchildren and great-
grandchildren speaking their language once again. Our children will go 
to school not having to change thinking caps, or change the lens in 
which they view the world every single day. But rather, the systems are 
put into place to promote and foster educational and economic 
advancement and truly benefit the next generation.
    I would say thank you. But historically, in our language there is 
no word for it. Our relationship is based on reciprocity, and I know 
our relationship will continue to grow. I appreciate your time. 
Language addition.

    The Chairman. Thank you, Sonta. Before we go to the other 
panel members, we are going to ask you questions, then we will 
release you to make your flight. Senator Murkowski?
    Senator Murkowski. Sonta, first of all, thank you for 
making the long trip back here. I can't imagine how stressful 
it is leaving a 10-month old behind, and certainly understand 
your urgency on getting on that Alaska Airlines flight here 
very shortly. So we will keep our comments brief.
    I appreciate what you have said about the significance of 
this systemic change and also how you have outlined what we 
have seen as a State with repression of Native language 
historically. Not only were children discouraged, they were 
punished for speaking their Native languages. And then how you 
come back out of that hurt and repression is very difficult. It 
is generational.
    But I do think we are beginning to see that change, and it 
feels so good. I too have been out in the Yupi'k school 
district and been to the immersion programs there. It is 
phenomenal what you see. But you also appreciate that what they 
are doing is they are building their own curriculum. They are 
working with elders, they are designing the flash cards. They 
are building it on their own.
    I wonder, when you talk about support for relevant 
curriculum, we are making headway. But I also know that we do 
not have a number of Native, Alaska Native teachers within our 
schools. We don't see as many back in our villages as we would 
like. And I know that so many of our administrators, whether 
they are superintendents, our administrators, our principals, 
they are coming to Alaska from outside. They might not have 
that connection about how significant and how important it is 
to really make these languages come alive to these children.
    Do you feel that you are getting the support to build these 
relevant curriculums, the support within the Administration to 
do the change that we need to see so that translates down to 
each student? Where are our barriers now?
    Ms. Hamilton Roach. Thank you so much for that insight. 
Absolutely, you bring such an important point and question 
forward. There does need to be, we are on the cusp of so much 
more, I feel like the potential is really huge. We have a lot 
of young people who are leading and spearheading these new 
programs. There are kinds of these language nests or different 
models that are looked at. There is not one model that applies, 
and we can understand that today, to everybody, to these remote 
sites where I have 10 students. There are models where they are 
teaching students via distance delivery, video conferencing, 
Yukon Koyukuk School District. Languages and dialects are 
accessible online, students can click on their dialect and 
learn actively.
    In terms of teacher preparation and maybe we have so many 
teachers that are not from the area. I am, it is a privilege to 
be teaching in my own community. So there is that need of 
teaching teachers about the culture. Just recently, with the 
teacher evaluation for the State of Alaska, they now have to be 
evaluated on cultural standards and how they are acknowledging 
and celebrating culture in the classroom. So with this effort 
in language, I really see that blossoming and becoming more.
    The potential is out there. I don't think we are where we 
want to be yet. There are barriers. I think getting the elders 
involved, the partnerships will be huge. I also want to stress 
the flexibility with these funds. I do like the idea of the 
five-year, the granting cycle. But the flexibility to have 
changes made I think would be critical for our communities and 
those elders that they work with.
    Senator Murkowski. I appreciate what you do as a teacher 
and again, the opportunity to be back in your village is so 
important. I wish that we could encourage more, I think we are 
making that change.
    I asked about the support from superintendents and 
principals, because my children went to an immersion school in 
Anchorage. It was a time when immersion schools were not yet 
that highly thought of. It was very difficult in those initial 
years to get basically the respect from the district as to what 
it is that we were trying to do. And they wanted to take those 
very preliminary test results wherein the early years, when you 
have a child in an immersion program perhaps they are not 
performing at the same level that a child in an English-
speaking program is. We had to demonstrate it.
    But when you have resistance from the top, it makes it 
difficult. Know that we want to work with you to encourage our 
administrators to make the commitment to our immersion programs 
that will allow for, again, the successes that I think we will 
see within our particularly remote villages.
    So thank you for what you are doing. I know, I think this 
is pretty neat that there is no work for thank you, it is based 
on reciprocity. What you are giving to your students is the 
most beautiful example of giving and thanks. So thank you.
    The Chairman. Senator Begich?
    Senator Begich. Thank you very much.
    I know you have to catch your plane, you are probably a 
little nervous about getting there. It is 15 minutes from here, 
that is the good news.
    First, thank you very much for being a teacher. My parents 
were teachers, my two sisters are teachers, my sister-in-law 
just retired after 27 years of teaching in Anchorage. So we 
have very broad-based education in our household. And of course 
again, thank you very much.
    Second, I have a question and you kind of hit on it, I just 
want to make sure there is enough of it. You mentioned some of 
the new technologies being utilized to explore and learn 
cultures, but also reminding us no matter where we live, we can 
access this information. It is a struggle in rural Alaska to 
have the right kind of technology, even the speed, the fiber 
and all the other pieces that get it to your classroom. Do you 
think we are making the right movements here, making sure we 
have enough technology, so when you want to access some of this 
for our students that it is there, not having to struggle 
waiting to get connected? And there is not enough space on the 
line, tell me your thoughts there.
    Ms. Hamilton Roach. Thank you for that. Definitely 
technology in our school district, we have several different 
villages. And small in scale, like Shageluk, with 15 students. 
I know that some districts have already successfully adopted 
the curricula that is tied to technology and learning online 
and also via distance delivery. There are gaps that exist that 
need to be addressed with certain districts. I think it is all 
uniquely there; in partnerships, those can be resolved. But the 
successful models are there for us to use. High speed internet 
connection is always an issue. That is something that is being 
looked at something that can be improved.
    Senator Begich. And I am assuming, I think I know the 
answer, but for the young people that are getting connected, 
that is not an issue?
    Ms. Hamilton Roach. Right.
    Senator Begich. When they get the moment, they are beyond 
us.
    Ms. Hamilton Roach. They are very connected, and they are 
totally, they love to have access. I just want to also stress 
that that technology piece, for them it is the social part of 
their day. Because they are surrounded by their cousins and 
family or maybe younger grade levels. So that opportunity to 
connect via distance bridges their social interactions and 
allows for more of that to happen.
    Senator Begich. I have a question, I am curious about your 
response. I agree with you, what the legislature did this year 
in Alaska was an incredible thing, we hope the Governor signs 
the bill. I think he will. But the grass roots effort was 
really unbelievable. And knowing that there is a continuing 
grassroots effort within the Alaska Native community to 
recognize the culture, the language, that it is not just about 
some people, everyone should understand it, know it and be part 
of it. One of the things I did when I was mayor, we built a 
convention center. It was another building, but we did 
something different. We named it after the Dina'ina people. But 
we also made sure every room had the native language for the 
description of that room. And people have told me, I know in 
Hawaii their convention center there is very similar. People 
say, well, people will never learn to pronounce these names. So 
that is part of the process of learning the culture, of 
understanding where the generation of the names comes from and 
so forth.
    Do you think there is enough, and that was to me an 
experiment, to be honest with you. Because sure, we did have 
some conflict, to be frank with you. We tried to create, you 
have seen the facility has the rugs, to the colors, everything 
is about what the environment is about and what the culture is 
about. Do you think there is enough within Alaska and others 
that are not only educating Alaska Native people on regaining 
the culture, but non-Native people to understanding the 
culture? I was born and raised in Alaska, so I believe I 
understand it. But there are so many that may not understand it 
because they are not connected to it. Do you think there is 
enough of that, or are there some strides we need to be 
thinking about? It is critical that the Alaska Native people 
understand and know their own culture. There is no question 
about it. Yet there are so many that live in Alaska who have no 
clue.
    Ms. Hamilton Roach. Absolutely.
    Senator Begich. Do you get my question?
    Ms. Hamilton Roach. Yes, I completely do, and the short 
answer is no, we need more. I can say that because the part 
about language or culture, recognizing it, the first thing you 
do is acknowledge that they exist and give it a voice. The 
second thing is using it and celebrating it, like I do in the 
classroom, dusting off those 1980s bilingual tools to use in 
reading. My students can read that level. So we go through it.
    But it is celebrating it, using it, keeping it alive that 
doesn't just educate anybody in Alaska, but those kids who 
strongly need it. This also goes back to the need for more up 
to date, relevant curriculum that is alive, not stick figures 
in those books.
    Senator Begich. Some real stuff.
    Ms. Hamilton Roach. Yes, some new up to date, keeping in 
mind student learning and best practices.
    Senator Begich. I will end by saying, that is the power of 
the technology, too. You can move that new information quicker 
than a textbook being printed and going through all that 
process. There is so much available online if you just have the 
high speed connectivity. You can access it and then your 
students will have more options and more choices and more 
opportunities. Is that a fair statement?
    Ms. Hamilton Roach. Absolutely, and cost efficient as well.
    Senator Begich. Thank you very much. I know what the 
distance is like. So both Senator Murkowski and I have to fly 
back and forth to Alaska. So having you here, we cannot say 
enough to thank you.
    Ms. Hamilton Roach. It is an honor. And thank you to the 
rest of the panel for allowing me to go.
    The Chairman. Thank you, Sonta. We appreciate your 
testimony and appreciate your answers to the questions. As a 
classroom teacher, like yourself, we will say, you are 
dismissed.
    [Laughter.]
    The Chairman. We will move on to the other panel members. 
We will have all your testimony then we will ask questions when 
you are all done. Representative Brockie, you may proceed.

STATEMENT OF CLARENA BROCKIE, DEAN OF STUDENT AFFAIRS, AANIIIH 
                         NAKODA COLLEGE

    Ms. Brockie. Mr. Chairman, thank you for inviting me to 
address the Committee today.
    My name is Clarena Brockie and I am Aaniiih from the Fort 
Belknap Indian Reservation. Both of my parents are Aaniih. I am 
also a proud member of the Montana House of Representatives. I 
represent House District 32, which includes the Rocky Boy 
Indian Reservation and the Fort Belknap Indian Reservation. I 
am also the Dean of Students at Aaniiih College.
    Aaniiih College is a small school with a big mission, 
serving 225 students each semester, most of whom are members of 
one of the two tribes on the Fort Belknap Indian Reservation.
    The Committee knows the dire situation we face as Indian 
people in terms of the loss of our languages, so I will not 
recite all the statistics. When Christopher Columbus and other 
Europeans first came to Indian Country, more than 300 different 
languages were spoken here. Today, less than half remain. This 
tragic outcome is a direct result of prior U.S. government 
policy of assimilation, which sent many Indian children to 
boarding schools, where they were prohibited and often fiercely 
punished for speaking their own languages. This legacy is made 
even worse when you consider that once a language becomes 
extinct, it takes with it much of the history, the philosophy, 
ceremonies, culture and environmental and scientific knowledge 
of the people who spoke it.
    It is difficult to imagine the degree to which such a loss 
will impact our Indian children and youth who already suffer 
from generational poverty and oppression, violence, abuse, 
neglect, a lack of self-esteem and lack of hope. Doing research 
for my graduate thesis on the oral history of the Gros Ventre, 
I learned how meticulously and systematically my own language 
had been removed from our homes and schools. It had a profound 
effect on me.
    The Aaniiih nin became one of the many tribes that was in 
danger of joining the group of vanishing Indians. In 1997, only 
25 Aaniiih speakers were alive and no children kindergarten 
through 12th grade spoke the language. Despite this, the 
Aaniiih nin have survived. Today, our language is beginning to 
thrive, thanks to an important project at Aaniiih Nakoda 
College.
    In the late 1990s, our college wrote a grant to save our 
language through an immersion elementary school on our college 
campus. In 2003, we opened the White Clay Immersion School. 
Today the largest group of Aaniiih speakers are White Clay 
students. Since our immersion school began, Native children 
speakers has gone from zero to 30. Students attend a full day 
of White Clay Immersion classes, teaching and learning rely on 
Native knowledge and Native ways of knowing and being. Non-
native ways of learning are incorporated to offer students the 
best of both worlds. The curriculum emphasizes the 
interconnections between the physical, mental, and spiritual 
well-being through cross-disciplinary integration, inter-
generational learning and field-based learning experiences and 
community projects. This innovative partnership involving a 
tribal college taking ownership of K through 8 education is a 
transformative model for other American Indian communities.
    White Clay graduates transition to public schools and are 
recognized as leaders in student government, academics and 
sports. For example, students graduating from White Clay in 
2013 won the science, math, English literature and art awards 
as sophomores last year at their new off-reservation high 
school.
    Unfortunately, financial support for White Clay Immersion 
School is sporadic. Most of our funding comes from private 
foundations and local support. In addition, we receive funding 
from the Department of Health and Human Services and 
Administration of Native American Programs, ANA. However, this 
is a competitive program and in some years, White Clay received 
no funding. White Clay does not receive funding from the State 
of any Federal formula funding. Instead, staff holds 
fundraisers to support school trips, lunch, supplies and other 
activities. Although it is always a struggle, our college is 
committed to the survival of our Aaniiih language. We know that 
because they are grounded in their culture and confident in 
their language, our White Clay students will ensure that our 
people, our language will thrive for many generations to come.
    In closing, I want to join President Shortbull and all 
tribal colleges in making these recommendations. One, the 
Committee should include tribal college Native language 
research and education programs as an amendment to S. 1948. 
This is a provision that Chairman Tester included in a 
legislation introduced previously as part of his bill, THE 
PATH.
    To revitalize our languages, we must work at all levels, 
pre-K to college, and we must continue to expand the critical 
need for Native language research. Second, to achieve lasting 
results, the ANA language grant program should award grants for 
10 years or alternative, five years with an option to renew 
upon the demonstration of success.
    Finally, I will echo the words and frustration which I 
heard from members of the Committee during your hearing last 
week on Indian higher education. It is so incredibly 
frustrating to know that the need is so great and the models of 
success exist to know that tribal colleges, more so than any 
other entities, are working to transform Indian Country, 
achieving success but being rewarded only with flat line or 
decreased funding. We are accountable institutions; we need the 
Administration to be accountable as well.
    Mr. Chairman, we need your help, not just to acknowledge 
our treaties and the Federal trust responsibility, but take 
concrete action today to advance the proven successes of tribal 
colleges and increase our capacity to do even more in Indian 
Country. And we have a word for thank you, [thank you in native 
tongue.]
    [The prepared statement of Ms. Brockie follows:]

Prepared Statement of Clarena Brockie, Dean of Student Affairs, Aaniiih 
                             Nakoda College
    Mr. Chairman and distinguished members of the Committee, my name is 
Clarena M. Brockie, and I am Aaniiih (Gros Ventre) from Montana. Both 
of my parents are enrolled as Gros Ventre. I am proud to represent 
Montana's 32nd District, which includes the Fort Belknap and Rocky Boy 
Indian Reservations, in our state's House of Representatives. I am also 
the Dean of Students of the Aaniiih Nakoda College in Harlem, Montana. 
Aaniiih Nakoda College was chartered by the Fort Belknap Indian 
Community Council in 1984. We are a small school with a big mission, 
serving approximately 225 students per semester, most of whom are 
members of one of the two tribes on our reservation.
    Thank for inviting me to testify at this hearing examining 
legislation to strengthen efforts to preserve and revitalize our Native 
languages. It is an honor to be given an opportunity to speak on behalf 
of the many people who cannot stand here today, but I know they are 
with me in spirit.
    Aaniiih Nakoda College, along with the nation's other 36 Tribal 
Colleges and Universities, which collectively are the American Indian 
Higher Education Consortium, AIHEC, support S. 1948 and S. 2299, both 
of which would help us as we work to ensure the survival and continuing 
vitality of Native American Languages.
Current Status of Native Languages
    The Committee knows the dire situation we face as Indian people in 
terms of the loss of our languages, homelands, and identity, so I will 
not recite all of the statistics. I will just mention that when 
Christopher Columbus and other Europeans first came to Indian Country, 
more than 300 different languages were spoken here. Today, well less 
than half remain. Most of these are spoken only by a handful of elders 
and are in serious danger of disappearing--in fact, all but 15 or 20 of 
our Native languages are spoken only by adults who are not teaching 
their younger generations the language. This tragic outcome is a direct 
result of prior U.S. government policies, including assimilation which 
sent many Indian children to government-run boarding schools where they 
were prohibited from--and often fiercely punished for--speaking their 
own languages, their last tie to their homelands and their very 
identity. This terrible legacy is made even worse when you consider 
that once a language becomes extinct, it takes with it much of the 
history, philosophy, ceremonies, culture, and environmental and 
scientific knowledge of the people who spoke it. It is difficult to 
imagine the degree to which such a loss will impact our Indian children 
and young people, who are already suffering from generational poverty 
and oppression, violence, abuse and neglect, lack of self-esteem, and 
most tragic, lack of hope.
    Fortunately, over the past few decades, greater attention has been 
focused on the need to preserve our Native culture and language, and a 
few modest pieces of legislation have been enacted at the federal 
level, including the Native American Languages Act of 1990 and 
inadequately funded Esther Martinez Native American Languages 
Preservation Act of 2006.
The Survival of Native Languages
    My graduate school thesis focused on the Oral History of the Gros 
Ventre, and in the process of conducting research, I learned how 
meticulously and systematically our own Gros Ventre language had been 
removed from our homes and schools. We were even prohibited from 
conducting our ceremonies. The Aaniiih nin became one of the many 
tribes that was in danger of joining the group of ``Vanishing 
Indians.'' In the early 1600s, there were more than 15,000 Aaniiih nin 
(White Clay People), but by 1903, there were less than 300. 
Anthropologist Al Kroeber visited the Fort Belknap Indian Reservation 
to collect as much of the culture and history of the Aaniiih as he 
could. He was soon followed by Clark Wissler, another noted 
anthropologist known for his work with supposedly dying tribes.
    In 1997, the Aaniiih language, which is one of two Native languages 
spoken on the Fort Belknap reservation, was in the last stages of 
survival. Only 25 speakers existed, and no children--kindergarten 
through 12th grade--spoke the language. But despite the grim 
predictions and statistics, the Aaniiih nin have survived. Today, our 
language is beginning to thrive with more young language speakers, 
thanks to an important project at Aaniiih Nakoda College.
    In the late 1990s, I was employed by Aaniiih Nakoda College (then 
called Fort Belknap College) as the Development Officer, and we decided 
it was time to write a planning grant proposal for a project to try to 
revive our language. At ANC, students are required to take language and 
tribal history classes for one or both tribes. In addition, Aaniiih and 
Nakoda language and culture classes are taught in the local public high 
schools and evening classes are held for community members who want to 
learn the Aaniiih and Nakoda languages. A speaker-learner project was 
also pursued. However, none of these efforts achieved the level of 
fluency we needed to ensure the continued vitality of our language into 
the future. It seemed that to be truly successful, the Native language 
needed to be spoken consistently in the home and at school. Without 
some kind of consistent reinforcement, many students retain only a 
portion of the words taught. I wrote the grant proposal, entitled 
``Speaking White Clay,'' with all of this in mind; and we prepared it 
with input and support of the Gros Ventre Cultural committee and Native 
language speakers.
    Fortunately for us, the funder stressed the need to focus on our 
youth and asked in the review process, ``What are you doing for the 
youth?'' The goal of our grant was to ensure the survival and 
continuing vitality of our language and culture. With a funded plan, 
Aaniiih Nakoda College President Dr. Carole Falcon Chandler, along with 
staff and faculty, set out to fulfill the dream of our elders to 
protect our language.
    After researching the issue, we determined that our best hope for 
success was in the establishment of a full day immersion program. In 
2003, Dr. Janine Pease, who conducted an extensive study of Native 
American language immersion initiatives entitled ``Native American 
Language Immersion: Innovative Native Education for Children and 
Families,'' writes:

  <bullet> ``Most intriguing about the Native and Indigenous language 
        immersion models is the clear and positive connection between 
        Native and Indigenous language and culture with educational 
        achievement.''

  <bullet> ``For indigenous people, Native American language immersion 
        activities hold great promise in the development of children, 
        youth, family and community.'' \1\

    \1\ Pease-Pretty On Top, Janine. ``Native American Language 
Immersion: Innovative Native Education for Children and Families.'' 
Publication of the American Indian College Fund with support from the 
W. K. Kellogg Foundation of Battle Creek MI. 2003. Page 12.
---------------------------------------------------------------------------
Establishment of the White Clay Immersion School
    In 2003, the White Clay Immersion School was established under the 
Aaniiih Nakoda College. The goals of the school are to: (1) promote the 
survival and vitality of the White Clay language; (2) provide 
culturally based educational opportunities that build cognitive skills 
and foster academic success; (3) instill self-esteem and positive 
cultural identify; and (4) prepare students to become productive 
members of society.
    Unfortunately, since we wrote our proposal in 1997, we have lost 
our oldest Native speakers. Today, no fluent elder Aaniiih speaker 
lives on the Fort Belknap Reservation. There are a few younger people 
who have learned the language and speak it well. However, today the 
largest generation of Aaniiih speakers comprises the students of 
Aaniiih Nakoda College's White Clay Immersion School (WCIS). Since WCIS 
began, child Native speakers has grown from none to 30. Students at 
WCIS attend a full day of classes in an immersion setting. Teaching and 
learning focus on the White Clay language and rely heavily on Native 
knowledge and Native ways of knowing and being. Non-Native ways of 
learning are incorporated to offer students the best of both worlds and 
to help them become positive and successful members of the larger 
community. WCIS's curriculum emphasizes the interconnections between 
physical, mental and spiritual well-being through cross-disciplinary 
integration, intergenerational learning, and field-based learning 
experiences. Students participate in community projects, public events, 
and international exchanges.
    The White Clay Immersion School is the first, and now one of two, 
full day Native language immersion schools operating within a Tribal 
College. Oglala Lakota College in Kyle, South Dakota operates the other 
TCU-based immersion school, through grade 5. WCIS now includes both 
elementary and middle school. The school is housed in the beautiful 
Aaniiih Nakoda Cultural Building. This unique and innovative 
partnership in educational self-determination serves as a 
transformative model for other American Indian communities across the 
United States that is facing the impending loss of their own Native 
language.
Administrative Leadership and Quality of WCIS Staff
    The White Clay Immersion School operates within Aaniiih Nakoda 
College's central administration, under the direction of the college 
president. Dr. Lynette Chandler serves as the director of White Clay 
Immersion School since its inception in 2002. She has extensive 
knowledge of and training in immersion teaching practices and has 
working with indigenous language experts from Montana, Wyoming, Hawaii, 
Peru, and Guatemala, Australia and New Zealand. Dr. Chandler earned her 
B.S. (English) and M.A. (Native American Studies) at Montana State 
University and her Ed.D. (Educational Leadership) at the University of 
Montana. Her accolades include being named ``Montana Indian Educator,'' 
in 2012; awarded the Andrew W. Mellon Foundation Career Enhancement 
Fellowship by the American Indian College Fund; and, in 2008 the White 
Clay Immersion School received the Commissioner's Outstanding Project 
Award from the Administration for Native Americans. Two of the 
classroom instructors have graduated from the Office of Indian 
Education Teacher Training Program. Both of the Aaniiih language 
teachers have their doctorate degrees, are fluent in Aaniiih.
Success and Academic Achievement for WCIS students
    Graduates from the White Clay Immersion School have transitioned to 
public schools and are recognized by these schools as leaders in 
student government, academics, and sports. For example, students 
graduating from WCIS in 2013 are now sophomores at a local off-
reservation public school. Last year, two students from the White Clay 
Immersion Class received the Science Award, Math Award, English Award, 
Literature Award and Art Award for their grade at their new off-
reservation high school. They also excelled in athletics, receiving the 
varsity basketball awards and were on the honor roll throughout the 
school year.
    Of the original 2011 graduating class for WCIS who have gone on to 
local public schools, three of the four students have been inducted 
into the National Honor Society. All four are on the honor roll; they 
excel in sports and are involved in community activities; they work 
after school and will be employed this summer. All of these students 
will be seniors in fall 2014. For the last three years, these students 
have been at the forefront of leadership within their school. They are 
on the student council; participate in Jobs for Montana Graduates, 
Indian Club, Yearbook, volunteer programs and lead the class awards at 
the end of school year. Two of three students who have graduated from 
WCIS in 2012 have been inducted into the National Honor Society and all 
are on the honor roll. They have received numerous awards in high 
school and are working summer jobs current for the City of Harlem. 
These students excel in their specific clubs, are managers on sports 
teams excel in track, basketball and volley ball. They volunteer in the 
community or school on a regular basis.
Financial Security for WCIS
    Financial support for the White Clay Immersion Schools has been 
sporadic. The bulk of funding has come from private foundations and 
local support. In addition, we have received funding from the U.S. 
Department of Health and Human Services' Administration of Native 
American (ANA) program. However, this is a competitive program and in 
some years, WCIS has not been funded.
    WCIS does not receive funding from the state or any federal formula 
funding. Instead, the staff host fund raisers to support schools trips, 
lunches, supplies and other school activities. Although it is a 
struggle at times, Aaniiih Nakoda College remains committed to our goal 
for the survival of our Aaniiih language, and we remain committed to 
all current and future students of the White Clay Immersion School, who 
hold the future of our people in their hands and hearts. Grounded in 
their culture and confident in their language, we know that through 
them, our people and our language will thrive for many generations to 
come.
Other Successful Native Language Models: TCUs Lead the Way
    American Indian education scholar Jon Reyhner brings perspectives 
from American Indian leaders and educators on the critical role and 
value of tribal languages in the lives of tribal people and the health 
and well-being of their communities:

  <bullet> Cecelia Fire Thunder, former Oglala Sioux Tribal President, 
        stated ``I speak English well because I spoke Lakota well. . 
        .our languages are value based. Everything I need to know is in 
        our language. It is bringing back our values, and good things 
        about how to treat each other.'' (2005 at NIEA).

  <bullet> Richard Littlebear, President of Chief Dull Knife College 
        said, ``Our youth are apparently looking to urban gangs for 
        those things that will give them a sense of identity, 
        importance and belongingness. . .But we (the Cheyenne) have all 
        the characteristics in our tribal structures that will reaffirm 
        the identities of our youth.''

  <bullet> Vine Deloria and Daniel Wildcat, in Power and Place: Indian 
        Education in America, 2001, outline a framework for Indigenous 
        language revitalization programs. Deloria writes, ``power and 
        place produce personality. . . .the Native American sacred view 
        contrasts with the material and pragmatic focus of the larger 
        American society.''

  <bullet> Lanny Real Bird, Crow and Arikara Professor at Little Big 
        Horn College notes, ``Many of the participants, facilitators, 
        or teachers of the native languages are elders, who bring a 
        wealth of knowledge not just limited to the languages. Their 
        experience provides interaction with cultural practices or 
        experiences, values, protocol, and holistic awareness that 
        includes spiritual and traditional teachings.'' \2\
---------------------------------------------------------------------------
    \2\ Reyhner, Jon. ``Indigenous Language Immersion Schools for 
Strong Indigenous Identities.'' Northern Arizona University. 2011. Page 
8-10.

    Yet, despite the documented need and proven value, funding for 
language immersion and revitalization programs has been particularly 
problematic for American Indian people, particularly because funding 
sources are categorical (have specific departmental priorities, have 
extreme dollar limitations, and are short-term). A study conducted by 
Dr. Janine Pease in 2003, and discussed above, reports on 50 language 
immersion projects in Indian Country and documents the serious 
---------------------------------------------------------------------------
challenges language program have in acquiring sustained support:

  <bullet> American Indian language revitalization programs are a 
        difficult fit for programs most often designed for other 
        language groups, Hispanic serving schools, colleges and 
        communities.

  <bullet> Language programs funding is several federal agencies have a 
        severe limitation in funding, making competition stiff and 
        discouraging applications altogether.

  <bullet> Grant terms of three to five years limit the language 
        programs sustainability, thereby limiting language learning as 
        well.

  <bullet> Granting agencies have little or no support for planning or 
        start-up costs; language programs benefit from plans well-done 
        and substantial startup cost support. \3\
---------------------------------------------------------------------------
    \3\ Ibid. Pease-Pretty On Top, Janine. 2003

    Despite these difficulties, some excellent programs are in place at 
---------------------------------------------------------------------------
Tribal Colleges, which can serve as models for others.

  <bullet> Aaniiih Nakoda College's White Clay Immersion School, our 
        own highly successful full-day immersion school, on the ANC 
        campus, for kindergarten through 8th grade--the successes and 
        challenges of our program are discussed above.

  <bullet> Little Big Horn College and Fort Peck Community College in 
        Montana have developed a tribal languages acquisition program 
        using the Plains Indian Sign Language as the means for learning 
        and using four hundred terms and phrases in the Crow, Nakona 
        (Assiniboine) and Dakota languages. This initiative has 
        classroom strategies, DVD for viewing at home on the TV and CD 
        for listening in the car or on mobile listening devices.

  <bullet> The Piegan Institute of Browning MT developed three K-8 
        language immersion schools: Cuts Wood, Moccasin Flat and Lost 
        Child. The schools instruct all subjects in the Blackfeet 
        language. Founder Darrell Kipp says, ``the school's graduates 
        are the first young fluent speakers of the Blackfeet language 
        in a generation. . .the school is not only resuscitating the 
        language, but also help to preserve Blackfeet culture.

  <bullet> At Turtle Mountain Community College in Belcourt, North 
        Dakota, a key institutional goal is for all college employees 
        to engage in 100 hours of language instruction, with 20 percent 
        of staff reaching fluency.

  <bullet> Aaniiih Nakoda College and six other TCUs in Montana have 
        collaborated in the Learning Lodge Institute to develop best 
        practices in language teaching and to create a certification 
        process to enable language instructors to teach in public 
        school classrooms.

  <bullet> Oglala Lakota College, in Kyle, South Dakota, has also 
        established a successful k-5 Lakota language immersion school, 
        while also working to expand the number and effectiveness of 
        language instructors through inter-departmental collaboration 
        of the Lakota Studies and teacher training programs.

    As these examples demonstrate, preserving, revitalizing, and 
teaching Native languages are fundamental priorities of the nation's 
Tribal Colleges. In fact, many were established specifically to protect 
and preserve a tribe's language. Over the years, the TCUs have 
broadened their programming beyond college-aged students to impact 
younger children.
Closing Recommendations
    Mr. Chairman, I join President Shortbull and all of the Tribal 
Colleges, in making these recommendations:

        (1) Include Senator Tester's TCU language research provisions: 
        The Committee should include the important Tribal College 
        Native language research and education programs, which he 
        included in legislation he introduced in the 110 and 111th 
        Congresses as part of THE PATH legislation, as an amendment to 
        S. 1948. To revitalize our languages, we must work at all 
        levels, pre-K to college, and we must continue to expand 
        critically needed Native language research.

         More support is needed for Native language immersion programs, 
        classes, community-based programs, and enrichment activities. 
        However, equally important is the need to invest wisely in 
        research and pedagogy and how Native Language use improves the 
        academic achievement of Native American students. Tribal 
        Colleges simply cannot continue to be asked to do more with 
        less.

        (2) Increase ANA language grant periods: To achieve significant 
        results that will truly impact the future of our people, the 
        DHHS-ANA language grant program should be modified: rather than 
        awarding grants for a period of three years, grants should be 
        awarded for a period of 10 years. Alternatively, DHHS-ANA could 
        adopt the model used with success by the National Science 
        Foundation. NSF currently makes awards under its Tribal College 
        and University program for period of five years, with the 
        option to award an additional 5-year grant upon a demonstration 
        of adequate progress. NSF has determined that to address 
        systemic challenges, sustainable funding for at least 10 years 
        is needed.

    In closing, I will simply echo words of frustration, which I heard 
from many members of the Committee during your hearing last week on 
American Indian higher education: it is so incredibly frustrating to 
know that the need is so very great and the models of success exist; to 
know that Tribal Colleges--more so than any other entities--are working 
every day to transform Indian Country, achieving success but being 
rewarded only with flat-line or decreased funding; to be asked by our 
people, the Administration, and Congress to do more and more with less 
and less. We are accountable institutions. We need the Administration 
to be accountable as well.
    Mr. Chairman, our struggles will continue. We need your help and 
that of the Administration not just to acknowledge the existence of 
treaties and the federal trust responsibility, but to take concrete 
action--starting right now--to advance the proven the successes of the 
Tribal Colleges and increase our capacity to do even more for the 
betterment of Indian Country. Thank you.

    The Chairman. Thank you, Representative Brockie.
    Mr. Shortbull?

STATEMENT OF THOMAS SHORTBULL, PRESIDENT, OGLALA LAKOTA COLLEGE

    Mr. Shortbull. Mr. Chairman, I am Thomas Shortbull, 
President of Oglala Lakota College. Thank you for inviting me 
to address the Committee today. I appreciate the opportunity to 
personally acknowledge my good friend, Senator Tim Johnson, and 
to thank him for being a dedicated champion of the Nation's 
tribal colleges and universities during his 28-year tenure in 
Congress. I speak for all the members when I say he will be 
greatly missed when he retires later this year.
    Mr. Chairman, the tribal colleges support passage of S. 
2299. This modest legislation is helping tribal colleges as we 
work to preserve and sustain our tribal languages and cultures. 
Greater funding is needed now because once the language is 
gone, it is lost forever. Ironically, in some ways the loss of 
our Native languages mirrors that experience by immigrants who 
came to this Country more than 200 years ago. When immigrants 
spoke broken English, they were made fun of. As a result, 
almost all immigrants chose not to speak their native language 
to their children and grandchildren. This is the same choice 
that many American Indian parents made generations ago, because 
they were made fun of and worse, summarily punished for 
speaking in their native languages around non-Indians.
    These immigrants and American Indians concluded that to 
succeed in this Country, there was no choice but to forego 
speaking their native language. The result is that native 
languages have all but disappeared on some reservations. This 
is not the case on Pine Ridge, where most elders still speak 
our language, but not our children. Today on 5 percent of 4 to 
6 year olds on my reservation can speak Lakota. This change in 
only two or three generations is a direct effect of the 
cultural genocide which was perpetrated against Native people.
    The Federal Government has a moral and legal responsibility 
to correct the consequences of its appalling practices of the 
past. Native language programs need to be immediately and 
adequately funded, so that future generations of Indian people 
will be able to experience their own Native language and 
culture and know where they come from and who they are. Several 
years ago, OLC staff began to notice a troubling trend. Every 
year, fewer of our entering students could speak Lakota. Most 
of these students had attended local schools, some of them 
speaking Lakota language classes for 8 to 12 years. They could 
recite on average about 20 words and a few phrases.
    However, the sad fact is that on my reservation, language 
instruction in our K to 12 schools has not produced any Native 
language speakers over the last 40 years. We knew that if our 
people had any hope for reversing this trend, it was up to OLC. 
It was time for OLC to open our own elementary Native language 
school. We applied for the first of two three-year grants from 
ANA, but we spent most of the first three years of our project 
researching methods for achieving greater Lakota language 
proficiency while teaching the language.
    We came to understand that to maximize our effectiveness 
and make systematic change, an immersion program is the only 
solution. Based on our experiences, we have two 
recommendations. First, the ANA language grant program should 
award grants for a period of 10 years or in two five-year 
periods, rather than the three two-year periods. It takes at 
least 10 years to establish a strong and successful program.
    Second, the TCUs, as Clarena said, we need to follow your 
recommendation in THE PATH so that we can be included in S. 
1948.
    I would like to use my final minute of time to bring to the 
Committee's attention a very important issue. Adult education 
is critically important for adults seeking a second chance in 
life. That chance was given to our World War II veterans right 
after World War II, when they could get GEDs and go on to 
college. American Indians have the highest high school dropout 
rate, highest unemployment and poverty rates in the Nation. I 
strongly support dedicated Federal funding to tribal colleges 
to provide adult education programs, including GED training. 
Today we have no dedicated funding. It all goes to the States, 
even though they count our people in a State funding formula.
    I want to alert the Committee to a very serious threat to 
the success of any GED seekers. This January 8th, the 
organization entrusted with creating the GED exam over 70 years 
ago unveiled a new GED test that focuses heavily on math skills 
and it excessively difficult. In my view, the new requirement 
would be at the expense of those seeking to join the military, 
attend a vocational school or take advantage of other 
employment opportunities that require a high school diploma 
These people would likely have the skills needed to pass the 
old GED test, but the doors of opportunity will be closed to 
them because they may not pass the new GED exam.
    We asked graduating high school seniors on the Pine Ridge 
Reservation to take the new GED practice test. The result, 61 
percent could not pass it, yet they are graduating from high 
school. This experiment demonstrates that the new GED exam 
could negatively impact American Indians and other minorities, 
and will greatly reduce employment opportunities for the poor 
in this Country. I ask that this Committee and other committees 
of jurisdiction examine the ramifications of the new GED exam, 
including the impact on Americans who are at the greatest 
danger of having doors of opportunity closed to them, simply 
because they cannot pass the new GED exam. We need to ensure 
that the GED and other equivalency tests are fair and relevant 
to all Americans.
    Thank you.
    [The prepared statement of Mr. Shortbull follows:]

   Prepared Statement of Thomas Shortbull, President, Oglala Lakota 
                                College
    Mr. Chairman and distinguished members of the Committee, on behalf 
of my institution, Oglala Lakota College in Kyle, South Dakota and the 
36 other Tribal Colleges and Universities (TCUs) in the U.S. that 
compose the American Indian Higher Education Consortium (AIHEC), thank 
you for inviting me to testify at this hearing examining legislation to 
strengthen efforts to preserve and revitalize our Native languages.
    My name is Thomas Shortbull. I am a member of the Oglala Lakota 
tribe, President of Oglala Lakota College in South Dakota, and a member 
of the Board of Directors of AIHEC. It is an honor to speak with the 
members of this Committee about Tribal Colleges and the work we are 
doing to transform Indian Country. I am grateful to have this 
opportunity to recognize my good friend, Senator Tim Johnson, with whom 
I served in the South Dakota State Senate in the mid-1980s, and to 
thank him for being a dedicated champion of the nation's Tribal 
Colleges and Universities during his 28-year tenure in the United 
States Congress. I speak for all of the AIHEC member institutions in 
wishing him a retirement that is all he envisions and indeed, deserves. 
He will be greatly missed.
    Mr. Chairman, this afternoon, I will speak briefly about the Tribal 
College Movement and the legislation that is the subject of this 
hearing, including some recommendations that we are confident will 
advance our collective efforts to preserve and strengthen Native 
languages and culture. I will also take this opportunity to discuss the 
need for Adult Basic Education programs in Indian Country, and lastly, 
I will describe some of my concerns about the newly implemented GED 
test. I ask that my written statement, submitted on behalf of Oglala 
Lakota College and the American Indian Higher Education Consortium, be 
included in the Hearing Record.
Background: The Tribal College Movement
    Mr. Chairman, you and the members of this Committee have visited 
Tribal Colleges; you have walked on our campuses, met with our 
leadership, and spent time with our students. All of this must have 
given you a fairly clear picture of the often tenuous financial 
situation facing many of our TCUs, when compared to state colleges and 
universities. Through visits to our campuses, you have gained an 
appreciation for the danger that inconsistent and inadequate funding 
presents to our efforts to attract and retain American Indian students 
and high quality faculty, to hire grant writers with the ability to 
compete against Research 1 institutions (as we are required to do), and 
to learn about and adopt the latest teaching, data collection, and 
management strategies required to maintain accreditation with regional 
accrediting bodies. These are issues we grapple with on a daily basis, 
even as we work to rebuild self-esteem and instill hope, a strong work 
ethic, and purposeful engagement within our students, many of whom have 
known little except lives of extreme poverty, unemployment, violence, 
abuse, and neglect. We are doing all of this work and more in 
conditions that rival third world countries--amidst often dysfunctional 
governments and failing social systems, broken families, and oppression 
from both without and within. Yet, we are resilient, and we are 
succeeding. We are changing the lives and futures of students and their 
families for generations to come through a holistic and supportive 
educational environment that is culturally-based and relevant to our 
students and their families. We are building stronger and more 
prosperous Tribal nations through the restoration of our languages, 
community outreach programs and applied research on issues relevant to 
our land and our people, workforce training in fields critical to our 
reservation communities, and community-centered economic development 
and entrepreneurial programs. We are transforming our education 
systems--training early childhood educators, successfully managing once 
failing Head Start programs, rebuilding schoolhouses and children's 
lives; reforming K-12 science and math programs and providing summer 
and Saturday enrichment alternatives; preparing an American Indian K-12 
teacher workforce; and transforming Native language instruction at all 
levels. We are growing a Native health care workforce--from behavioral 
health to emergency room nursing, to serve our people and provide care 
in our language and according to our customs.
    We must be doing something right, because despite the lack of 
adequate funding and many other challenges we face, the Tribal College 
Movement has grown tremendously since Oglala Lakota College was 
established by my tribal leaders 43 years ago. To support our young and 
developing institutions, in 1973, Oglala Lakota College and the five 
other TCUs in existence at the time came together to establish the 
American Indian Higher Education Consortium--AIHEC--enabling us to more 
effectively address the unmet higher education needs of American 
Indians and Indian country.
    Today, 37 Tribal Colleges operate more than 75 sites in 16 states. 
TCUs are located in the Plains, the Southwest, the Great Lakes, the 
Northwest and even the North Slope of Alaska and have advanced American 
Indian higher education--and all Indian people--significantly since we 
first began in the late 1960s and early 1970s. Let me give you just one 
example: before Oglala Lakota College launched our nursing program, 
none of the nurses employed by the Indian Health Service to work on the 
Oglala reservation were American Indian. Today, more than 50 percent of 
the nurses on our reservation are American Indian and 85 percent of 
them are graduates of Oglala Lakota College.
    Yet despite these advances, the lack of adequate funding that I 
mentioned earlier remains a serious obstacle to the sustainability, 
independence, and competitiveness of TCUs. A number of factors 
contribute to our ongoing funding challenges.

  <bullet> While Tribal Colleges are public institutions, they are not 
        state institutions, and consequently, we receive little or no 
        state funding. In fact, very few states provide support for the 
        non-Indian state residents attending TCUs, which account for 
        about 20 percent of all Tribal College students. However, if 
        these same students attended a state institution, the state 
        would be required to provide the institution with operational 
        support for them. This is something we are trying to rectify 
        through education and public policy change at the state and 
        local level.

  <bullet> The tribal governments that have chartered Tribal Colleges 
        are, for the most part, not among the handful of enormously 
        wealthy gaming tribes located near major urban areas that one 
        reads about in the mass media. Rather, they are some of the 
        poorest governments in the nation. In fact, seven of the 10 
        poorest counties in America are home to a Tribal College.

  <bullet> Finally, the Federal Government, despite its trust 
        responsibility, binding treaty obligations, and the exchange of 
        more than one billion acres of land, has never fully-funded our 
        primary institutional operations source, the Tribally 
        Controlled Colleges and Universities Assistance Act (TCU Act), 
        and overall, funds TCUs at levels far below that of other 
        institutions of higher education. Today, the TCU Act is 
        appropriated at about $5,850 per full time Indian student, 
        which after more than 30 years is still only about 73 percent 
        of the level authorized by Congress to operate these Tribal 
        institutions. Faced with ever rising costs of day-to-day 
        operations, to continue to thrive and expand as community-based 
        institutions, TCUs must stabilize, sustain, and increase our 
        basic operational funding. While our per student funding is 
        higher than it has been at times in the past, it is still 
        considerably lower than the operating support received by other 
        public 4-year institutions, which is the direction that many 
        TCUs are evolving. In fact, 13 TCUs currently offer several 
        bachelor's degrees each and five, including Oglala Lakota 
        College, offer master's degrees.

    Tribal Colleges are first and foremost academic institutions, but 
because of the number of challenges facing Indian Country--high 
unemployment, poorly developed economies, poor health status, and lack 
of stable community infrastructures, Tribal Colleges are called upon to 
do much more than provide higher education services. Tribal Colleges 
often run entrepreneurial and business development centers; many TCUs 
are the primary GED and Adult Basic Education provider on their 
reservations, and most if not all TCUs offer a variety of educational 
and training programs for tribal employees, BIA and IHS staff, K-12 
schools, tribal courts and justice system staff, and many others in a 
manner to suit their work schedules. TCUs run day care centers, 
elementary immersion schools, Head Start programs, health nutrition 
education programs, community gardens, and often, the only community 
library and tribal museum or archives. Mr. Chairman, Tribal Colleges 
are by any definition engaged institutions, intricately woven into the 
fabric of our respective communities.
    S. 2299: Reauthorizing the Native American Programs Act of 1974 to 
continue a provision to ensure the survival and continuing vitality of 
Native American languages. We strongly support this reauthorization, 
and we urge the Committee to work toward its enactment this year. 
Tribal Colleges are actively and aggressively working to preserve and 
sustain our tribal language and culture. All TCUs offer Native language 
courses. In some cases, the tribal language would have been completely 
lost if not for the local Tribal College. Turtle Mountain Community 
College in Belcourt, North Dakota, was established primarily for this 
purpose, and over the years, its success in writing and revitalizing 
the Turtle Mountain Chippewa language has been truly remarkable. 
Aaniiih Nakoda College in Montana runs a K-6 language immersion school, 
right on campus. At the White Clay Immersion School, children learn the 
White Clay language and culture in addition to subjects they would 
routinely study at any other school. Oglala Lakota College does the 
same, operating the successful Lakota Language Immersion School for 
kindergarten through fifth grade, next door to our main campus. Other 
TCUs are teaching and providing care in our Native language to our 
youngest children, as a regular part of the college's day care program 
for infants and toddlers.
    Additionally, many TCUs offer unique associate and bachelor degree 
programs that include Native language instruction, as well as in-
service teacher training in language and culture. At the TCUs, teacher 
education programs follow cultural protocols and stress the use of 
Native language in everyday instruction.
    Some Committee members might wonder why Tribal Colleges, as 
academic institutions of higher education, would be focusing on 
language revitalization, running Head Start and day care programs, and 
establishing our own elementary immersion schools. Why? Because we are 
holistic institutions. TCUs focus on the whole student--mind, body, 
spirit, family, and community. We know that just as we are succeeding 
in higher education, we can ``put our minds together'' and implement 
strategies of success for our babies and children. Where others might 
fail, we have the commitment and the stability to succeed.
    Several years ago, we began to notice a troubling trend at Oglala 
Lakota College: every year, fewer and fewer of our entering students 
were fluent in--or could even speak--our Lakota language. The vast 
majority of these students had attended schools in the local area, some 
of them taking Lakota language courses for eight, 10, or even 12 years. 
Yet, their mastery of the Lakota language was missing. They could 
recite a few words, ina--ahte (mother--father) and some simple phrases, 
sing a few Lakota songs, and count waancci--wikceemna (1-10). The sad 
fact is that is that on my reservation language instruction in the K-12 
schools has not produced any language speakers over the last 40 years. 
Even more troubling, we conducted our own survey within our local 
communities and learned that while 70-80 percent of our elders could 
speak Lakota, only about 5 percent of our tribe's 4- to 6-year-olds 
could speak the language.
    We at Oglala Lakota College knew that if our people had any hope 
for reversing this trend, it was up to our college. The 
responsibility--and what's more, the will--to act was ours. It was time 
for OLC to open our own elementary school.
    Oglala Lakota College applied for and received the first of two 3-
year grants from the Department of Health and Human Services' 
Administration on Native Americans. Because of the depth and complexity 
of the language issues facing our people, we spent most of the first 
three years of our project (Grant 1) researching different methods for 
achieving greater Lakota language proficiency. We opened our Lakota 
School teaching about one-half of the curricula in Lakota and the other 
half in English. However, after studying other elementary education 
programs, including highly successful Maori and Native Hawaiian 
programs, as well as monitoring the progress of our own students, we 
realized that to maximize our effectiveness and make systemic change, 
an immersion program is the solution. Last fall, in the second year of 
Grant 2, our Lakota Immersion School provided Lakota language immersion 
instruction to our K-5 students.
    Based on our experience at Oglala Lakota College, we have two 
recommendations for this Committee:

        (1)  To achieve significant results that will truly impact the 
        future of our people, the DHHS-ANA language grant program 
        should be modified: rather than awarding grants for a period of 
        three years, grants should be awarded for a period of 10 years. 
        Alternatively, DHHS-ANA could adopt the model used with success 
        by the National Science Foundation. NSF currently makes awards 
        under its Tribal College and University program for period of 
        five years, with the option to award an additional 5-year grant 
        upon a demonstration of adequate progress. NSF has determined 
        that to address systemic challenges, sustainable funding for at 
        least 10 years is needed.

        (2)  Because of the extensive work that Oglala Lakota College 
        and the other TCUs are already doing to determine the most 
        effective strategies for teaching our children and preserving 
        our endangered languages, and more important, to expand this 
        urgent work, a TCU research grant program should be included in 
        S. 1948, the Native Language Immersion Student Achievement Act. 
        Such a program would enable TCUs to continue to work to 
        identify the best language pedagogy to achieve systemic change 
        and ensure the survival and revival of our Native languages.

             Indeed, Mr. Chairman, we believe that you understand the 
        critical need for this type of program because in both the 
        110th and 111th Congresses, you included such a provision in 
        legislation you sponsored known as THE PATH. This legislation 
        was developed to support the work of TCUs in Native language 
        research and practice; health professions workforce 
        development; and Native health and wellness health research and 
        programs. We strongly urge you to include the Native language 
        provisions of THE PATH in S. 1948. It is vital that TCUs be 
        included in this legislation, which currently excludes us.

American Indian Adult Basic Education and the New GED Test
    In the mid-1990s, Congress eliminated a modest set-aside within the 
Adult Basic Education (ABE) block grant program, which funded vitally-
needed TCU GED and ABE training programs. These programs had a specific 
purpose: to help put more unemployed American Indians--who had little 
or no chance of getting a job--into the workforce. With the elimination 
of this modest set-aside, all federal funding for ABE, literacy 
training, and GED preparation goes to the states, which rarely fund 
tribal GED programs.
    Despite the absence of dedicated funding, TCUs have attempted to 
find means, often using already insufficient institutional operating 
funds, to provide adult basic education and GED preparation for 
American Indians in need of a second chance: young or old, all of whom 
the K-12 Indian education system has failed. Oglala Lakota College has 
done its share. Over the past 43 years, OLC has awarded more than 3,000 
GEDs to our people. Three thousand tribal members now have a chance to 
go on to college or to simply get a job, pay taxes, and contribute to 
the future of this nation because of OLC's GED program.
    As this Committee knows, many more of our people are in need of a 
second chance. American Indians have the highest high school drop-out 
rates in the nation. On some of our reservations, well more than 50 
percent of all youth drop-out. Later, often when it is too late, they 
realize that they need a high school degree to secure even a low level 
job. So they turn to the only alternative: the GED.
    This is exactly the intent of the GED program. Since it was 
developed in the 1940s, the GED has always been a second chance. First, 
it was designed to be a second chance for returning GIs, men who left 
high school before graduation to become the Greatest Generation. When 
they returned home, they found that they could not take advantage of 
their GI Bill education entitlements because they lacked a high school 
diploma. So the GED was developed to be their second chance. Congress 
created the program and the American Council on Education (ACE) was 
entrusted to develop the test and preparation program.
    For decades, the GED has served as a second chance for thousands 
and thousands of American Indians, many of whom join the work force 
immediately or go on to become Tribal College graduates, often 
continuing their education to earn bachelors' and advanced degrees. In 
fact at OLC, some of our most successful students hold a GED. But 
today, our ability to continue to provide GED preparation and testing 
is tenuous. In fact, some TCUs have already stopped providing this 
vital service, including several in the Chairman's home state of 
Montana. They simply cannot afford to provide it any longer, 
particularly with recent sequestration cuts on top of years of flat-
line funding and labor-intensive reporting requirements imposed by 
states (if the state even allows TCUs to participate).
    As I mentioned earlier, American Indians have the highest high 
school drop-out rates, highest unemployment, and highest poverty rates 
in the nation. We ask only for the same opportunity for a second 
chance--the same chance to succeed--that is available to others in this 
country through the federal ABE block grant program. Tribal Colleges 
must have sufficient and stable funding to continue (or resume) 
providing essential GED and ABE services.
The New GED: Congressional Oversight Needed
    With the launch of the new GED, the need to address this challenge 
is even more critical. Today, adequate funding is only part of the 
problem. Tribal Colleges are concerned about the significant changes 
made to the GED test in 2013. The new GED exam, which was instituted in 
January 2014, has shifted its focus from being ``second chance'' for 
those who did not complete high school to being an academic, college 
preparatory examination. With a much stronger focus on mathematics, 
science, and writing, the new GED is widely acknowledged as being 
significantly more difficult to pass than the previous test. In fact, 
the 7.5 hour exam has become so difficult that even high school 
graduates often cannot pass it. This May, we conducted an experiment 
involving seven feeder high schools to Oglala Lakota College. We asked 
graduating seniors to take the official, ACE-developed practice exam 
for the new GED test. Of the 68 graduating seniors who took the test, 
61 percent did not pass. Yet, they all earned a high school diploma. If 
those of us in this room today took the exam, the results would 
probably be similar, if not worse. Some states have become so concerned 
about the shift in focus and difficulty of the GED that they are 
abandoning it in favor of other high school equivalency tests.
    As Tribal Colleges, the new GED poses a serious dilemma for us. 
Without question, we want students to enter our institutions 
academically prepared for higher education, and the new GED test may 
help ensure this. But it also may ensure that many, if not most, of our 
tribal people will never have the opportunity for a second chance. They 
will never gain the most basic tool needed to lift themselves out a 
cycle of generational poverty and oppression: a high school equivalency 
diploma. Currently, about 70 percent of entering TCU students need 
developmental courses in math and more than half must take one or more 
developmental courses in reading and writing. The fact that these 
students would not pass the new GED exam may not be significant 
nationally. But in communities with 50 to 80 percent unemployment, 
extreme poverty, the nation's highest suicide and domestic violence 
rates, the impact could be devastating.
    The academic focus and rigor of the new GED is not our only 
concern. The new exam is fully electronic, and it is costly. While 
younger GED seekers may be comfortable with computer-based testing, 
older members of our community are not, yet their need for employment 
and their desire to make their lives better is real. To adequately 
prepare them academically and at the same time develop their computer 
literacy will require greater preparation, in terms of training and 
practice, which will be an unfunded expense for our institutions. 
Finally, the fees for taking preliminary practice tests and the actual 
GED exam have risen sharply, placing yet another obstacle to low-income 
individuals, or in our case, to the Tribal Colleges.
    We ask that the Committee work with the Tribal Colleges and our 
AIHEC Office to make the GED and other equivalency exams fair and 
relevant to all Americans. We urge you to hold oversight hearings on 
the implementation of the new exam. I believe we may even need to 
consider two or three tiers of tests, which individuals could take 
depending on their aspirations and needs. This may be viewed as a 
controversial statement, and it is not one with which all of my 
colleagues agree, but it may be a reality, and it certainly should be 
discussed, depending on the outcome of this year's GED exams.
    Mr. Chairman and Senator Johnson, thank you for this opportunity to 
share our story, successes, and concerns with you today. We look 
forward to enactment of legislation to advance the preservation and 
revitalization of our Native languages and to a day when all 
Americans--including the first Americans--seeking to further their 
education and career goals have full and fair chance at success.

    The Chairman. Thank you, Mr. Shortbull. I appreciate your 
bringing up the GED situation. That definitely gets it on our 
radar screen.
    Now, Ed Delgado, you may proceed.

STATEMENT OF HON. ED DELGADO, CHAIRMAN, ONEIDA TRIBE OF INDIANS 
                          OF WISCONSIN

    Mr. Delgado. I don't know if I heard this story a few years 
ago or if I read it. But I recall during a period in Gallup, 
New Mexico, the Navajo Code Talkers walked, had a parade. And 
there were a couple of young Navajo youth there, troubled 
youth, gang member youth. Where the Code Talkers walked, there 
was one youth who said to the other, take off your hat. Those 
are Code Talkers, Navajo Code Talkers, show respect. In that 
one moment, those tribal youth became better. They became 
people that we would be proud of in that few moments.
    I say that because there are things in my culture, in 
Indian culture and in Indian language that we hold dearly. And 
language and culture is truly good medicine. It makes you 
better.
    Chairman Tester, Ranking Member Barrasso and members of the 
Committee, Shekoli. I am Ed Delgado, I am from the People of 
the Standing Stone, the Chairman of the Oneida Tribe of Indians 
of Wisconsin. I want to thank you for the opportunity to 
testify about the importance of preserving Native languages. 
With the enactment of S. 1948 and S. 2299, this Committee will 
have helped to achieve that goal.
    We continue to feel the negative impacts of our 
grandparents and our great-grandparents being taken from their 
families, sent away to boarding schools and punished if they 
spoke the Oneida language. We were forced to assimilate into a 
non-Indian culture because, as they were told, it was best for 
their future. Thus, they refused to speak and teach the 
language to their children, and as a result, our language, 
culture and traditions have suffered.
    It is our belief that the Oneida language is a key 
component of our cultural identity. We are slowly regaining 
what we lost. But we need our help to continue our long-term 
commitment to language revitalization. Today, the Oneida 
currently have only six functional speakers in our community, 
as the last fluent speaker passed away one year ago. The Oneida 
language has not been the first language spoken by our people 
in over a century. And we continue to face obstacles to keep 
our language alive.
    The majority of Oneida children attend public schools and 
are faced with their own challenges of meeting curriculum 
goals. Our language is simply not a top priority in those 
schools. Fortunately, progress has been made with the local 
university and some of the local public school districts to 
offer accredited Oneida language courses. Recently, the 
Wisconsin Department of Public Instruction awarded the Seymour 
and Pulaski Community School Districts with a grant. Both 
partly reside within the reservation boundaries. The grant is 
used for the Oneida language curriculum as an elective course 
for high school credit.
    The legislation under consideration today will advance 
Oneida into a new era of language preservation. S. 1948 will 
help students learn native languages by funding language 
immersion programs, such as those our tribe has put in place. 
We share your view, Mr. Chairman, that this instructional 
method enhances participation in educational outcomes, and we 
commend you for encouraging other tribes to adopt this model.
    We agree, as stated in the bill, that tribes must be 
responsible for certifying that the school has the capacity to 
provide the Native American language education. The 
stakeholders involved in the planning and development of 
Oneida's language program in 2010 reached a similar conclusion. 
We sincerely appreciate this acknowledgement in the bill.
    S. 2299 will reauthorize a number of the important programs 
that are being successfully used in Indian Country. Funds from 
the Native American Programs Act will provide for the continued 
development and success of our language program. One approach 
that could be incredibly beneficial is the opportunity for paid 
internships and job opportunities for young people working in 
the language department. Students who possess a passion for 
learning the language would become vested in the future of the 
Oneida language. Unfortunately, Oneida's job training program 
has a waiting list and we have had to turn away several star 
pupils as the language department lacks the resources to hire 
them.
    In closing, our language is a necessary component to the 
very being of our people and our tribe. Unfortunately, we do 
not possess enough resources to accommodate the need. We so 
desperately need the legislation and the support of members of 
Congress who share our values.
    Further, it is our hope to continue to refine our language 
program and close the Oneida achievement gap in public schools. 
With additional resources, not only can the Oneida language be 
sustained, but the People of the Standing Stone will persevere. 
Yaw-ko, thank you.
    [The prepared statement of Mr. Delgado follows:]

   Prepared Statement of Hon. Ed Delgado, Chairman, Oneida Tribe of 
                          Indians of Wisconsin

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, Ed.
    Namaka Rawlins, you may proceed.

STATEMENT OF NAMAKA RAWLINS, DIRECTOR OF STRATEGIC PARTNERSHIPS 
            AND COLLABORATION, AHA PUNANA LEO, INC.

    Ms. Rawlins. Greetings, good afternoon Chairman Tester, and 
I see that the others have left, but Vice Chairman Barrasso, 
and members of the Senate Committee on Indian Affairs. My name 
is Namaka Rawlins, and Senator Tester, and I see that Senator 
Johnson has also left, but I want to thank you very much for 
introducing S. 1948 and S. 2299.
    It is an honor to testify before you in support of these 
bills. My full testimony was provided.
    I am the Director of Outreach and Partnerships for the `Aha 
Punana Leo. The `Aha Punana Leo is the oldest Native American 
language immersion non-profit organization in the United 
States. Over 30 years ago, our organization grew out of a dream 
to save our language. We started with non-certified but highly-
qualified and knowledgeable elders and teamed them with 
dedicated, youthful language learners to run our preschools. 
Our curriculum was and is grounded in best practices relevant 
to our own language and culture.
    Those Hawaiian-speaking preschoolers moved into the public 
schools, following our same successful teaching methodology of 
exclusive use of Hawaiian. In 1999, we graduated our first 
seniors, who by the end of high school were highly fluent and 
literate in both Hawaiian and English. Today there are 2,500 
children in such schools in Hawaii, by far the largest number 
of any Native American language program.
    We have also established a Hawaiian language college within 
the University of Hawaii at Hilo. Besides the undergraduate 
program, it has three graduate degrees and an immersion 
teacher, education certification program, all taught in 
Hawaiian. Our organization worked with the college to develop a 
total Hawaiian immersion laboratory school. That laboratory 
school has a record of 15 consecutive years of 100 percent 
graduation rate. That laboratory school has an 80 percent 
college-going rate.
    The student population for that school is 95 percent Native 
Hawaiian and 75 percent qualify for free and reduced lunch.
    These two bills are very important for the survival of 
Hawaiian and all Native American languages. Every one of our 
Native American languages are at various stages of 
endangerment. Some only have one or two elder speakers 
remaining. For Hawaiian, there were less than 50 children 18 or 
younger fluent in our language when we began. We now have 
several thousand. Native language immersion and revitalization 
efforts have had a positive impact on communities that extend 
beyond proficiency to include cultural and family engagement 
and community support. And they have had very positive academic 
outcomes.
    Senator Tester, when your press release was read to our 
21st Annual Stabilizing Indigenous Languages Symposium held 
earlier this year in our town of Hilo, resounding applause 
erupted from the general assembly, consisting of representative 
from 25 States and 10 countries. In attendance were the 
majority of the representatives from Native American schools 
and programs using their languages as the medium of education. 
They included Bureau of Indian Affairs schools, other charter 
schools, regular public schools and non-profit administered 
schools. Those schools held a special meeting at the symposium 
to review your bill, S. 1948, and decided to focus its 
potential to further align the Elementary and Secondary 
Education Act with the Native American Languages Act.
    Like S. 2299 and S. 1948, NALA, the Native American 
Languages Act, was a product of this Senate Indian Affairs 
Committee. NALA resulted from a bipartisan response supported 
across Native America. We indigenous peoples, Native Hawaiians, 
American Indians and Alaska Natives, worked together at a grass 
roots level to pass NALA. NALA established the United States' 
Native American language policy including educational policy 
but NALA was not fully reflected in the ESEA. Attached 
amendments to S. 1948 were developed as a result of our January 
symposium and provide for distinctive Native American language 
pathway for education. Such a distinctive Native American 
language pathway would be parallel to the distinctive pathway 
accorded by NCLB to education in Puerto Rico through its 
official language, Spanish.
    Senator Tester, Hawaiian is the official language of our 
State. Other Native American languages are also official of 
their State and their reservations and villages. At present, 
because NCLB is not fully compliant with NALA, NCLB has 
presented huge discriminatory challenges to all of our Native 
American language schools throughout the Country. Those 
challenges, I believe, are due to an oversight when NCLB was 
drafted over a decade ago. That oversight result in applying an 
inappropriate one size fits all to our highly distinctive 
schools taught through indigenous Native American languages. 
That one size fits all approach ignores our needs for 
distinctive standards and assessments and determining qualified 
teachers for our Native American language schools.
    That one size fits all approach is moving our languages 
back toward extinction. One size does not fit all.
    All me to give you a specific example of the importance of 
the proposed amendments to S. 1948. Our Hawaiian medium 
preschool to grade 12 laboratory school, described earlier, is 
where we demonstrate best practices in education through a 
Native American language. Again, this school boasts a record of 
50 consecutive years of 100 percent high school graduation rate 
and 80 percent college enrolment rate. Our students graduate 
full fluent and literate in both Hawaiian and English, with an 
additional six years study of Japanese, a foreign language of 
unique importance to our State.
    Yet, under NCLB and its flexibility waiver, this same high 
achieving laboratory school has incredibly been designated as 
the second lowest performing school in the State. NCLB 
threatens the very existence of our school. The one size fits 
all educational pathway set out in NCLB needs to be changed if 
existing Native American language immersion schools are to 
survive and continue their good work. That one size fits all 
needs to be changed so that more communities throughout the 
Country can provide a future for their children based on the 
knowledge and language of the ancestors.
    I heard it earlier stated that this is an important 
solution that we find, is a way going forward. Our amendments 
align NCLB to NALA and make it possible for Native American 
language medium programs to collaborate with higher education, 
tribal colleges, experts, therein aligning accountability 
measures to the unique linguistic and cultural features of the 
language of instruction, including assessment of academic 
content through the language of instruction. Realigning the 
accountability framework of NCLB supports the good work being 
accomplished across the Country to reverse language loss and to 
save our Native American languages.
    Mahalo, thank you very much. We do have a word, it is 
mahalo. Mahalo, Senator Tester and members for holding this 
hearing and we ask for our support to move these bills forward 
I assure you that schools taught through Native American 
languages, grounded in the policies of NALA, will not only 
reverse the effects of past policies of government bans on the 
use of our languages but will also produce higher outcomes in 
terms of high school graduation, college attendance, community 
service and national service.
    Mahalo.
    [The prepared statement of Ms. Rawlins follows:]

      Prepared Statement of Namaka Rawlins, Director of Strategic 
          Partnerships and Collaboration, Aha Punana Leo, Inc.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you, thank you very much. Thank you all 
for your testimony. I very much appreciate it.
    Don't let the fact that there aren't a lot of people up 
here discourage you. The important time for them to be up here 
is when we vote for these bills and pass them out of Committee. 
So it is good.
    This is a question for all of you, so we will start with 
Clarena and just go down the line. At this point in time, I 
don't think it is any surprise that many Native language 
programs struggle with finding teachers who are not only 
qualified to teach but also have the required certification 
from the State boards of education to do so. Hopefully this 
will change over time as your programs become more successful.
    The question is this. Would you support legislation that 
would exempt teachers of Native American languages from needing 
to be highly qualified under State certification standards, and 
allow them simply to be highly proficient in a Native language?
    Ms. Brockie. Mr. Chairman, I think they can already do that 
in Montana. You can get certified through the State, I think it 
is called Class Seven, and teach in the colleges. But at 
Aaniiih Nakoda College, we have used our Indian teacher 
training program and we have hired both of the teachers there 
that are teaching currently. The two teachers are from the 
teacher training program and so they are certified.
    But for language, yes, we would support that. I know in 
Montana you can already do that.
    The Chairman. Mr. Shortbull?
    Mr. Shortbull. I think that you need to probably not exempt 
them but to have them have a college degree and also their 
language emphasis be enough to certify them to teach in the 
school system. So not an exemption, but a special category for 
them.
    I want to take this opportunity to deal with one more thing 
with GED. That is, I think that they should have done a random 
sampling of 100 high schools in this Nation to see how many of 
the high school students could have passed it. I believe that 
as much as one-third of the 100 schools, the students would not 
be able to pass the exam.
    And also at this time I want to issue a challenge. I want 
to ask all the U.S. Senators to take the new GED exam and let's 
see how many of the U.S. Senators can pass it.
    [Laughter.]
    Mr. Shortbull. And two, the staffers are laughing, and I 
would ask all the staffers to take the new GED exam and see how 
many of you can pass it. I think the results will be pretty 
alarming, Mr. Chairman.
    The Chairman. We will give it a go.
    [Laughter.]
    The Chairman. Ed, the question about teacher certification, 
do you want to take that up?
    Mr. Delgado. As a classroom teacher for 17 years, all 17 
years, one non-Oneida, non-Indian student, the rest are all 
Indians. I would, like Mr. Shortbull, there have to be 
parameters there. Learning the languages is very fundamental. 
But you also have other qualities, too. You have the 
temperament, and you learn that often in your classes. You have 
to know about the certain techniques about kindness and 
understanding and patience.
    So maybe they didn't have to have a four-year degree, but 
maybe there is something else they could use.
    The Chairman. Ms. Rawlins?
    Ms. Rawlins. I guess I am going to go in opposition. That 
is how we started. We started, as I explained earlier, our 
elders were not certified. We needed to get that exemption so 
that we could get them into our schools and be counted as our 
teachers in our preschools. So we were bringing them in as 
language speakers first, because that is the first thing that 
you need, you need to have that high fluency in the classroom.
    Then we brought them together with the youthful learners to 
run the schools. Eventually, as time goes on and you start to 
have those youthful learners who end up becoming teachers, 
certified teachers, getting degrees, then you can kind of move 
on and then you keep building up. You have to have a way of 
bringing in those that will take over, and you need to keep 
replacing them with your highly fluent first teachers. Then 
find a pathway for them to continue the skills.
    I agree with you, you need to have some of that passion for 
teaching. Our teachers need to first of all love our children 
and take care of our families and be able to work with families 
and take care of the children that you are responsible for in 
providing an education. So you identify those skills and look 
at high language fluency, then you build your program to 
continue the education and what-not to get them further.
    The Chairman. Thank you. This question is for Clarena. 
Tribal colleges and universities play a critical role in 
keeping Native students connected to their culture as well as 
providing necessary educational options in Indian Country. So 
the question is, what role do tribal colleges and universities 
have in Native language preservation and revitalization in 
Indian Country?
    Ms. Brockie. For Aaniiih Nakoda College, part of the 
mission is to try to retain the culture. When you talk about 
the culture, you are talking about the language, the history, 
their ways of how they live, going and being. So that is really 
important, I think, as a tribal college. I think they have to 
maintain it. I believe that most tribal colleges' mission 
statement is the same.
    The Chairman. Okay. Following up on that, and this question 
is for all of you, what kind of success have you folks observed 
in academic behavior of students who are enrolled in immersion 
and dual language programs?
    Ms. Brockie. If you look at my testimony, it really makes a 
difference, it really does. We had two groups of students this 
year who are going to be seniors this fall and we have another 
group who have just finished their sophomore year. These 
students are on the honor roll, three-fourths of them have been 
inducted into the Honor Society and all of them who are on the 
honor roll have done well in math, science, they are active in 
sports, they are on the student council. So you know that this 
immersion school, including their culture and history, it is 
important to children as they are growing up.
    If I could have brought two of our students, I would have 
sneaked Cici and Serena in my luggage with you, so they could 
have stood here and told you all the things that they know. 
These are fourth graders and they know about our history, it is 
not just limited to the classroom, but they know where all our 
scared sites are, they know where to go get roots. They know 
the roots. They know how to do sweetgrass, they dry tobacco, 
they know the historical stories, our cultural mythical 
characters. They know the trickster stories, they know about He 
Who Starved Himself to Death.
    To grow up and know the same things that their great-
grandfathers and mothers knew is really something. They know 
these stories. Twenty years ago, not even 20, 10 years ago if 
you asked someone about, who is He Who Starved Himself to 
Death, they wouldn't even know about it. The average student 
wouldn't have known about it. But you are seeing more of this 
history, culture being taught, not just in immersion school but 
in the local schools as well.
    So I think it is important for them, and I think once they 
are grounded in that, I think they become really secure in who 
they are and they advance from there. I have big hopes for 
those students when they graduate next year.
    The Chairman. We will get them to testify next time, 
Clarena.
    Mr. Shortbull?
    Mr. Shortbull. Mr. Chairman, I would prefer to speak to 
your previous question. It may be only tribal colleges or some 
grassroots efforts that are going to save our languages in this 
Country. The reason for that is the schools are now into what 
is called Common Core. They have to meet all of these 
requirements and it is going to be, the schools make the 
choice, do they want to preserve the language or do they want 
to meet Common Core. Most schools are going to choose Common 
Core over the language.
    So that is the reason I believe that it will end up being 
either tribal colleges or grassroots organizations like Namaka, 
whom I consider a legend as far as language preservation and 
revitalization. We really respect the work that she does.
    The Chairman. Ed?
    Mr. Delgado. Since my mid-30s, and I am almost 70 now, I 
have been an Oneida first and an American citizen second. 
Before that, I was an American citizen first. And that was it. 
I was heavily grounded in American, my American history. And 
that made me a better person.
    But being Oneida also makes me a better person, to know 
about our cultural stories and our cultural heroes and there 
are many. And our history helping create the United States. 
That is something that makes me better, knowing that. Just like 
prior to my mid-30s, learning all George Washington and Abraham 
Lincoln and all that stuff made me better.
    So learning about where you where you are and about your 
people and your history makes both Indian people proud and 
better, just like American people. Your proud history makes all 
of you better.
    The Chairman. Ms. Rawlins?
    Ms. Rawlins. I want to focus, I consider that our students 
who have graduated have done well. We usually give the 
statistics on the colleges they have attended and from. They 
have attended some of the most prestigious colleges. A former 
student today is a professor at Oxford. I don't know how much 
more we can be providing that information.
    And this year we have our first doctor. We have a medical 
doctor who has graduated. She will be doing her internship some 
place in Virginia.
    But more than that, what we find and what our teachers tell 
us is that our students are very respectful, they are engaged, 
they are eager to learn. Somebody said earlier, they run to 
school and then they walk to school and then they run away from 
school. That was said earlier, and when I heard that I was 
thinking about our school and our laboratory school program. 
Our children come to school, our families are engaged and we 
get them right through.
    It is not only what we find but here in the audience today 
we have other school representative who came from the 
conference down at Crystal City who are here. I want to 
recognize them, because this is hard work. I believe that 
because of the dedication, but I know all of you here today are 
the cheerleaders for our programs back home. So I want to 
recognize and give honor to the work that has been done, all 
the good work, and just share the need. We find our students, 
as I said, the teachers are telling us that they are very 
respectful and eager to learn.
    The Chairman. Just for the heck of it, if you are 
representing a school that teaches Native languages anywhere in 
the Country, stand up.
    [Some audience members stand; applause.]
    The Chairman. Just for the record, there are too many to 
ask where you are all from. I would run out of time. Thank you.
    For the panelists, raise your hand if you have ever run out 
of ANA funding. Clarena, if you have ever run out of ANA 
funding.
    [Show of hands.]
    Mr. Shortbull. We are about to, Senator.
    The Chairman. So you all can answer this, because you can 
talk about it. What do you do? What are your options if you run 
out of ANA funding? Clarena, we will start with you?
    Ms. Brockie. We struggle, of course, but we have people who 
are committed to keeping the program open. As I said in my 
longer testimony, we have private donors. We have foundations 
that are funding us. But we don't have any Federal or State 
dollars, and we do our own fundraising for school supplies, for 
lunches. Donations are made in that way.
    The Chairman. Mr. Shortbull?
    Mr. Shortbull. Well, right now the issue is, when our 
funding runs out it is going to be a dilemma for us. Right now 
we can support it. But if we go through another sequestration 
bout, or we go through some Congressional people are on a 
different bent on things, we get loss of funding, then there is 
really going to be a question mark as to if we can sustain 
these programs, Mr. Chairman.
    The Chairman. Mr. Delgado?
    Mr. Delgado. As stated earlier, we lost our last two 
speakers a year ago. When I was teaching, we had three in the 
school who taught us, so we could teach our students. We also 
took students in and taught the functional speakers, who now 
teach. Without them, without our functional teachers, without 
being able to create more, we will be handicapped in being able 
to transmit our language, not only to our schools but to our 
elders and those who want to learn.
    The Chairman. Ms. Rawlins?
    Ms. Rawlins. We also fund-raise, as a non-profit. We are 
fundraising all the time. And we stretch our dollars. When we 
get an ANA grant, it is for a specific project to develop what 
is a need at that point.
    But I do know that there are programs that when they lose 
that funding or when they end their grant, they have no way of 
sustaining, we may have to let go their director or some very 
crucial part of leadership in the program. That is not good. 
That is not sustaining some of the good work, some of the good 
momentum.
    The Chairman. Losing continuity.
    Ms. Rawlins. Yes.
    The Chairman. So this question is for those who want to 
answer it. I don't know if it applies to you or not, Ms. 
Rawlins, but it might. By more securely tethering Native 
students to their heritage, immersion programs may also be able 
to connect speakers of Dakota and Salish and Cherokee and other 
languages across Native communities. I say it may not apply to 
you, but it might, too. And if it does, I want you to answer 
this.
    Do you believe that immersion programs serve to connect 
Indian students throughout Indian Country in addition to 
strengthening inter-tribal connections? Clarena?
    Ms. Brockie. I am not sure I know what you mean.
    The Chairman. What I mean is that you are teaching White 
Clay, the fellow beside you is teaching Lakota. Are there 
connections between those two languages and between those two 
heritages that allow the tribes to inter-connect?
    Ms. Brockie. Well, we are both in the Plains area, we have 
some connection. But I think that, I don't know how I would say 
this, but we share a lot of ceremonies together with other 
tribes. I think these people who are sitting up here know that. 
You go to a lot of people in our areas, we have sweats and we 
have pipe ceremonies, powwows. We have the Pan Indian thing 
going on that everybody does the jingle dress. So yes.
    The Chairman. Mr. Shortbull?
    Mr. Shortbull. In the 1970s, Dr. Bride wrote a book that 
said, once the students take the first four grades, they do 
very well. And all of a sudden, an identity crisis hits. We 
don't want that identity crisis to hit our Indian students. We 
want them to be strong in their culture.
    As it relates to the interconnectivity between tribes, you 
see it at powwows all the time. People talk about their 
language, their culture. So there is that connection that they 
have in both trying to preserve their culture.
    The Chairman. Okay, anybody else?
    This is a question for you, Mr. Delgado, but it could be 
for any of you. Have you seen interest from non-Native folks in 
learning your language?
    Mr. Delgado. I understand that in Pulaski, there are some 
classes going on right now and that some non-Indian students 
are participating in those, because they have friends who are 
Indians, and there are Indians and non-Indians going to school 
together, with a reservation right next to them. Also if you go 
back to 40 or 50 years ago, the Oneida Reservation, we were 
just formulating into a constitutional reservation.
    Ther were actually, non-Indians and Indians all speaking 
the language.
    The Chairman. Very good.
    Mr. Delgado. They worked together, really close together.
    The Chairman. Mr. Shortbull?
    Mr. Shortbull. Mr. Chairman, a great irony of this, and 
there are American citizens, but we get a lot of Europeans that 
come to our Country and they live with Indian families. They 
become fluent speakers. The great irony is that the American 
citizens don't want to do that. But the Germans, they dress up 
like us, they have clubs and all of this stuff. So we have kind 
of an international impact on the reservation, but not an 
American impact.
    The Chairman. Clarena?
    Ms. Brockie. Mr. Chairman, I think in a way, you have to do 
something to protect your culture, your families, so they are 
not exploited. That is my way of thinking. There are some 
ceremonies that you have that non-Indians are not allowed to go 
into. And some ceremonies on some tribes that non-members are 
not allowed to go into. That is part of your tribal 
sovereignty. You have to decide for yourself what you are going 
to protect.
    The Chairman. Okay.
    Ms. Rawlins. For us in Hawaii, we have a history of island 
and kingdom and nation of Hawaiian as the language. So we had 
commerce and people all over, Hawaiian was the language of the 
land.
    The Chairman. This is a question for you, Ms. Rawlins. Some 
of the discussion around my bill, S. 1948, revolves around 
distinction of funding for only immersion programs, rather than 
funding alternative methods of language instruction. Could you 
explain the importance of using immersion in teaching Native 
languages and how this method impacts language acquisition and 
learning?
    Ms. Rawlins. The method of full immersion of the use of the 
language of instruction, that is the method, the methodology is 
the use of language and instruction in all content area. So 
over the 30 years we have been doing this, the best practice is 
the full use of the language in reversing language loss and 
increasing fluency, and being able to deliver that all the way 
through in the curriculum through high school.
    The Chairman. Basically as a technique, immersion and its 
effect versus other methods of teaching tribal languages that 
are out there.
    Ms. Rawlins. Right. That is our best practice, is full 
immersion.
    Mr. Shortbull. Mr. Chairman, I would like to answer that 
question. In the first year that we had our language program, 
we went bilingual, 50-50. Then the next year we said the 
majority will be in Lakota. But we finally concluded that the 
only way to learn the language effectively is through 
immersion. So that is where we are today. I believe that no 
other program will produce fluent speakers other than through 
immersion.
    The Chairman. Good. Thank you.
    I want to touch on this very quickly, Ms. Rawlins, if you 
could. You touched on it in your testimony a little bit. Could 
you elaborate on some of the difficulties created or aggravated 
by ESEA as it concerns Native language instruction?
    Ms. Rawlins. The challenge that we have is that, and I 
mentioned it as a one size fits all, is that the State of 
Hawaii has put in place, because of the Federal law, because of 
No Child Left Behind, that there is only one assessment, one 
statewide assessment, one State plan and one statewide 
assessment. And it is in English.
    So the challenge there is to have the assessment in the 
language of instruction. You have a State with an official 
language, yet we are not allowed to have that assessment in the 
language of instruction. And Puerto Rico is allowed to have 
their State assessment in the language of Puerto Rico, which is 
Spanish. So that has caused our parents, our families, to 
boycott the exam, because that does not give the results, the 
good data that you need for the language of instruction.
    So because our families are not taking these exams, we are 
now at the bottom, as a school we are second to last as an 
under-performing school. And with that comes the consequence of 
being an under-performing school. Then it kicks in, you need to 
change your curriculum, change out your teachers, all of that.
    The Chairman. I hear you. And I agree with you.
    So Clarena and Tom and Ed and Namaka, I appreciate your 
being here today. I appreciate your testimony, I appreciate 
your commitment to tribal languages and culture. I think it is 
critically important.
    I have said it many times in this Committee, that there are 
many tribes that are facing third world conditions out there 
economically. I think that this is yet another opportunity to 
help pull up Indian Country economically and improve the 
quality of life.
    I want to thank you all for being here, thank you for 
traveling the distance you have. I know you believe in the 
importance of Native languages.
    Thank you all. For the record, the hearing record will 
remain open for two weeks from today. With that, the hearing is 
adjourned. One more thing, I want to thank the folks from the 
Department of Education and Health and Human Services for their 
testimony and thank you for sticking around to hear the second 
panel's testimony. Thank you very much.
    This hearing is adjourned.
    [Whereupon, at 4:42 p.m., the hearing was adjourned.]
                            A P P E N D I X

   Prepared Statement of Hon. Brian Schatz, U.S. Senator from Hawaii
    I want to thank Chairman Tester and Vice Chairman Barrasso for 
holding this important hearing today to consider S. 1948 and S. 2299, 
two bills that matter significantly to the indigenous people of 
America.
    For centuries, Native Americans faced unjust federal policies of 
relocation, assimilation and termination. Their homelands and communal 
lifestyles were targeted, families were torn apart; unique traditions 
and cultural practices were endangered and sometimes lost forever. In 
Hawaii, children were punished for speaking Hawaiian, in the same way 
that American Indians and Alaska Natives were punished for using their 
own native languages in school. By the early 1970s such policies had 
effectively pushed the Hawaiian language to the brink of extinction.
    For more than thirty years, Hawaiian educators, families, students, 
and the Native Hawaiian community have fought to save and revitalize 
their indigenous language. They began with early childhood language 
nests and added primary and secondary grades as the children advanced 
in grade levels. Now multiple generations have progressed through 
Hawaiian medium schools. Hawaiian medium education is available from 
preschool to the doctorate level. In fact, Hawaii is the only state in 
the nation that grants doctorate degrees in a native language. Hawaii 
also produces the most native language learners in the national public 
education system, with a record of 40 percent. \1\ The immersion 
schools and language nests in Hawaii have become aspirational models 
for native language preservation in the United States and worldwide.
---------------------------------------------------------------------------
    \1\ 40 percent of all students participating in native language 
immersion programs are in Hawaii.
---------------------------------------------------------------------------
    The revival of the Hawaiian language has led to a cultural 
renaissance that revitalizes the Native Hawaiian arts--visual arts, 
performing arts, and language arts. It also strengthens and preserves a 
rich culture and identity that both Native Hawaiians and Hawaii 
residents embrace and appreciate. Today, a growing population of Native 
Hawaiian speakers helps to sustain and preserve the language. However, 
the hard work of revitalizing the Hawaiian language requires an ongoing 
and conscientious effort. The immersion schools and language grant 
programs supported by S. 1948 and S. 2299 will help to ensure the 
continued success in improving education and preserving native 
languages not only for Native Hawaiians, but also for American Indians 
and Native Alaskans.
    I look forward to advancing these bills to help reverse the loss of 
native languages and cultures in America. The diversity of native 
languages in our country is a unique cultural treasure that enriches us 
all.
                                 ______
                                 
  Prepared Statement of J. Michael Bundy, Ph.D., Superintendent, Two 
Eagle River Alternative School for the Confederated Salish and Kootenai 
                                 Tribes
Introduction
    Our school is the Two Eagle River Alternative School for the 
Confederated Salish and Kootenai Tribes (CSKT). Established in the 
1970s, the school was developed out of concern for tribal students 
dropping out from local reservation public schools and having no other 
educational opportunities available to them.
    In my current role as superintendent for the Two Eagle River School 
and as the former superintendent for the Northern Cheyenne Tribal 
School, I bring my experience and perspective to the issues surrounding 
the leadership and management of two BIE funded tribal controlled 
schools within Montana. With over thirty years of experience in 
education in Alaska, Idaho and Montana, I have extensive knowledge and 
understanding of the causation and remediation required to improve 
student achievement. After only one year, our math scores raised 22 
percent and our reading scores 19 percent at Two Eagle River School. 
Our school serves the CSKT Flathead Reservation and any tribal or 
Indian student who wishes to attend may do so. Of a special note, there 
are seven public schools within the boundaries of our reservation and 
yet students choose to attend our school for varying reasons. Parents 
and students who apply to our school report to us that they are not 
comfortable, are having difficulties fitting in or are seeking more 
acceptance than the public schools can offer. Students and parents want 
a greater connection to their culture and many public school teachers 
are not accepting or understanding of their unique needs.
    The purpose of this paper is to shine a light on issues BIE funded 
grant schools are facing and struggle with daily. Our mission is clear 
and our goals are attainable, but if Indian education and student 
achievement are to rise in a sustainable way, certain problematic 
issues must be addressed. For example, salaries for teachers and 
administrators differ significantly within BIE funded schools by region 
and state. Our teachers' and paraprofessionals' salaries have been 
frozen for three years and they are paid less than all surrounding 
public schools. Benefits such as health insurance and retirement are 
critical for the recruitment and retention of high quality teachers. 
Working conditions and facilities vary greatly which adds to the 
challenge of recruiting to teach in a tribal school. Technology is 
absolutely essential for a modern school but without a reliable source 
of equipment or technology funding, computers become old, outdated and 
unreliable. Teachers want and expect the tools to teach students 
properly each day. Our school currently has a budget of $245.00 for 
technology and all of our computers need updating or replacing. 
Technology requires IT staff to maintain or administer instructional 
software yet most schools give this responsibility to a staff member 
who may or may not have the expertise to adequately perform this task. 
Administrators are told to just go write a grant in order to add a new 
program or update computers. Educational technology is not an elective 
function to be purchased by a windfall of grant dollars but requires a 
systematic process for continual maintenance and replacement.
    As the educational leader for our school and tribal community, the 
following issues I wish to share with you. I realize certain issues or 
programs that require funding are dependent on congressional 
appropriations, however equity and fairness is an important element in 
the responsibility to raise student achievement.

1.) Lack of Adequate ISEP Funding
    Two Eagle River Alternative School (TERS) serves students 8th 
through 12th grade in Western Montana. Our ISEP weighted student fund 
average is $8,925. In Montana, with equalization payments, basic 
Average Daily Membership (ADM), teacher quality payments and impact 
aid, public schools on the reservation receive over $14,600 per student 
in attendance. TERS receives $5,773 less per student compared to the 
public schools on our reservation in Montana. This past fall, our 2013 
enrollment was 104 students for which an equivalent amount of funding 
as the public schools would require an additional $577,000. Our ISEP 
funds every element of our school including personnel costs (salaries 
and benefits), instructional supplies, textbooks, student 
organizations, student activities, and other general fund expenditures. 
This disparity is difficult to overcome when trying to offer 
instructional programs of equal merit to students of a tribally 
controlled grant school. This year, due to changes in health insurance 
costs to the tribe under the affordable care act our school budget 
increase for this item was nearly $200,000. This additional expense 
comes at a time in the same year 6 percent of funding was withheld due 
to sequestration. No allowance for increased benefit costs are planned 
or adjusted for in ISEP or administrative funding with the new health 
care law implementation.
2.) Title I Funds
    To date, Two Eagle River School has not received this year's 
funding for Title I. In years' past funding was received in July or 
early fall but always much earlier than this year. Communication 
between TERS and BIE has been slow or absent. It is difficult to count 
on and pay employee salaries when we do not know if a problem exists or 
if funding has been reduced or eliminated. We have been requested to 
prepare our Title I budget which we have done using last year's 
information, but we are still unsure if changes are occurring. Since 
Title I funds are such a large and important part of our school budget, 
I cannot imagine why we have not received our funds. Title program 
funding needs to be available at the beginning of our school year in 
order for us to effectively plan and use this towards assisting our 
students.
3.) Vocational Funding
    An extremely important aspect of any public high school is the 
preparation for the world of work beyond graduation. Many students may 
choose to enter college but most will seek training in vocational 
programs. Currently, the BIE does not fund any form of vocational 
education. Although a year of vocational education is a graduation 
requirement in Montana, as well as in most states, no funding is 
allocated for this area of education. With a national emphasis on jobs 
and job-related skill development, I find this to be a missing link for 
many of my American Indian students. Resources must be found to support 
this important aspect of Indian education, and at this time this is not 
occurring.
4.) Impact Aid/Johnson O'Malley
    At present, 100 percent of our students reside on tribal 
reservation lands, however, as a BIE funded school our students are not 
eligible for impact aid. Public schools inside of our reservation are 
eligible for impact aide in lieu of taxes to offset loss of funding. We 
have seven public schools on our reservation and they receive both 
state aid and impact aid. Grant schools are similar to charter schools 
and charter schools are eligible under the impact aid law. Tribal grant 
schools same as charter schools should be allowed to apply for impact 
aid to supplement their budgets. Tribal grant schools should be given 
the same consideration as other `heavily impacted' districts similar to 
districts with military or defense property. Although not a taxing 
authority, a tribal school's expenditures does require higher costs for 
both additional essential staff positions and for a high quality 
teaching staff. Additional personnel costs for positions such as dean 
of students, instructional coach, school family liaison, school 
resource officer and counseling services are required to address the 
unique social and cultural needs of our students and families.
From the DOE website:
    Since 1950, Congress has provided financial assistance to these 
local school districts through the Impact Aid Program. Impact Aid was 
designed to assist local school districts that have lost property tax 
revenue due to the presence of tax-exempt Federal property, or that 
have experienced increased expenditures due to the enrollment of 
federally connected children, including children living on Indian 
lands. The Impact Aid Law (now Title VIII of the Elementary and 
Secondary Education Act of 1965 (ESEA)) provides assistance to local 
school districts with concentrations of children residing on Indian 
lands, military bases, low-rent housing properties, or other Federal 
properties and, to a lesser extent, concentrations of children who have 
parents in the uniformed services or employed on eligible Federal 
properties who do not live on Federal property.

    Further, Johnson O'Malley funds supplemented schools with Indian 
students for years and was a valuable part of providing supplemental 
assistance for Indian students. Today as an example, school funding at 
TERS has been reduced in the last few years from approximately $11,000 
to $2,000. This small amount is not enough to effectively be weaved 
into any instructional program.
    We currently are a SIG improvement grantee and have made valuable 
gains in reading and math. The concern is sustainability beyond year 
three of the grant. Schools tend to balloon during grant years but have 
to scale back once the last year of funding is complete. Without 
sustained funding, programs and personnel are trimmed and the school 
returns to a former state of struggle and minimal accomplishment.
5.) Administrative Costs
    Although our administrative costs are reasonable, the CSKT tribe 
requires all indirect funding and administrative funds remain with the 
tribe. Additional administrative costs are supported from our ISEP 
Funds. By having to use ISEP funds for this purpose, less ISEP funds 
are available for teacher salaries, benefits, technology purchases and 
school supplies etc. Administrative funding should be adequate to cover 
all expenses and need to be available to the school.
    As in our previous example, with additional healthcare costs and 
the necessity to recruit and retain high quality teachers, 
administrative costs should reflect the reality of increased expenses 
all schools are experiencing.
6.) Timeliness of Funds
    Stable funding is necessary to plan and budget for effective school 
management. Consistent and reliable schedules for the planned deposit 
of these funds into school accounts are also necessary for good school 
management. Funds currently arrive at undetermined and different times 
due to the ineffective manner in which funds are released. Presently, 
TERS has not received any Title I funds and has only received limited 
maintenance and operation funds. Employee salaries are being paid from 
other funds and a request to the Tribal Council is being prepared in 
order to purchase heating oil for the upcoming winter if maintenance 
and operation funds do not arrive soon. In addition, I am not able to 
adequately present to my school Board an annual budget. Without 
predictable funding amounts early enough to plan prior to the start of 
the current school year, I am unable to present to my school Board a 
well-developed budget based upon the needs of my students. Earlier this 
fall, I received a budget amendment that was incorrectly assigned to a 
reading program we do not have at our school. I called my ELO and have 
sent the amendment back for correction and have not received any 
correspondence as to its status in over three months. Even with follow 
up requests no reply has been received. A more efficient and timely 
funding schedule needs to be developed. Discretionary funds do vary as 
grants are approved, but entitlement funds require a more effective 
fiduciary mechanism of accountability and tracking of deposits into 
school accounts.
7.) Teacher Recruitment and Retention
    With less funding per student than public schools in our region, 
high quality teachers have numerous choices to accept positions with a 
public school or a BIE funded school. Even if salaries were relatively 
the same (which they are not), benefits in nearby rural and urban 
communities in the areas of health insurance and state retirement 
programs lure our teachers away. For example, while at the BIE funded 
Northern Cheyenne Tribal School, I initiated new staff development 
programs and fully enriched my staff in innovative ways of increasing 
student achievement. However, by years' end my teachers were being 
recruited away to nearby public schools. I asked the superintendent of 
a nearby school why he wanted my staff and his comment was, ``You have 
the best trained staff and we need help with our underperforming 
students''. Therefore, as I invest in my staff with necessary staff 
development, and if salaries and benefits are not competitive, I lose 
them to nearby schools. This is a serious problem considering how 
important consistency is in instructional delivery and continued 
implementation of programs.
8.) Professional Development for Administration
    Lastly, in my four years as superintendent of a BIE funded tribally 
controlled grant school, I have been offered very little training in 
the area of BIE procedures and guidelines. Conflicts have arisen due to 
certain expectations or reports not being completed in a timely manner. 
I was unfamiliar with federal procedures which are quite different from 
my training in the public school sector. This lack of training sets the 
stage for poorly managed schools and schools that may not operate 
efficiently. I understand the vastness of the BIE operating in twenty 
three states; however, with high turnover, some mentorship by senior 
administrators or trainers would have been very helpful. I had to seek 
private training because the BIE held no trainings or orientation 
throughout my last four years of service. This can be very frustrating 
and will lead to high turnover of administration.

    I cannot speak exactly to the internal workings of the BIE as I am 
not a BIE employee. After a very successful career in public education, 
I sought a new challenge and wanted to make a difference by helping 
minority or Indian students be successful. I had experience in working 
with Alaska Native students and served as the superintendent of School 
District #304 on the Nezperce Reservation in Kamiah, Idaho before 
taking the superintendent position at the Northern Cheyenne Tribal 
School. What I now know is that the BIE is an organization tasked with 
managing Indian Education, but is not directed by professional 
educators and administrators but rather by individuals that that are 
more business or compliance oriented individuals. A heavy reliance on 
consultants and vendors seems to be necessary to oversee schools rather 
than assist and develop school site based leadership specific to Indian 
community schools. It is always the people in the field that are in 
daily contact with students and parents that ultimately move successful 
schools forward. A closer working relationship with tribal community 
schools and the BIE needs to be cultivated. The BIE needs to culture an 
organization perceived by tribal communities in partnership through 
education and support rather than only compliance monitoring. At 
present, the BIE is seen as a source of funding but with little respect 
as a professional learning and educational agency. Schools are a place 
of learning and most importantly a people business. Education is a 
business of nurturing future leaders, citizens and scholars, not 
building widgets on an assembly line.
    Working to improve student achievement requires several factors 
including thoughtful use of resources, strategic planning, and 
effective administrative leadership. Issues surrounding funding are of 
a concern because schools should focus their time and energy towards 
professional growth of staff and the improvement and execution of 
instructional programs. I present these comments in hopeful manner that 
consideration will be given to each of these items.
                                 ______
                                 
 Prepared Statement of the National Indian Education Association (NIEA)
    Chairman Tester, Vice Chairman Barrasso, and members of the 
Committee, tribal leaders and Native advocates have consistently listed 
education as a top priority for our communities. As such, the National 
Indian Education Association (NIEA) is excited that the Senate 
Committee on Indian Affairs has heard the collective call and is 
working to highlight the condition of Native education across all grade 
levels in order to find solutions to persistant problems. As NIEA and 
Native education stakeholders have stated for years, equal 
opportunities from early to higher education are critical to the future 
of tribal nations and Native communities.
    The renewed commitment of this Committee and its focus on improving 
all education systems serving Native students is critical. We are happy 
to see legislation introduced that supports the strengthening of these 
education systems through language immersion and cultural teaching 
models. As part of our continuing partnership to ensure equitable 
education opportunities for Native students, we are excited to echo the 
broad, overwhelming support we have heard from Indian Country and 
provide this testimony in staunch support of the following Senate 
Bills:

  <bullet> S. 1948--A bill to promote the academic achievement of 
        American Indian, Alaska Native, and Native Hawaiian children 
        with the establishment of a Native American language grant 
        program; and

  <bullet> S. 2299--A bill to amend the Native American Programs Act of 
        1974 to reauthorize a provision to ensure the survival and 
        continuing vitality of Native American languages.

    NIEA, founded in 1969, is the most inclusive Native organization in 
the country representing Native students, educators, families, 
communities, and tribes. NIEA's mission is to advance comprehensive 
educational opportunities for all American Indians, Alaska Natives, and 
Native Hawaiians throughout the United States. From communities in 
Hawaii, to tribal reservations across the continental U.S., to villages 
in Alaska, to urban communities in major cities, NIEA has the most 
reach of any Native education organization in the country. By serving 
as the critical link between our communities and education 
institutions, NIEA hopes the Committee will take our testimony into 
consideration as you act on this legislation.
Native Education Crisis Due to Federal Mismanagement
    As all of us realize, Native education is in a state of emergency 
partly due to the inability of the Federal Government to uphold its 
trust responsibility. Native students lag behind their peers on every 
educational indicator, from academic achievement to high school and 
college graduation rates. In 2010, only one in four Native high school 
graduates who took the ACT scored at the college-ready level in math, 
and only one in three for reading. In the same year, more than half of 
the majority students in high school tested at college-ready levels, 
illustrating the persistent readiness gap among Native and non-Native 
students. As Native students leave high school underprepared for higher 
education, academic failure or extensive remediation become commonplace 
for Native students. In the last decade, only 52 percent of Native 
students enrolled in higher education programs immediately after high 
school graduation and fewer than 40 percent of those students graduated 
with a bachelor's degree in six years. In contrast, nearly 62 percent 
of White students graduated within six years.
Native Student Demographics Snapshot

  <bullet> 378,000, or 93 percent of Native students, attend U.S. 
        public schools, comprising 0.7 percent of the total public 
        school population, with the remainder attending federal Bureau 
        of Indian Education (BIE) operated, charter, or tribally-
        controlled schools.

  <bullet> Of all Native students, 33 percent live in poverty, compared 
        to 12 percent of White students.

  <bullet> 29 percent of these students attend high-poverty city public 
        schools, compared to 6 percent of White students.

  <bullet> In 2012, 17 percent of Native students age 25 and older held 
        at least a bachelor's degree in comparison to 33 percent of 
        White students.

  <bullet> In 2012, 6 percent of Native students held an advanced 
        graduate degree (i.e., M.A., M.S., Ph.D., M.D., or J.D), as 
        compared to 12 percent of the White population. \1\
---------------------------------------------------------------------------
    \1\ National Center for Education Statistics, Institute of 
Education Sciences, United States Department of Education.National 
Indian EducationStudy. 2011 .(NCES 2012-466). http://nces.ed.gov/
nationsreportcard/nies/

  <bullet> Of the 210 Native languages still spoken in the United 
        States and Canada, only 34 (16 percent) continue to be taught 
        as a first language to Native children. \2\
---------------------------------------------------------------------------
    \2\ Contents largely drawn from McCarty, T. L. (2011). State of the 
field: The role of Native languages and cultures in American Indian, 
Alaska Native, and Native Hawaiian student achievement. Tempe, AZ: 
Center for Indian Education; and Demmert, W.G., Jr. (2001). Improving 
academic performance among Native American students: A review of the 
research literature. Charleston, WV: ERIC Clearinghouse on Rural 
Education and Small School.

The Trust Responsibility to Native Education
    Since its inception, NIEA's work has centered on reversing these 
negative trends, a feat that is possible only if the federal government 
upholds its trust responsibility to tribes. Established through 
treaties, federal law, and U.S. Supreme Court decisions, this 
relationship includes a fiduciary obligation to provide parity in 
access and equal resources to all American Indian and Alaska Native 
students, regardless of where they attend school. Under the federal 
government's trust corpus in the field of Indian education, it is 
important to state that the obligation is a shared trust among the 
Administration and Congress for federally-recognized Indian tribes.
    To the extent that measurable trust standards in Indian education 
can be evaluated, NIEA suggests this Committee refer to the 
government's own studies encompassing Native test scores, treaty-based 
appropriation decreases, and Government Accountability Office (GAO) 
Reports, among other reports, which illustrate the continued inability 
of the federal government to uphold the trust responsibility and 
effectively serve our students. Too often, the trust responsibility is 
broken as Native-serving institutions are unable to receive the funding 
they require to support critical educational services, such as language 
immersion programs.
    As the Department of Health and Human Services (HHS) Commissioner 
Lillian Sparks Robinson outlined in her recent testimony to this 
Committee, ``the unmet demand [for language immersion] remains high.'' 
Although tribes and Native communities have consistently provided 
broad-based support for language immersion education models, the 
existing investment opportunities are not meeting demand and therefore, 
should be increased. Unless the federal government provides Native 
students equal education opportunities and learning through immersion, 
it will be nearly impossible for our future generations to be prepared 
for academic achievement and consequently, success in college and 
careers.
Strengthen Native Language and Culture to Raise Student Outcomes
    Native language revitalization and preservation is a critical 
priority to tribes and Native communities because language preservation 
goes to the heart of Native identity. In many ways, language is 
culture. Learning and understanding their own languages helps Native 
students thrive and is a critical piece to ensuring schools serve 
Native students effectively. Immersion programs thereby serve the dual 
purpose of increasing academic achievement and guaranteeing that a 
student's language will be carried forward for generations.
    For example, students with sustained, cumulative Native language 
and cultural instruction perform as well as, or better than, their 
peers in mainstream classes on completing academically challenging 
tasks. \3\ Furthermore, those students who enter school with a primary 
language other than the school language (i.e., English) perform 
significantly better on academic tasks when they receive constant and 
cumulative academic support in the primary language for a minimum of 
four to seven years, illustrating the need for sustained, longitudinal 
immersion funding.
---------------------------------------------------------------------------
    \3\ McCarty, T. L. (2011).
---------------------------------------------------------------------------
    As comprehensive academic achievement remains elusive for many 
Native populations, language immersion courses provide an opportunity 
to improve student outcomes. Strong programs with elements like Native 
language and cultural immersion, language and culture maintenance, and 
dual language and one-way immersion programs contribute to improved 
attendance and college enrollment rates, lower attrition, and enhanced 
teacher-student and school-community relations. \4\
---------------------------------------------------------------------------
    \4\ McCarty, T. (2013). Language planning and policy in Native 
America: History, theory, praxis. Tonawanda, NY: Multilingual Matters.
---------------------------------------------------------------------------
    For example, longitudinal data from the Rough Rock English-Navajo 
Language Arts Program, which serves approximately 200 students each 
year in Kindergarten through sixth grade, illustrate that after four 
years in the program, average student scores on criterion-referenced 
tests of English comprehension increased from 58 percent to 91 percent. 
On standardized reading tests, Native students' scores initially 
declined, but then rose steadily, in some cases, approaching or 
exceeding national averages. When individual and grade cohort data were 
analyzed over five years, students attending the Rough Rock Program 
demonstrated superior English reading, language arts, and mathematics 
performance compared to a matched peer group who did not participate in 
the program. \5\
---------------------------------------------------------------------------
    \5\ McCarty, 2011, pp. 6-7.
---------------------------------------------------------------------------
Congressional Intent over Agency Interpretation
    Unfortunately, legal barriers and agency interpretation often 
inhibit our communities from providing such services to Native 
students. While our communities' unique cultural and linguistic 
traditions are critical cornerstones for providing relevant, high-
quality instruction as part of an education, current education statutes 
and improper agency interpretation often gravely obstruct Native 
students from attaining the same level of academic achievement as the 
majority of students.
    P.L. 100-297, Tribally Controlled Grant Schools Act, and P.L. 93-
638, Indian Self Determination and Education Assistance Act, as well as 
P.L. 109-394, Esther Martinez Native American Languages Preservation 
Act of 2006 and the Native American Languages Act of 1990, all promote 
a policy of self-determination and investment in Native languages, 
including language immersion schools. Further, the White House 
Initiative on American Indian and Alaska Native Education promises to 
support opportunity expansion and outcome improvement for Native 
students by promoting education in Native languages and histories. Yet, 
legal and regulatory structures that undermine these aims persist.
    NIEA is proud of the exemplary immersion models, such as those at 
Niigaane Ojibwemovin Immersion Program and School serving the Leech 
Lake Band of Ojibwe and Rough Rock English-Navajo Language Arts Program 
serving the Navajo Nation--both of which have won the prestigious NIEA 
Cultural Freedom Award for their efforts in full-day language 
immersion. Unfortunately, federal agency interpretation under varying 
Administrations as well as enacted administrative procedures produced 
under No Child Left Behind--the current iteration of the Elementary and 
Secondary Education Act (ESEA)--often restrict tribes and Native 
communities from running such schools because language programs are 
often interpreted to be at odds with the ``one-size-fits-all'' model 
mandated under the ESEA.
    ESEA's performance standards do not take into account language 
diversification. As such, successful language programs, like those 
listed above, as well immersion programs in Hawaii, are often 
considered underachieving. While Puerto Rico--the only exception 
allowed under ESEA--has the authority to provide education instruction 
in a language other than English, tribes and Native-serving schools are 
not afforded this same understanding and deference when providing 
assessments to their students. Too often, the regulations created under 
ESEA require testing to take place only in English--even if the Native 
language is utilized as the primary medium of instruction and 
recognized as a state's official language. This drives down assessment 
scores and initiates interventions for schools that were considered 
successful prior to ESEA. Such obstacles are simply unfair for schools 
that are working successfully to protect and strengthen Native 
languages and increase student outcomes through immersion instruction.
NIEA Legislative Recommendations: S. 1948 and S. 2299
    To begin addressing this issue, NIEA requests that the 
congressional intent of self-determination and Native language support 
behind statutes, rather than the agency interpretation of ESEA and 
other law, be enforced so that tribes and Native communities have the 
ability to deliver effective education programs. NIEA was excited to 
see Senate Bills 1948 and 2299 introduced because these legislative 
measures provide some necessary resources for strengthening language 
immersion and cultural learning. While NIEA has several minor 
suggestions for improving the bills under consideration, the 
recommendations do not negate our stalwart support for the legislation.
    NIEA has decades of testimony and membership resolutions that 
support Native languages and learning through language immersion (NIEA 
Resolutions 2007-08; 2008-03; 2009-07; etc.). To accompany those 
official NIEA actions, we request the recent June 2014 NIEA support 
letters be submitted for the record to accompany this testimony. We 
also recommend that the Committee utilize the numerous support letters 
submitted by Native communities, tribes, and organizations as it works 
to move the bills. Prior to the introduction of this language, large 
organizations such as the Alaska Federation of Natives (AFN) provided 
broad-based support letters calling for increased immersion resources 
and many tribes have since submitted letters supporting the 
introduction of the bills. As such, we hope the Committee will move 
quickly to incorporate our recommendations, garner additional 
congressional support, and move the bills toward Senate passage.
I. Senate Bill 1948
    While we have stated concerns with Administration and agency 
actions that diminish the ability to institute language immersion 
programs, we were excited to see President Obama endorse Native 
language immersion programs during his speech to Indian Country on June 
13, 2014. As such, we hope this will usher in a new level of support 
for Native language learning. Now is the time to turn the initiatives 
described in the December 2, 2011 Executive Order 13592--Improving 
American Indian and Alaska Native Educational Opportunities and 
Strengthening Tribal Colleges and Universities--into action and support 
Native languages through this critical legislation that works to 
support immersion learning.
    Senate Bill 1948 works toward the Executive Order and provides a 
means to strengthen Native languages and increase academic outcomes. 
Native language immersion--one of NIEA's key ESEA reauthorization 
recommendations--is a critical priority to tribes and Native 
communities and is a crucial piece to ensuring schools educate Native 
students effectively. NIEA also supports the bill's corresponding 
appropriation authorization of $5 million to fund its new immersion 
program.
    This is critical because additional funding ensures that existing 
programmatic funds under ESEA Title VII are not reduced. It is the 
policy of NIEA that any new programs or authorizations must do no harm 
to existing Title VII programs. While immersion schools need and 
deserve federal support, this funding must be additional to and 
separate from that which currently exists under Title VII as there is 
already inadequate funding under the ESEA Native education title. NIEA 
looks forward to working with the Committee to identify suitable 
offsets for S.1948 to support the bill's goals to advance immersion 
schools.
    Furthermore, NIEA submits our joint organizational comments with 
this testimony requesting that S. 1948 include greater tribal authority 
over immersion programs by defining Indian tribes as ``eligible 
entities'' to receive grants. We also recommend the elimination of the 
requirement that grant monies correlate to language immersion success 
via increased graduation rates. This could be misconstrued to 
contradict the original intent of Title VII, which is based on 
enhancing the cultural traditions of students, not outcomes. While 
increasing outcomes could be the result of language immersion programs, 
the original intent of Title VII should be upheld as Congress initially 
stipulated.
    While we are strong supporters of the language in its current 
iteration, we hope the suggested additions will be incorporated to 
ensure inclusivity as well as reinforcement of the original intent of 
ESEA Title VII.
NIEA Recommendations

  <bullet> Enforce congressional intent of self-determination and 
        Native language law, rather than agency interpretation of ESEA, 
        so that tribes and Native communities have the ability to 
        deliver effective education programs.

  <bullet> Work with NIEA to identify suitable offsets for S. 1948 
        outside of ESEA Title VII to support the bill's goals to 
        advance immersion schools.

  <bullet> Include NIEA joint organizational recommendations within the 
        language to ensure tribes are ``eligible entities'' as well as 
        uphold the original intent of Title VII.

  <bullet> Collaborate with NIEA to create a ``Dear Colleague Letter'' 
        to garner support for marking up the language and moving the 
        bill to a full Senate vote during the 113th Congress.

  <bullet> Ensure any ESEA Reauthorization that progresses includes the 
        Native language immersion grant program.

II. Senate Bill 2299
    While Congress continues to appropriate funds to the Administration 
for Native Americans (ANA) under HHS, this bipartisan bill is crucial 
for reauthorizing a non-controversial program that efficiently and 
effectively provides grants to revitalize Native languages. Currently, 
ANA provides competitive grants, training, and technical assistance to 
tribes and Native communities. Under the Esther Martinez Native 
American Languages Preservation Act of 2006, ANA administers grants for 
language immersion and restoration programs, which are attributed to 
saving endangered Native languages and providing culturally-respectful 
education systems.
    Due to continuing unmet need and insufficient funds under these 
programs, NIEA supports the recommendations highlighted in Commissioner 
Sparks Robinson's testimony provided before this Committee that 
highlights the need to extend funding cycles for Language Preservation 
and Maintenance projects in order to increase sustainability and 
effectiveness. Funding should be provided for five year intervals, 
rather than the current length of three years. This extension would 
provide grantees the opportunity to develop fluent speakers, build and 
strengthen partnerships, and secure funds to track success and best 
practices, rather than participating only in the initial planning and 
implementation stages.
    Furthermore, we request that the required number of participants be 
lowered from ten to five students for language nests and from fifteen 
to ten students for survival schools, so that smaller communities, such 
as remote Alaska Native villages with small populations, have the 
opportunity to apply and compete for crucial language preservation 
funds. We also think it sensible to review the timeframe for the 
reauthorization of Esther Martinez. While a five year reauthorization 
is often standard, due to the recent partisanship in Congress and the 
non-controversial nature of the ANA program, it could be prudent to 
extend the reauthorization period from five year intervals to seven or 
ten year authorization periods.
NIEA Recommendations:

  <bullet> Work with NIEA to garner support for marking up the language 
        and moving the bill to a full Senate vote during the 113th 
        Congress.

  <bullet> Analyze the opportunity to extend the reauthorization period 
        from five years to a longer period of time.

  <bullet> Extend the programmatic grant period from three to five 
        years to ensure sustainability.

  <bullet> Decrease the required number of participants so that smaller 
        communities have the opportunity to participate.

Conclusion
    We appreciate the hard work of Chairman Tester, Senator Johnson, 
and the bipartisan group of co-sponsors for introducing these critical 
legislative pieces, and we look forward to seeing these bills move out 
of Committee to become law. Furthermore, NIEA appreciates the continued 
support of this Committee and the leadership it has provided to receive 
comments on S. 1948 and S. 2299. NIEA enthusiastically supports both 
measures, and we look forward to working closely with the Committee to 
move these bills forward. In addition to this legislative hearing, we 
also appreciate the 2014 education hearing series because we cannot 
confront the challenges facing our Native students one facet at a time. 
Only by working with all stakeholders in all education systems will we 
increase our students' preparedness for success. Once again, thank you 
for this opportunity.
                                 ______
                                 
Prepared Statement of Ryan Wilson, President, National Alliance to Save 
                            Native Languages
Introduction
    Chairman Tester, Vice Chairman Barrasso, and Members of the 
Committee. My name is Ryan Wilson, President of the National Alliance 
to Save Native Languages. I am honored to submit written testimony 
before the Indian Affairs Committee to provide the views of the 
Alliance on the importance and benefits of Native language immersion 
schools as they relate to S. 1948.
    The Alliance is highly supportive of the Native Language Immersion 
Student Achievement Act, and believes it supports a distinct purpose 
separate than that of ANA Language programs authorized under the Esther 
Martinez Native American Languages Preservation Act.
Current Crisis in Indian Education
    Improving the educational achievement and academic progress of 
American Indians is a high priority of Indian country, this Committee, 
and the Obama Administration. The United States has a unique political 
and legal relationship with American Indian tribal governments and a 
special historic responsibility for the education of American Indians 
and Alaska Natives. Recent reports carried out by the U.S. Department 
of Education continue to reiterate the academic failure of American 
Indian and Alaska Native students. See National Assessment of 
Educational Progress (2011); National Indian Education Study (2011); 
The Education Trust, ``State of Education for Native Students,'' 
(2013).
    In order to further the Federal Government's commitment to 
improving the educational outcomes of American Indian and Alaska Native 
students and improving the quality and performance of schools and 
education programs for American Indians and Alaska Natives, a 
comprehensive Native Language Development and Culturally Based 
Education policy is needed to: (1) help tribal governments meet the 
linguistically unique educational needs of their children, including 
the need to preserve, revitalize, and use Native languages; (2) promote 
American Indian and Alaska Native tribal language immersion schools and 
develop the capacity of tribal communities to build successful 
immersion schools; (3) protect tribal language immersion schools from 
the promulgation of adverse rules, assessments, and regulations from 
federal agencies that are incongruent with existing statutes concerning 
Native language use; and (4) promote intergovernmental (tribal/federal) 
collaboration and partnership.
S. 1948, ``Native Language Immersion Student Achievement Act''
    The Alliance views S. 1948 as a response to broad based concern 
that Tribal Immersion Schools receive both support and legitimacy from 
the Department of Education and in particular inclusion within the 
broader Elementary and Secondary Education Act. S. 1948 is correctly 
placed in Title VII of the ESEA, the Indian Education Act title. S. 
1948 aligns appropriately with Title VII and honors the Congressional 
Intent of Title VII.
    Federal Indian education policy and trust responsibility is derived 
from the special legal and political relationship between Indian 
nations and the federal government. Title VII within the ESEA is the 
primary statute charged with the responsibility to discharge the 
federal trust responsibility for Indian education within the Department 
of Education.
    The severe criticism of Indian education in the 1969 report of the 
Senate Special Subcommittee on Indian Education ``Indian Education: A 
National Tragedy--A National Challenge (Kennedy Report)'' elicited a 
substantial response from Congress. In the Education Amendments Act of 
1972, a special title ``The Indian Education Act,'' provided extensive 
support for the education of Indian students and established new 
administrative structures in the Department of Health, Education, and 
Welfare to carry out the work. The Indian Education Act was signed into 
law June 23rd 1972. The act has survived numerous ESEA reauthorizations 
and budget challenges but has never been fully implemented. The No 
Child Left Behind Act has diminished Title VII and circumvented the 
Congressional intent of the Indian Education Act. It is time to 
strengthen Title VII and modernize the statute to reflect a growing 
body of research that substantiates immersion schools as a best 
academic practice for Native students (See ``State of the Field'' by 
Dr. Teresa McCarty). *
---------------------------------------------------------------------------
    * The information referred to can be found at  http://center-for-
indian-education.asu.edu/sites/center-for-indian-education.asu.edu/
files/McCarty,%20Role%20of%20Native%20Lgs%20&%20Cults%20in%20AI-AN-
NH%20Student%20Achievement%20[2]%20(071511).pdf
---------------------------------------------------------------------------
    The National Indian Education Association conducted under President 
David Beaulieu an extensive investigation into Title VII programs that 
included 11 field hearings in 2005. What NIEA documented through 
acquiring testimony of over 100 witnesses was that Title VII programs 
specifically the 1300 formula grant programs were being directed/
steered towards sponsoring academic activities clearly authorized under 
Title I of the ESEA. Impactful and meaningful supplemental cultural 
programming including Native language instruction were being eliminated 
and the statute to address the unique cultural needs of Native learners 
was not being implemented.
    The Alliance believes that passage of S. 1948 will strengthen the 
Indian Education Act and protect Title VII from being a surrogate of 
Title I. If Title VII continues to emulate Title I the threat is very 
real that it loses its unique purpose as a standalone title in the 
ESEA. Prior to introduction of S. 1948, the Alliance, National Indian 
Education Association, National Congress of American Indians, Great 
Plains Tribal Chairman's Association, Montana Wyoming Tribal Leaders 
Council, United Tribes of North Dakota, Alaska Federation of Natives 
and numerous individual tribes and organizations called for the 
introduction of legislation that would create a grant program in Title 
VII of the ESEA to support Immersion Schools. After Chairman Tester 
introduced S. 1948 the Navajo Nation, Eight Northern Pueblos and 
Affiliated Tribes Northwest Indians endorsed this legislation. There is 
broad based support for strengthening The Indian Education Act through 
passage of S. 1948 which would amend Title VII.
Existing Authorities
    Executive Order 13592, ``White House Initiative on Improving Indian 
Education,'' promises Native learners the opportunity to learn their 
Native Languages. Additionally, Public Laws 93- 638, 100-297, offer the 
promise self-determination and tribal control of BIE schools. The 
Native American Languages Act of 1990 Public Law 101-477 and the Esther 
Martinez Native American Preservation Act Public Law 109-394 promote a 
policy of investing in Native languages and supporting Tribal Language 
Immersion Schools. Finally, the Snyder Act Public Law 67-85 broadly 
authorizes Congress to appropriate resources for such activities in the 
Department of Interior and grants considerable flexibility to the 
Administration to support and initiate new activities in the area of 
Indian Affairs.
    None of these existing statutes and the Obama Executive Order 
protect immersion schools from the policy in-congruence that NCLB 
creates. This statutory conflict places immersion schools and tribal 
communities who wish to organize/create immersion schools at a distinct 
disadvantage. S. 1948 would codify in statute both support through 
resources and as a matter of federal Indian education policy an 
endorsement of immersion schools as legitimate educational venues 
worthy of federal investment.
    Common Core, Race to the Top, assessment models utilized by states 
and the proposed BIE realignment will not accommodate immersion schools 
or make room for them. This places a heightened importance on S. 1948 
and the urgent need to create a place for immersion schools.
Widespread Calls for Native Language Immersion Schools
    Education Secretary Duncan and former Interior Secretary Salazar 
met with Indian education experts during the first year of the 
Administration to gain advisement on Indian education issues. All in 
attendance including myself articulated the urgent need for the 
Administration to engage in a meaningful way on Native language 
immersion schools and incorporating Native languages into culturally 
based education. The Administration met with tribal leaders and formed 
a National Tribal Leaders Education Task Force. This Task Force echoed 
the same concern regarding immersion schools, Native languages, and 
culturally based education. The Administration also engaged Indian 
Country in Indian education consultation hearings and received volumes 
of testimony supporting immersion schools and culturally based 
education. Further, the National Advisory Council on Indian Education 
has included in its annual reports recommendations supporting immersion 
schools for Indian Country. The National Congress of American Indians 
(NCAI) and National Indian Education Association (NIEA) joint 
recommendations for the Elementary and Secondary Education Act 
reauthorization call for a formula grant program for Native language 
immersion schools. Broad based support exist for tribal language 
immersion schools, Indian country could not have expressed support for 
these schools any clearer to the Administration.
    It is the position of NCAI and the coalition of Native 
organizations that are a part of the NCAI Native Language Working 
Group/Task Force, including the National Alliance to Save Native 
Languages, that language plays a significant role in influencing 
academic performance and general well-being of Native peoples. This 
position was first reflected in the Meriam Report of 1928 and 
reinforced in each of the following: the U.S. Senate Report, Indian 
Education: A National Tragedy, A National Challenge (1969); the Indian 
Education Act of 1972 (Title VII, NCLB); the Indian Nations At Risk 
Report (1991); the White House Conference on Indian Education (1992); 
federal policy through the Native American Languages Act (1990);federal 
policy through the Esther Martinez Native American Languages 
Preservation Act (2006); and three Presidential Executive Orders 
(Clinton, 1998, Bush, 2004, Obama 2011).
Shortcomings of the Current Approach
    Unfortunately, Executive Order 13592 has not been effective in 
achieving its proposed policy goal because it does not offer a program 
or pathway to execute a strategy for supporting or creating venues 
where Native learners have an opportunity to learn their Native 
languages. Furthermore, budget cuts and assessment models that do not 
account for culturally based education or instruction have meant that 
the unique linguistic needs of Native learners have not been met, 
stalling development of tribal language immersion schools and immersion 
programs. Unstable leadership within the BIE, the pending restructuring 
of the BIE, and difficulty forecasting budget challenges have created a 
climate of retreat. Native language instruction under the Obama 
Administration has decreased, not increased.
    Additionally, there exists no support for continued development of 
tribal language immersion schools within the leadership of the BIE/BIA 
and Department of Interior, the White House Initiative on Indian 
Education and the Department of Education. The Obama Administration 
appears to be confused on this issue despite the clear message Indian 
country has repeatedly sent. The Administration has co-mingled Native 
language instruction, history, culture and immersion as if they are one 
in the same. The Administrations' approach to supporting existing 
immersion schools is at best in-coherent and at worst in opposition.
    The White House Initiative on Indian Education Executive Director 
Bill Mendoza's testimony during the June 18th hearing was symptomatic 
of a deeper systemic problem within this Administration. Director 
Mendoza listed a number of programs within the Department of Education 
and Interior that support language instruction but none of these 
programs directly support Immersion schools, none exist exclusively for 
immersion schools. It appears the Administration supports Indian being 
taught as a course (presumably for 50 minutes a day), but not Indian 
languages being used as the medium of instruction as they are used in 
immersion schools. All of the programs Director Mendoza listed existed 
before the life of the current Administration.
    The inability of the Administration to have a position on S. 1948 
despite the bill being introduced on January 16th 2014 nearly half a 
year ago is reflective of this Administrations apathy towards Native 
languages and immersion schools.
    In his historic visit to Indian country on June 13th President 
Obama stated ``and even as they prepare for a global economy, we want 
children, like these wonderful young children here, learning about 
their language and learning their culture, just like the boys and girls 
do at Lakota Language Nest here at Standing Rock. We want to make sure 
that continues and we build on that success--and you don't have to give 
up your culture to also be a part of the American family. That's what I 
believe and coming here today makes me believe it that much more''.
    The President was referring to an immersion school the Lakota 
Language Nest, yet the Administration was unable to have a position on 
S. 1948 the following week (even though S.1948 is the only legislative 
effort in the 113th Congress supporting immersion schools). In the 
context of the Administration's ESEA Blue Print which promises support 
for Immersion, the White House Initiative which promises Native 
students an opportunity to learn their Native languages, and existing 
statutes which could advance immersion schools. This is unacceptable to 
Indian country.
Need for Increased Federal Support
    The Administration for Native Americans, housed in the Department 
of Health and Human Services, does offer planning grants to launch 
immersion efforts through its Esther Martinez programs. Although these 
investments are vital to initiate immersion activities they are not 
sustainable because they have a three year maximum award. These hotly 
contested dollars are among the most competitive and are not designed 
to ensure programs' long-term solvency. Sustainable federal support for 
tribal language immersion schools simply does not exist. BIE, Public, 
and Community Based schools that wish to engage in the development of 
tribal language immersion schools need federal support. This federal 
support must be additional to and separate from that which currently 
exists to support school operations. If Congress is to carry out its 
commitments to self-determination, sovereignty, and protection and 
revitalization of Native languages, it must provide resources for 
tribal language immersion schools. This funding is also essential to 
enabling BIE to complete its mission, Title VII to execute 
Congressional intent as well as to fulfilling the promises of President 
Obama's Executive Order on Indian Education.
Conclusion
    Indian Country believes that we have a sacred birthright, treaty 
right, policy mandate, and existing statutory vehicles for continued 
use and development of our tribal languages, cultures, and ceremonial 
practices--all of which are essential for our general well-being and 
identity as American Indian, and Alaska Native peoples. Our interest in 
achieving high levels of academic performance requires support for S. 
1948, which is required by the demands of a multi-cultural and multi-
lingual world. Native learners and their communities/parents who are 
seeking the benefits of tribal language immersion and culturally based 
education must have the opportunity to attend and participate in 
educational venues that promote fluency in their heritage language. By 
any education and socioeconomic measure American Indian and Alaska 
Native children lag behind the general population. This deficit in 
equality of educational opportunity has grown during the Obama 
Administration. The Native American Languages Act, Indian Education 
Act, Tribally Controlled Schools Act and when enacted Native Language 
Immersion Student Achievement Act need to co-exist with the ESEA, BIE 
realignment and Common Core. Both Congress and the Administration must 
ensure the continuation of the federal governments trust responsibility 
and permit an orderly transition from exclusive English based 
instruction to Native language as the medium of instruction for those 
tribal communities who have both the capacity and desire to engage in 
Immersion. S. 1948 makes a significant commitment to do so and offers 
America an opportunity to grant its Indian nations their fullest and 
freest use of Native languages.
    We affirm with the highest conviction that there are significant 
cognitive, psychological, and academic benefits for our children and 
communities who can participate in tribal language immersion schools. 
Thank you for this opportunity to provide testimony and for considering 
this much-needed legislation The Native Language Immersion Student 
Achievement Act.
                                 ______
                                 
  Prepared Statement of Leslie Harper, Director, Niigaane Ojibwemowin 
                               Immersion
    Gidanimikooninim, esteemed Committee Members. I greet you all and 
thank you for introducing the proposed bills, and for the opportunity 
to testify in support of the importance of our Native Languages, 
Culture-Based Education, and their connection to success for Native 
students. I will present testimony that describes, through our in-
service field experience of the last ten years, the ways in which 
funding and public policy incongruence both supports and interrupts the 
transmission of educational content through the medium of our 
identified indigenous language of Ojibwe, and will reinforce needs that 
the proposed S. 1948 and S. 2299 can serve to meet.
    I support S. 2299, a bill to amend the Native American Programs Act 
of 1974 to ensure the survival and continuing vitality of Native 
American Languages. This Act and according funding has supported our 
community to build capacity to deliver Ojibwe language revitalization 
and maintenance efforts across multiple generations and multiple entry 
points at our Leech Lake Nation. I would like to focus the remainder of 
testimony on support for the newly introduced S. 1948 and I urge 
amendments to the bill that will align the Native American Languages 
Act of 1990 (NALA) with the No Child Left Behind, as the current ESEA 
is also known. I support the amendments to S. 1948 as provided in the 
testimony by Namaka Rawlins today in her testimony to this Committee. I 
was present at the 2014 Stabilizing Indigenous Languages Symposium, and 
participated in the examination of the proposed bill, and articulation 
of the amendments that will align the intent of S. 1948 with the 
delivery at our local levels.
    I am an enrolled member of the Leech Lake Band of Ojibwe. I serve 
at Niigaane Ojibwemowin Immersion, an elementary education site that 
provides over 1,000 hours per year of Ojibwe-medium education to 40 
students of our Leech Lake Band of Ojibwe communities. Our students 
enter our site speaking English as the language of the home, so our 
site serves a two-fold purpose to revitalize Ojibwe language and to 
express our educational sovereignty. We are in our tenth year of 
operation at our site, during which we have grown a grade per year from 
Kindergarten to 6th grade. Niigaane operates within the Leech Lake Band 
of Ojibwe tribally-chartered Bureau of Indian Education Bugonaygeshig 
School at the Leech lake reservation in Minnesota.
    Expressions of our indigenous Native cultures have led to deeper 
examinations of leadership and decisionmaking ideals and community 
operations systems that are specific to our Native communities. We are 
broadly expressing an alternative decisionmaking structure in operating 
our immersion education sites, as is the original intent of educational 
sovereignty. However, policy mandates create barriers to operating our 
tribal schools in our languages as a tribally designed way. We are 
unfunded, essentially, due to Highly Qualified teacher designations and 
assessments in a language other than Language of Instruction, among 
other ESEA requirements. Jurisdiction of our schools is not tribally 
controlled or determined, nor even BIE-monitored, but is individually 
determined by states. Title I Accountability factors supercede Title 
VII and Native American Languages Act (P.L. 101-477) policies that are 
supposed to support our student success by recognizing the unique 
linguistic and cultural needs of our Native students. This clearly 
values the American monolingual sytems over our multilingual systems. 
At our Niigaane site, we have created a pathway to success in a way 
that looks different, but works as well as or better than monolingual 
English-medium education. Our students matriculate out at 6th grade to 
other English-medium schools in the region, and we informally track 
their progress. 100 percent of our students who have matriculated from 
our program are performing at or above the level of their English-
monolingual peers on English-medium measures of academic progress in 
the high schools to which they have transferred. These students have 
the added benefit of being functionally bilingual at an age much 
younger than the average Minnesota student. Research on multilingualism 
has long recognized that language learning produces higher-level 
cognitive functioning and higher-level social and cultural competence 
than does monolingualism.
    Our school requires a family to commit to volunteer at the school 
in order to improve our site and offerings, thus involving multiple 
generations of our people in our education site; only a few decades 
ago, our families were intimidated or uninterested in participating in 
the public school educational sites because they did not reflect our 
Ojibwe community. This amazing turnaround results in up to 1,000 hours 
per year of volunteer resources, which we could not afford to purchase 
within our already insufficient level of funding. To report on HS 
graduation rates of our students will require a ten-year longitudinal 
data collection system; however, we are confident in our strategies 
because we have adapted successful strategies from other indigenous 
immersion education sites that are showing success in this area.
    There does not currently exist in statute an annual funding stream 
exclusively for Native Language immersion schools. S. 1948 must 
maintain the intent to create a dedicated fund for Native language 
immersion site efforts.
    We need to strengthen language in this bill to serve students in 
immersion education sites to teach and measure in our languages in a 
way that is linguistically and culturally congruent to our educational 
goals.

  <bullet> Contract between the Department of Education and Language 
        Immersion school site LEAs. This will allow us to forecast 
        funding to support our operations, and we can use grant funding 
        for capacity-building projects. We must guarantee that the 
        funding will go to the targeted students who are being educated 
        in the medium of the Native language, and not just being 
        swallowed up by school districts. Strengthening the language in 
        the proposed bill to require application and reporting on 
        targeted students will ensure this.

  <bullet> Definitions and guidelines exist in NALA regarding the use 
        of Native American languages as the medium of instruction to 
        encourage and support student success. However, it is unfunded. 
        Subsequent amendments in 1992 and 1996 provided an amount of 
        funding, but landed in a competitive grant process, which does 
        not provide stability for the programs or schools. Secure 
        funding is necessary to support self-determination through 
        education.

  <bullet> We must recognize that these schools or programs operate in 
        different structures such as BIE schools, public schools, and 
        tribal or locally operated programs and ensure inclusion for 
        all varied program types, languages, and states.

  <bullet> Site-specific targeted proficiency standards must be 
        trusted. Oral proficiency included in academic achievement 
        assessments in the Language of Instruction (rather than a 
        language in which the students are not educated, English).

  <bullet> High school graduation rate and other data relevant to 
        career and community participation standards should be included 
        in the reporting by the language immersion site. For our 
        people, educational outcomes include High School graduation 
        rates and the consideration of career and community integration 
        to sustain our local communities. Standardized test scores on 
        English assessments will never accurately predict educational 
        outcomes for students who are educated in the Native Language 
        for all academic and social content.

  <bullet> We need a new option to fulfill federal requirements 
        relative to uniform state plans. Our Native language immersion 
        education sites must describe a school-specific method with 
        Native American language of instruction appropriate standards, 
        assessments of students and teachers.

    We feel that our locally determined route to language and culture 
revitalization through the medium of Ojibwe language immersion 
education for all academic and social contexts will benefit our nation 
far into the future by developing new members of the Ojibwe Nation who 
are grounded in Ojibwean ideals of citizenship. These benefits will 
extend to any context or community in which these Niigaane Ojibwe 
Immersion students--Ojibwe citizens--may find themselves, and will 
continue to positively contribute to the knowledge base of the world.
    We have determined locally that our population will be well-served 
by Ojibwe-culturally based education, and we seek the funding support 
to continue to develop our efforts, and continued investigation into 
public policy and funding appropriations that support our efforts.
    Miigwech weweni gaa'inendameg, thank you for your kind 
consideration.
                                 ______
                                 
 Prepared Statement of Brooke Mosay Ammann, Director, Waadookodaading 
                    Ojibwe Language Immersion School
    Boozhoo Anishinaabedog, Aaniin gakina awiya. Niiyogaabawiikwe 
nindizhinikaaz. Migizi nindoodem. Inaandagokaag indoonjibaa. Odaawaa-
zaaga'iganing indaa dash indanokii iwidi. Miigwech bizindawaiyeg.
    Thank you for listening to me. I am specifically addressing and 
testifying in regards to S. 1948, a bill to promote the academic 
achievement of American Indian, Alaska Native, and Native Hawaiian 
children with the establishment of a Native American language grant 
program within the Department of Education. Senator Tester, I 
appreciate your introduction of the bill and all of the lawmakers who 
have taken the initiative to support its movement.
    My name is Brooke Mosay Ammann, and I am the Director of 
Waadookodaading Ojibwe Language Immersion School on the Lac Courte 
Oreilles Ojibwe reservation in northern Wisconsin. I am also the parent 
of two students at the school. The mission of our school is to create 
proficient speakers of the Ojibwe language who are able to meet the 
challenges of our rapidly changing world. We do this through teaching 
our children grade level skills in standard academic subjects through 
the medium of the Ojibwe language. Our students are proficient in both 
Ojibwe and English.
    Waadookodaading ended our school year with fifty-three students in 
the preschool through fourth grades. We have twenty-four students on 
the wait list for next year that we will not be able to accommodate. 
Although our school is a public charter, we are located on tribal lands 
and our authorizing school district is only obligated to offer us pass 
through funds for each student. We hold classes in federal surplus 
modular building units that are aging and worn, held together by 
determination and hope. We are responsible for finding the funding to 
support ourselves.
    Our school is in the fourteenth year of operation. We have thus far 
only gone through the fifth grade, starting with just eight students in 
preschool and educating them for as long as we could before we sent 
them off to mainstream English language medium classrooms. As I was 
present for the meeting at the Stabilizing Indigenous Languages 
Symposium referenced in the testimony delivered by Namaka Rawlins of 
`Aha Punana Leo, I must record that I concur with her sentiments 
regarding the difficulties federal policy creates for those of us 
revitalizing our Native American languages through a school based 
model. Waadookodaading also had the chance to review the bill and 
contribute to the changes she has submitted, with which we also agree.
    Although we are not able to provide graduation and college 
attendance data at this time, I would like to outline the impact of the 
Ojibwe language immersion school on our community. Waadookodaading is 
not just revitalizing our Ojibwe language it is revitalizing our 
community.
    The Lac Courte Oreilles Reservation is located within Sawyer 
County, which has the second highest poverty rate in the state. The 
Tribe's BIA Labor Force Report for 2013 documents an unemployment rate 
of 50 percent. Like many rural impoverished communities, we have seen 
the brightest students and community members move on from the small 
town life to seek personal economic and career opportunities elsewhere. 
This ``brain drain'' is especially evident in the education field, as 
rural school districts struggle to attract quality teaching and 
administrative talent. And as is the case nationwide, indigenous 
communities and rural reservation areas feel the impact of this trend 
the most. American Indian teachers are not teaching American Indian 
students, and our youth struggle with making connections to these 
important role models either because of a cultural disconnect or 
because teachers use reservation schools as stepping stones on the path 
to higher paying assignments.
    Though on a small scale, our school is reversing the brain drain. 
At Waadookodaading, 100 percent of the staff is Ojibwe, 83 percent of 
the teaching staff have a Master's Degree or higher, 100 percent of the 
staff considers Ojibwe their 1st or 2nd language, and 81 percent are 
enrolled in federally recognized tribes, with half of them representing 
their home community of Lac Courte Oreilles. The other half moved to 
the community with the goal of working at Waadookodaading. Beyond 
attracting dedicated teachers and staff to the community, there are 
students currently enrolled in teacher training programs with the 
explicit goal of becoming certified teachers fluent in the Ojibwe 
language. Their goal after program completion is to return to the Lac 
Courte Oreilles reservation to teach at Waadookodaading. We have 
parents and consultants who are working on Doctoral degrees in 
linguistics with a focus on the Ojibwe language who were inspired by 
the work of Waadookodaading teachers. Skilled first language Ojibwe 
speakers who were once physically and emotionally abused by 
schoolteachers have found their way back to the classrooms to create 
stories and curriculum and develop teacher vocabulary. Our young adults 
see that speaking Ojibwe is an asset, and can be the foundation of a 
career in which a person can be earn money and build a career in our 
beautiful Wisconsin homeland. Ojibwe language medium education is the 
type of teaching and education reform that historically disenfranchised 
people are willing to support, and even devote their lives toward 
advancing.
    In closing, S. 1948 is a much needed, natural step in the 
progression of growth of the Native American language medium school 
movement. While we are grateful for and support the continuation of the 
Administration for Native American Native Language Revitalization 
funds, and especially those of the Esther Martinez Initiative, those 
funds are limited and recent changes favor new initiatives. Those of us 
that have led the way in piloting the American Indian language medium 
schools have proven that this is a valid approach to improving 
community school engagement and American Indian student outcomes. This 
past school year, Waadookodaading had six programs from the United 
States and Canada visiting and observing, looking for guidance as they 
begin their own Native American language medium schools. It is time for 
the Native American language medium school to be recognized and funded 
as the vital component of the American educational landscape it has 
become.
    Miigwech miinawaa bizindawiyeg. Thank you for listening to me.
                                 ______
                                 
 Prepared Statement of Michael D. Sullivan Sr., Professor, The College 
                           of St. Scholastica
    Boozhoo ogimaadog! Giwii-miigwechiwi'ininim weweni omaa gii-pi-
nakondameg da-bizindaweg agiw Anishinaabeg endazhiikangig yo'ow sa 
indanishinaabemowininaan. Mii omaa wendimaang yo'ow mino-bimaadiziwin 
gaa-pi-inenimiyangid a'aw Manidoo. Aaniish naa ogii-maamiinaan aniw 
akina bemaadizinijin odinwewini da-inwenid. Mii sa yo'ow sa gaa-pi-
miinigoowiziyaang enishinaabewiyaang. Apegish sa noo naa wii-pi-
onjiniketaageyeg da-wiidookawegwaa agiw Anishinaabeg waakwajitoojig da-
bi-giiwewidoowaad odinwewiniwaan.
    Greetings respected leaders. I would like to thank you all for 
taking the time to hear from those Native peoples who are working hard 
to stabilize our indigenous languages. It is from our precious 
languages that we are able to life the good life that our Creator 
intended us to live. After all, it is our belief that our Creator has 
given each walk of life their specific way to make their sound, to 
communicate with their babies, and maintain a connection with our 
spiritual realm. I hope and pray that each of you take the time to make 
an effort to assist with this most important work of bringing our 
languages back into our homes and schools.
    As a young Ojibwe man raised on the Lac Courte Oreilles 
reservation, I have witnessed first-hand the decline and subsequent 
revival of our Ojibwe language. As a boy, everyone of my grandmother's 
generation spoke Ojibwe yet no one of my mother's generation can 
communicate in the language of their parents. Year after year, we 
consistently lost speaker after speaker as our elders grew old and were 
eventually called home by our Creator. Year after year our language 
declined, both in quantitative numbers of speakers and perhaps more 
importantly, in the domains in which our language is used. That all 
changed 14 years ago with the birth of Waadookodaading, our Ojibwe 
language immersion school and the shining pearl of the Ojibwe language 
revitalization movement. We no longer are losing speakers; we are 
producing them. Because of this school, we now have over 60 children 
that have achieved advanced proficiency in their heritage language. 
Though this not a massive number, it is the highest percentage of 
Ojibwe speaking children in the United States. Not only is our language 
used in the school, but also through the school we have been successful 
in expanding the domains in which we use our language.
    As a college professor and linguist, I have a unique perspective to 
provide to your committee. I have personally witnessed the benefits of 
Waadookodaading in our community. It has often been said that regaining 
our indigenous languages does something magical to our heart, mind, 
body, and soul. For the first time ever on our reservation, our 
children are educated by young, healthy, sober, traditional individuals 
who want nothing more than to pass on this healthy lifestyle to our 
children. Having 3 children of my own in the immersion school has been 
an uplifting and motivating journey for myself as a warrior for our 
language. I have a 10-year-old song that, among other things, can 
explain technical concepts such as mathematics and geography in our 
Ojibwe language. I have a 6-year-old son who can inquire about the 
world in our Ojibwe language. I have a 5-year-old daughter who knows 
the days of the weeks, months of the year, and places in our community 
only by their Ojibwe names. All of this we have gained from the school, 
the number one domain in which our language was never spoken.
    It should be stated that our children in immersion do not only 
learn their tribal languages while engaged in their academic content, 
but they also learn about and engage in a healthy lifestyle. From our 
seasonal subsistence harvest activities to the songs and dances of our 
people, our children are taught to be proud of who they are, where they 
come from and where they are going. This is a new direction in American 
Indian education. As advocates for our languages and activists amongst 
our people, we no longer point the finger at ``the man'' for what has 
been done to us; we now look inward, pointing the finger at those who 
perpetuate the dysfunction that has plagued our communities since the 
birth of the boarding schools. Indeed, this is a new direction in 
American Indian activism.
    As elected officials with significant Native populations within 
your respective constituencies, I assume you are all well aware of the 
tragic history of American Indian educational policy and the 
unspeakable experiences that our elders endured. It is a miracle that 
our language has survived. It is a miracle that we as a people have 
survived the effort to eliminate the ``Indian Problem''. Ironically, it 
is schools, the very institutions put forth to make us better Americans 
have now become the place where we make ourselves better Indians. In a 
country that was founded on the principle of freedom, especially that 
of the freedom of religion, it is rather disturbing that practicing our 
own spirituality has only been legal since the passing of the American 
Indian Religious Freedom Act, (Public Law No. 95-341, 92 Stat. 469 
1978). Coincidentally, many of us engaged in language revitalization 
work grew up with this newfound freedom. Had our colonizing founding 
fathers considered the ``American Dream'' for us too, perhaps an 
educational policy advocating for our own pursuit of life, liberty, and 
happiness would have been implemented. Perhaps our nation is now ready 
to share that dream with us.
    I ask you to keep in mind when dealing with our respective nations 
and the policies that will affect our educational agenda and 
ultimately, our language effort, consider how poorly the system put in 
place has failed us. We have the highest dropout rate for any race or 
ethnicity in America. The overwhelming majority of American Indian 
people have lost faith and trust in this imposed system of education 
that has taught us to hate ourselves. Perhaps if we could only be 
allowed to drive the car we could then get to where we need to be.
    Sadly, many of our schools operate on a year-to-year basis with no 
long-term reliable funding source. I urge you to consider the proposed 
modifications to S. 1948. With the success of indigenous language 
immersion education, such efforts should be supported, perhaps even 
mandated. I sincerely thank you for taking the time to hear my 
testimony, and for considering the proposed modifications to S. 1948. 
God bless.
                                 ______
                                 
 Prepared Statement of Quinton Roman Nose, Executive Director, Tribal 
            Education Departments National Assembly (TEDNA)
    Chairman Tester and Vice Chairman Barasso, I am Quinton Roman Nose, 
Executive Director of the Tribal Education Departments National 
Assembly (TEDNA), a national non-profit membership organization for the 
Education Departments of American Indian and Alaska Native tribes. I 
appreciate the opportunity to speak to you today, and I thank Senator 
Tester and sponsors of the Native Language Immersion Student 
Achievement Act, S. 1948. TEDNA strongly supports S. 1948 and asks that 
the act be amended for additional strength, by defining and including 
Indian tribes and Tribal Education Departments or Agencies as 
``eligible entities'' to receive grants. This amendment would allow for 
increased tribal control over language immersion programs and provide 
opportunity for increased educational success for American Indian 
students.
    A vital component of American Indian student success is culturally 
relevant curriculum that includes language immersion programs. The 
importance of language immersion programs has long been recognized by 
Congress in the Indian Self Determination and Education Assistance Act 
of 1975, P.L. 93-638, the Native American Languages Act of 1990, the 
Native American Programs Act of 1974, and the Elementary and Secondary 
Education Act. More specifically, the Native American Languages Act of 
1990 explicitly stated policies to ``preserve, protect, and promote the 
rights and freedom of Native Americans to use, practice, and develop 
Native American languages,'' \1\ as well as to ``encourage State and 
local education programs to work with Native American parents, 
educators, Indian tribes, and other Native American governing bodies in 
the implementation of programs to put this policy into effect.'' \2\ 
Long established Congressional policy further recognizes that 
traditional languages are an integral part of American Indian cultures 
and identities and form the basic medium for the transmission, and thus 
survival, of American Indian cultures, literatures, histories, 
religions, political institutions, and values. S. 1948 furthers these 
policies.
---------------------------------------------------------------------------
    \1\ 25 U.S.C.  2903 (1) (2014).
    \2\ 25 U.S.C.  2903 (4) (2014).
---------------------------------------------------------------------------
    Nationwide, over 92 percent of American Indian students in K-12 are 
educated through State Education Agencies and public schools. \3\ About 
740 of these public schools are located on or near Indian reservations 
and over a dozen states have amended their laws to recognize the role 
that tribal histories, language, culture, and governments have in state 
public education. Even with these statistics, and numerous states 
actions to incorporate culturally relevant curriculum, today there is 
no federal law that explicitly recognizes the important role tribal 
governments should play in public school education. With the addition 
of tribes as eligible entities, the enactment of the Native Language 
Immersion Student Achievement Act will be a powerful move in the 
direction of tribal government inclusion in American Indian education.
---------------------------------------------------------------------------
    \3\ The State of Education for Native Students, The Education Trust 
(2013), 4, http://www.edtrust.org/sites/edtrust.org/files/
NativeStudentBrief_0.pdf.
---------------------------------------------------------------------------
    An avenue to increase success for American Indian students in 
elementary and secondary education is enhancing the capacity of Tribal 
Education Departments or Agencies (TEAs). The first TEA was created in 
1991, when the Rosebud Sioux Tribe with the help of the Native American 
Rights Fund, enacted a tribal law creating a TEA in order to contribute 
to how and what public schools teach. Since then, more than 200 tribes 
across 32 states have formed TEAs as administrative agencies within 
their tribal governments and charged them with implementing educational 
goals and policies. Although TEAs have successfully improved 
educational services to American Indian public school students, they 
are constrained by existing law and hampered by a lack of resources. If 
amended to include Tribes as eligible entities, S. 1948 will enhance 
the capacity and role of TEAs.
    There are many examples of why tribes should be included. The 
Cherokee Nation Education Services, a TEA located in Oklahoma, operates 
the Sequoyah Schools system through a contract with the Bureau of 
Indian Education. The Sequoyah Schools language program has proven to 
be a successful model, graduating 6 sixth-graders and 10 kindergarten 
students in 2014. \4\ In California, the Hoopa Valley Tribal Education 
department operates the Hoopa Valley Learning Center, a state and 
tribally funded program that provides student support services. 80 
percent of the students begin the program as ``at risk'' students with 
failing grades, while 90 percent of these students finish the program 
with passing grades. The success of these programs show why tribes need 
to be more involved in American Indian education departments and to 
incorporate tribal histories, culture and language into the curriculum.
---------------------------------------------------------------------------
    \4\ Cherokee Nation, Keeping Language Alive: Immersion School 
Graduates More Students, Indian Country Today Media Network, (2014), 
http://indiancountrytodaymedianetwork.com/2014/05/24/keeping-language-
alive-immersion-school-graduates-more-speakers-154888.
---------------------------------------------------------------------------
    As the Honorable Lillian Sparks, Commissioner of the Administration 
for Native Americans, pointed out, many tribes have successfully 
developed language programs with grants received from the 
Administration for Native Americans (ANA). \5\ The Yakutat Tlingit 
Tribe, using an ANA grant, successfully increased Tlingit language 
skills in 102 youth and 40 adults by incorporating the Tlingit language 
into the Yakutat public school system. \6\ Similarly, in Montana, the 
Fort Belknap College built upon the success of the White Clay Immersion 
School by hiring and training language teachers, developing curriculum, 
and creating an advisory council to guide curriculum. \7\ Mr. Thomas 
Shortbull, President of the Oglala Lakota College likewise testified to 
the success of the Lakota Language Immersion School, operated by the 
Oglala Lakota College, which educates students, kindergarten through 
fifth grade, in the Lakota language. \8\ Many other language programs 
and immersion schools operated by tribes across the country could 
benefit from being considered eligible entities under S. 1948. However, 
ANA grant funding alone is not sufficient to support the need to expand 
existing immersion programs and replicate these successes for tribes 
where language immersion programs do not yet exist.
---------------------------------------------------------------------------
    \5\ Native Language Immersion Student Achievement Act: Hearing on 
S. 1948 Before the S. Comm. on Indian Affairs, 113th Cong. 3 (2014) 
(statement of Lillian Sparks, Commissioner, Administration for Native 
Americans--U.S. Department of Health and Human Services).
    \6\ Id.
    \7\ Id.
    \8\ Native Language Immersion Student Achievement Act: Hearing on 
S. 1948 Before the S. Comm. on Indian Affairs, 113th Cong. 3 (2014) 
(statement of Thomas Shortbull, President, Oglala Lakota College).
---------------------------------------------------------------------------
    The Yurok Tribe has developed a language immersion and education 
program which has become the model for many California tribes. \9\ The 
Tribe has partnered with local school districts, bringing the Yurok 
language to the neighboring public schools. The Yurok language is now 
offered as classes, and one school offers a new Yurok immersion 
program. \10\ The Cherokee Immersion Charter School, within the 
Sequoyah School system of the Cherokee Nation of Oklahoma, graduates 
students who have learned grade level state standard curriculum while 
speaking only Cherokee. \11\ These programs are taking significant 
steps to improve the educational statistics for American Indian 
students, as well as creating partnerships with public school 
districts. The success of these programs has greatly increased student 
success. However, there are not an abundant amount of programs and the 
existing programs struggle to continue. S. 1948 would allow further 
development and financial stability of established, as well as new, 
language immersion programs.
---------------------------------------------------------------------------
    \9\ Norimitsu Onishi, In California, Saving a Language That 
Predates Spanish and English, N.Y. Times, April 13, 2014, at A13.
    \10\ Id.
    \11\ Cherokee Nation, Keeping Language Alive: Immersion School 
Graduates More Students, Indian Country Today Media Network, (2014), 
http://indiancountrytodaymedianetwork.com/2014/05/24/keeping-language-
alive-immersion-school-graduates-more-speakers-154888.
---------------------------------------------------------------------------
    In 2011, for the first time, Congress authorized direct federal 
appropriations for TEAs in the FY12 Appropriations Act. This was 
recognition by Congress of the important role TEAs have in operating 
and contributing to elementary and secondary education. Washington 
State also made an important recognition when WA HB-1134 was signed 
into law May 15, 2013. That bill provides for a co-governance model of 
education through the development of state-tribal compacts.
    The Native Language Immersion Student Achievement Act recognizes 
the importance of Native American languages in delivering education to 
American Indian students. Not only has Congress found that the use of 
Native languages is an effective education tool for American Indian 
education but it has also found that the use of these languages in 
education also helps preserve the language itself. Both improved 
education and preservation of Native American languages is of utmost 
importance to the culture and identity of all tribes.
    Tribal governments will help save our Native languages. Under 
tribal law, under the laws of some states, and increasingly even under 
federal law, tribes and TEAs are in the best position to coordinate 
resources from tribal, federal, and state programs to focus on language 
immersion programs in schools and communities. Many TEAs are even 
developing and implementing the needed language preservation and 
immersion programs. As TEAs grow in numbers and capacity, they are 
successfully taking the lead in meeting the need for tribal language, 
culture, and history programs. As they grow in numbers and capacity, 
TEAs are consistently taking the lead in meeting the need for tribal 
language, culture, and history programs and curricula.
    TEDNA strongly supports the Native Language Immersion Student Act, 
and urges the Committee to strengthen the bill by adding Indian tribes 
and TEAs as ``eligible entities'' to receive grants and I have attached 
proposed amendment language to this written testimony for your review.
    Again, I thank Senator Tester and the co-sponsors of S. 1948 for 
taking leadership on this vitally important issue.
    Attachment
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 ______
                                 
    Prepared Statement of the United Tribes Technical College (UTTC)
    United Tribes Technical College (UTTC) submits this statement in 
support of S. 1998, the Native Adult Education and Literacy Act of 
2014. The legislation would provide a statutory allocation of funding 
under the Adult Education and Family Literacy Act for tribal colleges 
and universities and Native Hawaiian education organizations. Likewise, 
the American Indian Higher Education Consortium, of which we are a 
member, is strongly supporting a funding allocation under this Act for 
tribal colleges and universities.
    We thank Senators Hirono, Moran, Begich, Heinrich, and Schatz for 
their leadership in recognizing the need for more resources for Native 
education institutions to provide adult and literacy education for our 
constituencies. We expect others will join as cosponsors.
    For 45 years, United Tribes Technical College has provided 
postsecondary career and technical education, job training, remedial, 
literacy and family services to some of the most impoverished, high 
risk Indian students from throughout the nation. We are governed by the 
five tribes located wholly or in part in North Dakota. We are not part 
of the North Dakota state college system and do not have a tax base or 
state-appropriated funds on which to rely. We have consistently had 
excellent retention and placement rates and are a fully accredited 
institution.
    Students at UTTC come from 75 different tribes, the preponderance 
from the Great Plains, the area of highest poverty in Indian country. 
Many are first generation college attendees. Eighty five percent (85 
percent) of our students receive Pell Grants. Many of our students need 
developmental reading and/or mathematics courses. Over the past five 
years, 60 percent of our incoming freshmen took developmental math 
courses and 55 percent took developmental English courses. Twenty five 
percent of students took both developmental math and English. As you 
know, students must have a Graduate Equivalency Diploma (GED) before 
continuing in college, and this year the GED requirements for 
mathematics were substantially increased. We need the resources to help 
our students meet those requirements.
    In addition to the remedial courses noted above, we are trying to 
be pro-active in encouraging students to finish high school and to be 
ready for college. We have a dual-enrollment program targeting junior 
and senior high school students, providing them an introduction to 
college life and offering high school and college credits. And our 
elementary school, Theodore Jamerson, which is located on our campus 
and funded through the Bureau of Indian Education, has a FACE program, 
a family literacy program.
    We are glad to offer remedial and other services for our students. 
Our core operating funding comes from the Bureau of Indian Education 
and the Section 117 Perkins program but these sources do not pay for 
remedial education. We cobble together funds from other sources for 
remedial education as we know that such an investment is needed in 
order to help ensure that our students succeed at the postsecondary 
level.
    The prospect of applying for a dedicated source of tribal college 
funds under the Adult Education and Family Literacy Act would be of 
substantial help. Currently the Adult Education and Family Literacy Act 
funds are distributed via formula to states. Some of it does benefit 
American Indians and Alaska Natives, but a dedicated source that would 
fund tribally-designed programs could have a significant impact. In 
this Committee's hearing of June 11, 2014 on Higher Education for 
Indian Students, witnesses provided a statistically dire picture of the 
status of Indian education even though good work is being done by the 
tribal colleges and organizations providing scholarships to Native 
students, both undergraduate and graduate. The need simply outstrips 
the resources by a long way.
    Again, thank you for holding this hearing and others on Indian 
education. We are hopeful that S. 1998 will be included in the 
Workforce Investment Act (WIA) reauthorization agreement that has been 
reached between the Senate and House Education committees. We are 
pleased that the agreement reached on WIA took the Indian program 
provisions of the Senate, rather than the House, bill; the inclusion of 
the text of S. 1998 or something similar to it would improve it even 
more.
                                 ______
                                 
                      National Indian Education Association
                                      Washington, DC, June 16, 2014
Hon. Tim Johnson,
U.S. Senate,
Washington, DC.
Re: NIEA Support for Senate Bill 2299--The Native American 
                              Languages Reauthorization Act

Dear Senator Johnson,

    On behalf of the National Indian Education Association (NIEA), I am 
excited for the introduction of the Native American Languages 
Reauthorization Act (S. 2299). This bipartisan bill is crucial for 
reauthorizing a non-controversial program that efficiently and 
effectively provides grants to revitalize Native languages. As the most 
inclusive Native education organization in the country, we are working 
hard to support your efforts to see this language become law.
    According to UNESCO, 74 Native languages stand to disappear within 
the next decade. Equally as alarming, scholars project that without 
immediate and persistent action, only 20 Native languages will be 
spoken by 2050. The Esther Martinez Initiative funds immersion programs 
that are successfully passing on Native languages to American Indian, 
Alaska Native, and Native Hawaiian students. Native language 
revitalization is a critical priority because language preservation 
goes to the heart of Native identity. In many ways, language is 
culture. Learning and understanding traditional languages help Native 
students thrive. And, immersion programs ensure the survival of a 
student's language and cultural identity for generations.
    NIEA appreciates your attention to protecting and strengthening 
Native languages and looks forward to working with the Senate Committee 
on Indian Affairs to move the bill to the full Senate. We also 
appreciate your continued dedication to our Native communities. Through 
our concerted efforts, we know that negative statistics representing 
our Native students will begin to reverse.

    Re: Support for S. 1948--The Native Language Immersion 
                                    Student Achievement Act
Dear Chairman Tester and Vice Chairman Barrasso,

    On behalf of the National Indian Education Association (NIEA), 
thank you for the renewed focus and energy of the Committee on Native 
education. The recent hearings on the Bureau of Indian Education (BIE) 
and public schools serving Native students created a strong foundation 
for collaboration. To build upon this momentum, NIEA respectfully 
requests that the Committee hold a hearing on Native languages and pass 
Senator Tester's bill, S. 1948--The Native Language Immersion Student 
Achievement Act.
    NIEA, founded in 1969, is the most inclusive Native organization in 
the country--representing Native students, educators, families, 
communities, and tribes. NIEA's mission is to advance comprehensive 
educational opportunities for all American Indians, Alaska Natives, and 
Native Hawaiians throughout the United States. From communities in 
Hawaii, to tribal reservations across the continental U.S., to villages 
in Alaska and urban communities in major cities, NIEA has the most 
reach of any Native education organization in the country.
    NIEA supports Senate bill 1948 because it ensures that Native 
language immersion--one of NIEA's key Elementary and Secondary 
Education Act (ESEA) reauthorization priorities--is not overlooked, but 
strengthened. Native language revitalization and preservation is a 
critical priority to tribes and Native communities because language 
preservation goes to the heart of Native identity. In many ways, 
language is culture. Learning and understanding traditional languages 
helps Native students thrive and is a critical piece to ensuring 
schools serve Native students effectively. Immersion programs not only 
increase academic achievement, but guarantee that a student's language 
will be carried forward for generations.
    Once again, thank you for your continued support of Native 
education.
        Sincerely,
                                                 Pam Agoyo,
                  President, National Indian Education Association.
                                 ______
                                 
Dear Senate Committee on Indian Affairs:

    I am a member if the red lake band of Chippewa Indians. I am in 
support of S. 1948, a bill to support academic achievement of American 
Indian, Alaska Native, and Native Hawaiian children with the 
establishment of a Native Languages grant program. Committee members 
should support the amendments to S. 1948 as provided by Stabilizing 
Indigenous Languages Symposium participants in the testimony submitted 
by Namaka Rawlins for hearing on 6/18/2014.
    S. 2299 reauthorizes the Native American Language Preservation Act 
to 2019, which provides funds to ensure the survival and continuing 
vitality of Native American languages.
    Thank you for taking the time to hear my testimony,
                                 Elizabeth Sahkahtay Strong
                                 ______
                                 
Dear Senate Committee on Indian Affairs,

    I urge support of S. 1948, a bill to support academic achievement 
of American Indian, Alaska Native, and Native Hawaiian children with 
the establishment of a Native Languages grant program. Committee 
members should support the amendments to S. 1948 as provided by 
Stabilizing Indigenous Languages Symposium participants in the 
testimony submitted by Namaka Rawlins for hearing on 6/18/2014.
    Please also support S. 2299, which reauthorizes the Native American 
Language Preservation Act to 2019, which provides funds to ensure the 
survival and continuing vitality of Native American languages.
    Time and again studies have proven the economic and cognitive 
benefits for children learning multiple languages. I can personally 
attest to the restorative effect it has on Native communities, which as 
you know are still healing from generations of mistreatment and 
outright assimilation attempts from the United States government. It is 
beyond time for the U.S. to make amends to these sovereign nations, and 
it can begin by supporting indigenous language learning via S. 1948 and 
S. 2299. Please, do the right thing and vote yes to the Stabilizing 
Indigenous Languages Symposium amendments to S. 1948 and to both bills.
    Please also urge your colleagues to support the House companion 
bills H.B. 4214 and H.R. 746.
        Best regards,
                                             Jennifer Hall,
           Leech Lake Ojibwe descendant, proud Ojibwemowin learner.
                                 ______
                                 
To Whom It May Concern,

    I urge support of S. 1948, a bill to support academic achievement 
of American Indian, Alaska Native, and Native Hawaiian children with 
the establishment of a Native Languages grant program. Committee 
members should support the amendments to S. 1948 as provided by 
Stabilizing Indigenous Languages Symposium participants in the 
testimony submitted by Namaka Rawlins for hearing on 6/18/2014.
    S. 2299 reauthorizes the Native American Language Preservation Act 
to 2019, which provides funds to ensure the survival and continuing 
vitality of Native American languages.
                                               Nokomis Paiz
                                                      Red Lake, MN.
                                 ______
                                 
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                            Thomas Shortbull
    Question 1. What is the best proven method to support language 
preservation and to ensure that native languages remain living 
languages, spoken by children as well as elders, in schools and in 
homes across native communities throughout the United States?
    Answer. In our tribe, the language has sporadically been taught in 
schools using methods that were inspired by methods used to teach 
foreign languages in mainstream schools. After thirty years these 
approaches have not produced any new speakers. The same can be said of 
language teaching at the college level. OLC is also working toward a 
modified immersion method for adult learners. We have tried a number of 
demonstrations and will be trying more.
    The Full Immersion method developed and implemented by the Maori 
and the Hawaiian communities has, by contrast, shown an undeniable 
success over thirty years of practice. The Full Immersion concept 
reenacts the conditions of the natural acquisition of the first 
language of a child. It utilizes fluent speakers, usually Elders, as 
teachers, and involves the families of the children. It ultimately 
involves the communities as the language becomes again a more widely 
and spontaneous way of inter-generational communication in private as 
well as in public.

    Question 2. Can you discuss the importance of having living 
languages and name some of the benefits as they relate to cognitive 
development, literacy, academic achievement, college attainment or 
other education and development goals?
    Answer. The language is the foundation of the identity as it 
carries the culture that is specific to it and is the element of 
distinction between one culture and others. This distinctive character 
is active and actual in the life of the speaker to the contrary of 
``blood degree'' that is passive and abstract for the life of the 
individual. A child who is recognized as a Lakota and is brought up in 
and with the living language is de facto rooted in his/her very 
culture. The language spoken around him/her by adults who are the 
current carriers of the unaltered culture validates the culture, and 
reinforces his/her personality, self-esteem, and motivation. The child 
has the best chance to become a productive member of the community as a 
leader, maker and/or a role model.
    The mastery of two languages, each relevant to part of the dual 
reality of life for the Native nations, allows the individual to 
comprehend and help others comprehend this complex reality and to 
figure out and model how to deal with each side of this reality. This 
helps the person maintain the authenticity of the identity and, at the 
same, time be able to efficiently address the necessities of life in 
21st century America. Research shows that bi- or multi-lingual 
individuals have an enhanced ability to embrace complex realities, 
comprehend differences, and produce creative and effective ideas in 
problem-solving situations.

    Question 3. Can you address concerns expressed by critics of 
immersion or bilingual education programs that exposure to two or more 
languages simultaneously at a young age may delay or hamper language 
acquisition or proficiency? Does a child's ability to speak multiple 
languages impact developmental milestones or academic achievement in 
later years? If so, how? Are there benefits of training a child to 
communicate in two or more languages?
    Answer. As the child learns simultaneously two different languages, 
the processing of information and acquisition of skills takes more time 
than if the child was working with one language only. However, as the 
child progresses in the one and the other language mastery, the 
processing of information becomes more effective, faster and the child 
develops original strategies to keep on progressing; this is 
particularly true of the memory functions [like storing/recalling] and 
mnemonic process [like associations, linear or circular links, formal 
or semantic connections for instance].
    We refer you to the following research done by NEA:
    Regarding World Language Education NEA Research, December 2007
    The Benefits of Second Language Study Research Findings with 
Citations
    Status of U.S. second language study 1
Research Findings: Second language study:
    . . .benefits academic progress in other subjects 2
    . . .narrows achievement gaps 3
    . . .benefits basic skills development 3
    . . .benefits higher order, abstract and creative thinking 4
    . . .(early) enriches and enhances cognitive development 4
    . . .enhances a student's sense of achievement 4
    . . .helps students score higher on standardized tests 5
    . . .promotes cultural awareness and competency 5
    . . .improves chances of college acceptance, achievement and 
attainment 6
    . . .enhances career opportunities 6
    . . .benefits understanding and security in community and society 6
    . . .barriers 6
    Bibliography 7
    Web References 12

    Question 4. What are some of the spillover benefits of having 
immersion programs? Can you discuss any impacts or progress toward:
    a. Creating leaders
    Answer. The Lakota Language is carrying the culture, view of the 
world, values and meaning of life of the Lakota people, and, as such, 
is determinant in the choosing of men and women who will lead their 
people into the future in accordance with the deep Lakota identity. As 
leaders speakers of the language will be able to continue the mending 
of the society, communities and families by understanding what to 
restore to achieve the ability to successfully live in two worlds. Many 
of the greatest modern leaders of the Lakota are, or were, fluent in 
English and Lakota including Gerald One Feather, founder of Oglala 
Lakota College.

    b. Community building
    Answer. As carrier of the traditional language, these individuals 
will naturally be the point of crystallization whenever the community 
expresses a desire or need to revitalize a larger part of the culture. 
The original societal structure of the Lakota is the Tiyospaye 
(extended family), and the current communities reflect this specific 
aspect of the culture to which the Lakota Language confers meaning and 
significance much more than the English language does.
    c. Cultural identity/pride
    Answer. As we know that a language carries the culture and that 
without the language the culture cannot carry on , the speakers are 
acknowledged and recognized as the perpetuators of the true culture 
that is so distinctive of the Lakota people as a people (as is true for 
Cheyenne speakers for the Cheyenne people, Dine for the Dine people, 
etc. . .]. The speakers incarnate the identity, pride, self esteem and 
self assurance of their people.

    Question 5. Maintaining living native languages takes an immense 
amount of time, energy and resources to design appropriate curricula 
and learning materials. It is similarly challenging to cultivate native 
language instructors and professionals who can successfully educate 
pupils in the native language. Moreover, piecing together annual 
budgets from a number of different funding sources can be difficult. 
Are more resources needed to support the immersion language programs? 
And if so, why?
    Answer. Most immersion language programs are small, and face 
expenses that are comparatively greater than those of larger 
conventional schools. The utilities cost is more expensive at a per 
child ratio for a 40 child program than for a 300 child school, and so 
is transportation. Extra curricular, sports, and cultural activities 
impose various types of expenses including gas for transportation, 
participation fees, acquisition of equipment, and meals. Very often 
this is either a barrier or at least limitation to these activities. 
Donations in monies and in kind are very often what we depend on in 
order to give our children the opportunity to partake in a hand games 
tournament or in archery. We are very limited at this time in terms of 
budget to provide continued training to our teaching staff which is 
crucial for the success of the full immersion programs. Oglala Lakota 
College makes a large contribution to just assure that we can continue 
a quality program.

    Question 6. Language is closely tied to one's identity and self-
confidence, and in communities, language teaches and reinforces the 
traditional culture and values. Do you have evidence or data comparing 
the psychological well-being or academic achievement of immersion 
students versus non-immersion native students?
    Answer. On this topic, I cannot provide verifiable data as the 
students who are enrolled in conventional schools do not fall into our 
data recording. However, our students show an effective internalization 
and practice of traditional cultural values such as respect of others 
and self respect. Outside observers such a an Administration for Native 
Americans ``Impact Visit'' agent and Lannan Foundation visiting team 
noted as striking the culturally relevant behavior displayed by the 
children, individually and as a group. Most students take an 
ostentatious pride in attending the school, ``their school'' in their 
own words, and in having a working knowledge of the their language. 
Some of them have been ``importing'' some language in their home. Some 
others proudly speak of using the language at home with their 
relatives, mostly their grandparents.
    Two former students have been transitioning from our program to 
conventional schools outside the reservation. One is in 5th grade in a 
rural area school not very far from the reservation and was a 
``straight A student'' for the first year in the conventional school as 
a 4th grader. The other one finished her 4th grade in a conventional 
school in New jersey. She struggled for the first 4 months but passed 
on to 5th grade, and based on a recent phone conversation with the 
parents is now totally adjusted and performing well.

    Question 7. In your work, have you noted whether native language 
proficiency and native cultural familiarity have any impact on the 
self-esteem and resiliency of native immersion students?
    Answer. Our program is still young and the observation of this type 
of impact is limited. However, we see most of our older students [4th 
and 5th graders] having a positive image of themselves as individuals, 
as members of a traditional family, and as a group by contrast with 
other children from conventional schools. This is observed in several 
families who reported the fact to us on various occasions like our 
Winter (Christmas) Celebration and Family Puppet Making workshop . 
Families report often on their student spontaneously singing 
traditional songs at home that they learned at the school.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                            Clarena Brockie
    Question 1. What is the best proven method to support language 
preservation and to ensure that native languages remain living 
languages, spoken by children as well as elders, in schools and in 
homes across native communities throughout the United States?
    Answer. Immersion Schools not only revitalize the language but 
preserve the cultural heritage, ceremonies, traditions and history. 
Native languages survive when it is spoken on a continual basis, in the 
home as well as in schools. In some communities the language is center 
when traditional ceremonies are conducted.

    Question 2. Can you discuss the importance of having living 
languages and name some of the benefits as they relate to cognitive 
development, literacy, academic achievement, college attainment or 
other education and development goals?
    Answer. In 2002 the White Clay Immersion opened a full Native 
Language immersion school operating under the Aaniiih Nakoda College in 
direct response to the reality that only 25 Aaniiih language fluent 
speaker remained in 1997. With research and planning the school was 
opened in 2002 under the direction of Dr. Lynette Chandler. Today there 
are no fluent elder Aaniiih speaker lives on the Fort Belknap Indian 
Reservation. Graduates from White Clay Immersion School have 
transitioned to public schools and are recognized by these schools as 
leaders in student government, academics and sports. They have received 
awards for Science, Math, English, Literature and Art. Of the original 
2011 graduating class for WCIS, three of the four students have been 
inducted into the National Honor Society. These students are also on 
the student council, participate in Jobs for Montana Graduates, Indian 
Club, Yearbook, volunteer programs and lead the class awards at the end 
of the school year.

    Question 3. Can you address concerns expressed by critics of 
immersion or bilingual education programs that exposure to two or more 
languages simultaneously at a young age may delay or hamper language 
acquisition or proficiency? Does a child's ability to speak multiple 
languages impact developmental milestones or academic achievement in 
later years? If so how? Are there benefits of training a child to 
communicate in two or more languages?
    Answer. As expressed in question two, the White Clay Immersion 
students have excelled beyond the average student. These students have 
transition without any difficulty and have continued to excel in the 
public school setting.

    Question 4. What are some of the spillover benefits of having 
immersion programs? Can you discuss any impacts or progress toward: (a) 
Creating Leaders (b) Community building (c) Cultural identity/pride.
    Answer. It is essential to the survival of the language that every 
effort is made to assure the continuance of the language that is in 
danger of being lost. It is more than a ``spillover benefit.'' The 
Language reveals who we are as Native people, building pride and 
cultural identity. However the Immersion schools provides a rounded 
education, including knowing the oral history, those that sustained the 
people, provided them guidance and knowledge on culturally what was 
important such as respect, generosity, listening to your elders, how to 
survive, learning from your mistakes, believing in the Creator, and 
spiritual guidance. With a good foundation, they become leaders in the 
community.

    Question 5. Maintaining living native languages takes an immense 
amount of time, energy and resources to design appropriate curricula 
and learning materials. It is similarly challenging to cultivate native 
language instructors and professionals who can successfully educate 
pupils in the native language. Moreover, piecing together annual 
budgets from a number of different funding sources can be difficult. 
Are more resources needed to support the immersion language programs? 
And if so, why?
    Answer. Yes. Financial resources are limited. Some private Public 
schools have restricts that immersion schools don't always fit under.
    If language revitalization had to wait for funding, it would be 
very difficult to implement. When a language is in danger of being 
lost, those people must do whatever they can to assure that it 
continues. Sometimes it starts with classes in the home or from a small 
private grant to implement whys of retaining the language by hosting 
classes, paring language speakers with learners, having after school 
programs. But at some point immersion is needed to insure the retention 
of the language.
    Funding is sporadic, with constant grant writing meeting with 
foundations and local fundraisers. The Administration of Native 
American programs (ANA) has specific language that limits what you can 
do or every three years a new objective or direction is required. If 
the basic goal is to learn the language, the measure should be how many 
students have learned and retained the language. And the funding is 
limited to three years.

    Question 6. Language is closely tied to one's identity and self-
confidence, and in communities, language teaches and reinforces the 
traditional culture and values. Do you have evidence or data comparing 
the psychological well-being or academic achievement of immersion 
students versus non-immersion native students?
    Answer. The evidence we have is the success of the WCIS and how 
they are progressing. The first class of 2011 will be graduating next 
year and we will summarize their success academically, socially and 
culturally.

    Question 7. In your work, have you noted whether native language 
proficiency and native culture familiarity have any impact on the self-
esteem and resiliency of native immersion students?
    Answer. The ANC White Class Immersion School had it first 
graduating class in 2011 with only one other class and we have 
evaluations and measures in place for reviewing the success of the 
program. We realized that tracking graduates and gathering data is an 
important tool in measuring success.

    Summary: My answers are based on the White Clay Immersion School 
student's success, experience and transition into the public school.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                            Hon. Ed Delgado
    Question 1. What is the best proven method to support language 
preservation and to ensure that native languages remain living 
languages, spoken by children as well as elders, in schools and in 
homes across native communities throughout the United States?
    Answer. The best-proven method to ensure the survival of native 
languages is Indigenous Language Immersion. This form of immersion 
includes incorporating the Indigenous culture and using the Indigenous 
language as the medium of instruction for all subjects.

    Question 2. Can you discuss the importance of having living 
languages and name some of the benefits as they relate to cognitive 
development, literacy, academic achievement, college attainment or 
other education and development goals?
    Answer. The importance of having a living language is paramount for 
the survival of Indigenous identity, worldview, knowledge, ceremonies; 
in fact, a living language holds a whole world that includes every bit 
of information and knowledge about the universe from the point of view 
of the Indigenous people speaking that language. The language provides 
invaluable information of how to heal the Indigenous people physically, 
mentally, emotionally and spiritually from the historical trauma 
experienced over many generations. The benefits for cognitive 
development are acquiring more complex skills at an earlier age and 
cognitive flexibility. In an environment where one's own ancestral 
language is living and thriving it has positive impacts on the 
following cognitive skills: critical thinking, memory, problem solving 
and decision-making. Indigenous literacy includes oral tradition, 
culture, art; Indigenous literacy is beneficial to supporting a 
thriving, living language. The works of William Demmert cite that 
academic achievement is much higher in Native American children who 
know how to speak their language and participate in their culture. It 
provides them with a foundation of how to see the world and helps them 
navigate in the culture of academia from kindergarten to college and 
beyond. A living language affords the Indigenous community the ability 
to provide their young people with necessary tools to give them success 
in both their culture and mainstream society's culture.

    Question 3. Can you address concerns expressed by critics of 
immersion or bilingual education programs that exposure to two or more 
languages simultaneously at a young age may delay or hamper language 
acquisition or proficiency? Does a child's ability to speak multiple 
languages impact developmental milestones or academic achievement in 
later years? If so how? Are there benefits of training a child to 
communicate in two or more languages?
    Answer. The concerns expressed by critics of immersion or bilingual 
education are usually centered on students acquiring English and one 
other language. In the arena of Indigenous Language Immersion, it only 
benefits a young person to have their ancestral language as their first 
language and/or bilingual in both their language and English. There are 
no delays or hampering of language acquisition or proficiency when it 
comes to educating Indigenous youth in their own language as well as 
English. A child's ability to speak multiple languages only improves 
their success in reaching developmental milestones and achieving 
academically throughout their lives. Training a child to communicate in 
two or more languages provides the critical thinking skills to adapt 
intelligently to any environment whether academically or socially.

    Question 4. What are some of the spillover benefits of having 
immersion programs? Can you discuss any impacts or progress toward: (a) 
Creating Leaders (b) Community building (c) Cultural identity/pride.
    Answer. Some lasting benefits of having immersion programs are 
strengthening the community as a whole. The nature of Indigenous 
Language Immersion includes the participation of wide range of age 
groups. Within our families, we have experienced destruction of 
relationships via boarding schools and mainstream education. With 
immersion, families will need to work together to mend and maintain 
those relationships. When family relationships are strong, it builds a 
strong community. When our communities are strong we see a decrease in 
social ills and an increase in cultural identity and pride.

    Question 5. Maintaining living native languages takes an immense 
amount of time, energy and resources to design appropriate curricula 
and learning materials. It is similarly challenging to cultivate native 
language instructors and professionals who can successfully educate 
pupils in the native language. Moreover, piecing together annual 
budgets from a number of different funding sources can be difficult. 
Are more resources needed to support the immersion language programs? 
And if so, why?
    Answer. Yes, indeed, more funding resources are needed. In the 
particular, the language community in Oneida, WI is in the process of 
creating second language speakers in order to have an immersion or a 
bilingual program intended to create first language speakers of Oneida 
again. The amount of time and energy it takes to maintain one's course 
to become a second language speaker at this point in our language's 
history is a massive challenge. Our audio resources must utilized in 
the most efficient manner possible because we have no more first 
language speakers who are able to help us. New and creative media must 
be made with the previously recorded material in order to mirror the 
language exposure that one would have naturally. Strategic planning of 
funding resources must be based on producing quality resources and 
functional second language speakers. The work involved in growing our 
own fluent speaking Oneida teachers and then re-educating our community 
and youth is the most important effort that will echo for generations 
to come.

    Question 6. Language is closely tied to one's identity and self-
confidence, and in communities, language teaches and reinforces the 
traditional culture and values. Do you have evidence or data comparing 
the psychological well-being or academic achievement of immersion 
students versus non-immersion native students?
    Answer. We are in the beginning stages of documenting the kind of 
evidence and data that will compare Oneida students who are being 
taught with our current curriculum to those who are not using our 
current curriculum. Our community does not have Indigenous Language 
Immersion at this time.However, the current curriculum produced by the 
Oneida Language Revitalization Department, is being offered for credit 
at a nearby high school where data is being collected and will show 
improvements in academic success for the Oneida students learning 
language.

    Question 7. In your work, have you noted whether native language 
proficiency and native culture familiarity have any impact on the self-
esteem and resiliency of native immersion students?
    Answer. The impact that native language proficiency and native 
cultural familiarity has on students is definitely positive. They show 
a pride in themselves that is authentic and not constructed from 
mainstream society's culture. They know whom they are, where they come 
from and where they fit in or belong. Their self-confidence and self-
esteem soar, which helps with behavioral, issues as well as managing 
school work. Students show resiliency when faced with life's problems 
or trauma because they have their traditional ways to rely on to get 
them through whatever kind of issues they may have.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                             Namaka Rawlins
    Question 1. What is the best proven method to support language 
preservation and to ensure that native languages remain living 
languages, spoken by children as well as elders, in schools and in 
homes across native communities throughout the United States?
    Answer. The short answer to this question is that use of the 
language as the medium of instruction in schools and medium of 
communication between staff in native communities is the best-proven 
method to support language preservation and maintenance as living 
languages. I will address this question first with information from 
other countries, followed by our experience in Hawai'i and then discuss 
the spread of the model through our network of Native American language 
medium/immersion schools on a national level.
    Providing education through the medium of small locally distinct 
languages is a growing international phenomenon. The countries with the 
most experience in use of small autochthonous languages as the language 
of education are found in Western Europe, especially Scandinavia. Even 
for those countries, educational use of such small languages as the 
medium of normal public education is less than a century old. The 
advantage that Western Europeans have in developing this sort of 
education, however, is their long history of developing high 
multilingualism in their national school systems for their majority 
populations. These countries, therefore, have a high sensitivity to 
language use in schooling that makes it easier for them to see the 
benefits of education through small languages.
    Some examples of small Western European autochthonous language-
speaking populations similar in size to Native American languages are 
the cases of the Faroese language, the dialect network of Romansh and 
the Sami languages discussed below. This is followed by the example of 
New Zealand Maaori and then a detailed description of the Hawaiian 
situation. The spread of the model to states outside Hawai'i closes 
this section.
The Faroese Language of Denmark
    The Faroese language is spoken in the Faroe Islands, to the north 
of Scotland. These small islands are a part of Denmark, but run with a 
semi-autonomous government. That autonomous government has some 
similarities to tribal governments in the United States. The population 
of the Faroe Islands in 2013 was estimated to be 49,709, living in an 
area covering 540 square miles. Over fifty American Indian reservations 
are larger than the Faroe Islands, but most have smaller populations.
    In the early 1900s, there was fear that the unique Faroese language 
and culture would die out. The language had formerly been suppressed in 
the schools, churches and government. The people were considered 
backward and the education level was considered quite low.
    Today, both the language and the socio-economic situation are quite 
different. Almost 100 percent of the population of the Faroe Islands 
now speaks Faroese, with those who do not being residents who recently 
moved to the islands. The language is widely used in local religious 
institutions and also in the local government. The survival of the 
language is attributed to Danish government change in 1937, when 
Faroese replaced Danish as the language of instruction of all schools 
in the Faroe Islands. The language is spoken by all born and raised in 
the Faroe Islands, a demographic that makes up the vast majority of the 
some 50,000 people living in the islands. Education through Faroese 
includes preschool, K-12 education, and vocational training. There is 
also a small university similar to a tribal college in the Faroe 
Islands. The university offers a small set of courses at the bachelors, 
masters and doctoral level for the student population of 142. Teacher 
training through Faroese is also available.
    Although education is through Faroese, all Faroe Islanders also 
learn Danish and English in schools and are highly proficient in 
Danish. The government of the Faroe Islands provides special support 
for university students to study in mainstream Denmark through Danish 
and also to attend English medium universities outside Denmark. The 
Faroe Islands were once a socioeconomic backwater, but the community 
has done well educationally and socio-economically. Its Human 
Development Index (HDI) as rated by the United Nations is 0.950 
(considered ``very high''). This is higher than that of Denmark as a 
whole at 0.900 (also considered ``very high'') and also that of the 
United States at 0.914. The revitalization of the Faroese language from 
the late 1930s using a modern educational system immersed in the local 
language can be considered very successful.
The Diverse Dialects of Romansh in Switzerland
    Romansh is spoken in southern Switzerland. There are five regional 
dialects. The dialects are very different from each other and each has 
its own writing system, making them effectively five different 
languages. This is similar to the situation with certain American 
Indian languages, which are closely related, or considered dialects of 
each other, e.g., Ojibwe dialects, Tohonno O'odham and Pima, Lakota and 
Dakota, etc. The dialects are separated from each other, often by areas 
where most of the population speaks German. This, again, is similar to 
certain American Indian languages which are spoken on several 
reservations in an area with intervening populations of non-Native 
Americans, e.g., Ojibwe reservations in Minnesota and Wisconsin and 
Lushootseed (Salish) speaking peoples on multiple reservations in 
western Washington.
    The most widely spoken dialect of Romansh has about 18,000 speakers 
and the smallest dialect has about 1,000 speakers. In all dialects many 
of the speakers are older people. Similar to a number of Indian 
Reservations, the Romansh are not the sole people living in their home 
areas. Besides the German speakers living among them, the Romansh have 
considerable contact with Italian and French speakers who inhabit 
nearby areas of Switzerland where Italian and French are official as 
well as bordering countries of Italy and France. Finally, the home area 
of the Romansh including St. Moritz is popular with tourists from many 
countries, including English speakers.
    Education through Romansh is rather new in the Romansh area, 
beginning in earnest only in the later half of the 20th century. Not 
all Romansh villages have education through Romansh. However, where 
education through Romansh is in effect, it has resulted in increasing 
numbers of children using the language. In 2000, there were 6,411 
students attending school in Romansh. Although each area uses its own 
dialect in school, there is also an overarching school dialect that has 
been established as a bridge among dialects. Students in Romansh medium 
schools also learn this bridge dialect in addition to their home 
dialects. All students from these Romansh schools graduate highly 
fluent in German and often speak French, Italian and English. Jean- 
Jacque Furer, who has done extensive research on Romansh, concluded in 
2005 that there are still enough speakers to ensure that Romansh will 
survive in the long term. He considers the Romansh-language school 
system the single most crucial factor in the survival of Romansh. 
Creating school materials and teacher training in Romansh and its 
various dialects has been a challenge but the government of Switzerland 
has been supportive.
    At one time the Romansh were considered to be very backward and 
children were punished for using Romansh in the schools. The Romansh 
area today, however, is an economically vibrant area and the Romansh 
are full participants in the highly multilingual society of 
Switzerland. Their population concentrations, however, tend to be small 
villages, whose small local governments the Romansh control simply by 
being the majority population in these small villages. They do not have 
any special political autonomy in the sense that the Faroese of the 
Faroe Islands of Denmark do.
The Sami Languages of Norway, Sweden and Finland
    The Sami are the sole people of Europe who are both ``indigenous'' 
and ``autochthonous.'' The term ``autochthonous'' (of the land) is 
appropriate for the Faroese and Romansh who originate in their home 
areas. However, the Faroese and Romansh are similar to the majority 
populations of their counties in their origins and historical life 
style--that is standard European agricultural and pastoral life. In 
contrast, the Sami are similar to many American Indians and Alaska 
Natives in being an indigenous people with a highly distinct 
traditional life style from the majority populations of their 
countries, while also ``autochthonous'' that is originating in that 
part of their home countries. The Sami were originally northern hunter-
gatherers and herders of semi-domestic reindeer similar to the caribou 
whose herds were followed by certain Alaskan Native peoples. The 
traditional homes of the Sami were analogous to those of the Alaska 
Athabaskan peoples and not unlike the American Plains Indian tipi. The 
Sami share with American Indians a long period of persecution of their 
language and distinctive shamanic religion. Unlike the Faroese and 
Romansh, the Sami had their children taken from them and placed in 
boarding schools. This history has resulted in many individuals of Sami 
ancestry being unable to speak their ancestral language and some Sami 
languages going extinct.
    Also similar to Native Americans, and different from other 
autochthonous peoples of Europe, the Sami have numerous land rights and 
traditional subsistence rights issues with the governments of the 
countries in which they live. Norway, Sweden and Finland have accorded 
Sami distinctive political rights similar to those of Native Americans 
in the United States. This autonomy is exercised through ``Sami 
parliaments.'' Norway was the first country to establish this autonomy 
in 1973 with Sweden the latest in 1993. The small numbers of Sami 
living over the Russian border from Finland are not recognized as a 
distinct people by Russia.
    There are ten distinct Sami languages, which are incomprehensible 
one from the other. Within the various Sami languages there are also 
dialect divisions. The largest Sami language is Northern Sami with 
15,000 speakers in Northern Norway. Northern Sami is official in two 
Norwegian counties and in six towns, where the language is used in 
local government where the majority population is Northern Sami. An 
official writing system was adopted in 1979. There are also some 
Northern Sami living in adjoining areas of Sweden and Finland. In 
Norway, approximately 1,000 children have Northern Sami as their 
primary language (mother tongue) and attend school through the Northern 
Sami language through secondary school. These children and schools are 
located primarily in the core Sami areas of Karasjok and Kautokeino. 
These children also graduate fully fluent in Norwegian. Like students 
in mainstream Norwegian schools, they typically study two foreign 
languages, one of which is English before graduation from high school. 
There is also a Sami university college with an enrollment of about 150 
students. That university uses Northern Sami as the primary language of 
education with some courses offered through other languages including 
English, due to the high multilingualism of the Sami youth enrolled.
    The other Sami languages are much smaller than Northern Sami. Some 
have less than one hundred speakers left; yet the governments of 
Norway, Sweden and Finland recognize the right of the distinctive Sami 
peoples speaking those languages to education in their own languages. 
Most groups aspire to school systems through their own languages such 
as those that currently exist for the Northern Sami, but lack 
sufficient teachers fluent in the languages. In such cases, courses in 
the language as a second language are offered for children and the 
community in mainstream schools as an initial stepping stone toward 
education through the medium of the local language. A similar situation 
exists in areas where Northern Sami was formerly spoken and the local 
Northern Sami are seeking to return the language to their children. For 
example, in Finland in 1998, approximately 115 children at the primary 
and secondary level were receiving almost all their education through 
Northern Sami, even though they generally did not enter school knowing 
the language.
    The efforts of the Inari Sami of Finland are an example of a very 
small Sami language being reestablished by its community. The Inari 
Sami was never a very large group of people and once faced extinction. 
Today, theirs is a growing language of approximately 300 speakers out 
of a total ethnic population of 800. While most of that population 
lives around Inari Lake, many are scattered elsewhere in Finland and 
thus not able to participate in the efforts of language revitalization.
    By the end of the 20th century, the only people who spoke their 
language were elders. In the late 1980s, an Inari Sami organization was 
established to revitalize the language focusing on including the 
language in the modern life of the area where the Inari Sami lived. In 
2000, they began a ``language nest'' program similar to the Hawaiian 
Puunana Leo to produce young speakers. They also established programs 
to produce adult speakers using the ``masterapprentice'' system 
combined with college credit courses in Inari Sami. Inari Sami youth in 
the local high school were also provided the opportunity to study their 
language as a course. The Inari Sami language organization combined the 
development of second language speakers with efforts to produce 
materials and develop modern terminology. Through this they were able 
to begin Inari Sami medium elementary education for children in their 
community located on Inari Lake in northern Finland. By 2004, they had 
reached grade 4 with a population of 18 students in their small Inari 
Sami language medium school with plans to expand to higher grades. All 
those children are also fluent in Finnish. Inari Sami medium education 
is producing a population of fluent speakers and making it possible for 
families using the language in the home to maintain the language as a 
first language in cooperation with the educational system. While the 
Inari Sami medium school began much later than efforts in Faroese, 
Romansh and even Northern Sami, it is making good progress in a context 
of high support from the Finnish government. The familiarity of 
Scandinavian governments with producing high quality modern education 
with high fluency in several languages is where Inari Sami language 
schooling has an advantage over Native American language medium 
schooling. The Finnish language itself was not generally seriously used 
in education until the turn of the 20th century, requiring much 
development of new terminology and development of teachers. 
Furthermore, Finland has two official languages within its mainstream 
population, Finnish and Swedish. The Swedish population is located on 
the western edge of the country and has full preschool through doctoral 
(P-20) education available to it in that language. In addition, all 
students in Finland learn the other official language in school along 
with English and at least one foreign language. The Sami schools 
produce similar results with the addition of Sami as well.
    Although the United States does not have the experience with 
multilingualism in schooling that Finland does, quite a few Native 
American peoples are positioned by their populations to follow the 
example of the Sami peoples in terms of developing education through 
their own languages. These positioned Native American groups also have 
larger populations of speakers than the larger and medium sized 
populations of Sami peoples. Examples include the Choctaw (``ethnic'' 
population: 103,910--''speaker'' population: 10,343), Navajo 
(``ethnic'' population: 286,731--``speaker'' population: 169,471), 
Yup'ik (``ethnic'' population: 28,927--''speaker'' population: 18,950), 
Pueblo-Keres (``ethnic'' population 49,695--''speaker'' population: 
12,945), Tohonno O'odham (``ethnic'' population: 19,522--``speaker'' 
population: 7,270), Crow (``ethnic'' population: 10,332--``speaker'' 
population: 3,705), Sioux (``ethnic'' population: 112,176--''speaker'' 
population: 18,616), Chippewa/Ojibwe (``ethnic'' population: 112,757--
``speaker'' population: 8,371), Hawaiian (``ethnic'' population: 
156,146--''speaker'' population: 24,042). Several of these large to 
medium Native American groups also have their own tribal colleges 
similar in size to the college of the Northern Sami in Norway.
    With the smallest Sami groups having suffered complete language 
loss or near total loss with only a handful of elder speakers left, 
there are also parallels in very small Native American groups, 
especially those of the West Coast and Alaska. Among the Scandinavian 
countries, even the smallest Sami languages are supported in developing 
into the medium of education for their schools, with intermediate steps 
of support as shown in the example of Inari Sami described above.
The Example of New Zealand Maaori
    New Zealand is a former British colony in the Southern Hemisphere 
that is approximately the size of California with a population \1/8\ of 
that of California. The indigenous Maaori of New Zealand are the 
largest minority at approximately 15 percent (600,000 individuals) of 
the overall population of 4.5 million. The Maaori are not only a large 
group for an indigenous people but they also have a unique political 
position within the country due to the Treaty of Waitangi through which 
Britain gained political sovereignty over the country. As is the case 
with other indigenous groups elsewhere in the world, Maaori students 
tend to perform more poorly than other groups in New Zealand mainstream 
schools.
    Traditionally, all Maaori spoke a single Polynesian language, but 
use of the language was greatly eroded through schooling in which only 
English was allowed. In spite of inroads made against the use of Maaori 
language at least until the end of World War II, most Maaori spoke the 
Maaori language. The language then began a rapid demise among children 
resulting in efforts to teach it as a language course in universities 
and high schools. In the early 1980s, a movement began in the country 
to use the language in schooling. The national government provided 
major financial support for this and large numbers of children were 
enrolled first at the preschool level and then in elementary and 
secondary schools. Maaori medium television and radio also developed 
rapidly and today provide high quality programming for Maaori speakers.
    The Maaori language revitalization movement has had very positive 
results in terms of revitalizing the language and in developing 
students with fluency in both Maaori and English. The initial growth of 
these schools in the 1980s and 1990s, however, was exceedingly rapid 
creating some challenges in terms of quality control. The quality 
issues led to excessive government regulation along mainstream lines 
that failed to account for unique features of education through the 
language. Excessive government regulation and the internal quality 
questions led to disillusionment within the movement at the same time 
that communities were experiencing the emotionally discouraging effects 
of the loss of fluent Maaori speaking elders. Cooperation among schools 
and also between them and university programs in Maaori and teacher 
training was less than optimal. Coupled with all this were economic 
challenges in Maaori communities leading to large Maaori emigration to 
Australia for employment. All these issues led to a decline in 
enrollments in Maaori language schooling in the early part of the 21st 
century.
    There is now, however, the beginning of another increase in 
enrollments as news of the positive academic as well as linguistic 
results of Maaori schooling is beginning to spread through the Maaori 
population. An example of an especially successful school is Nga 
Taiatea Whare Kura located in Hamilton, New Zealand, where students are 
performing well above the national average for Maaori students. Even 
with the effect of the period of decline, the enrollment in Maaori 
language medium schooling is larger than that of any indigenous group 
in the world. In 2013, over 17,000 students were being educated through 
Maaori for more than half the day in over 280 school sites, with well 
over 95 percent ethnically Maaori student population. An even larger 
number of students are studying Maaori in English medium schools, 
either as a course or attending classes for less than half the day 
through Maaori. In 2013, there were over 140,000 such second language 
style learners of Maaori, of which some 55 percent were ethnically 
Maaori. Most students in New Zealand, regardless of ethnicity, also 
learn simple Maaori words, greetings and songs in Maaori sometime 
within their education even if they do not study Maaori as a full 
language.
Hawaiian, an Example from the United States
    Within the United States, Hawaiian has the longest history of being 
used as a regular government medium of education, both historically and 
in the contemporary period. Hawai'i has the second oldest government 
public education system in the United States, having being established 
in 1840 shortly after that of Massachusetts. The Hawai'i public 
education system was originally taught and administered entirely 
through Hawaiian. It included a small college that prepared teachers. 
The level of literacy of Native Hawaiians produced in this system was 
higher than that of any other country and only exceeded by a few cities 
in Scotland and some parts of New England, but not by any other 
country. There was also high literacy in other languages, especially 
English among Hawaiian speakers. Public education through Hawaiian was 
made illegal in 1896 as part of the process of the annexation of 
Hawai'i to the United States. That ban was not removed until 1986. 
Between those two dates, Native Hawaiian academic achievement 
plummeted, with Native Hawaiians the least academically successful 
among all ethnic groups by the 1980s.
    In 1983, the non-profit 'Aha Puunana Leo, Inc. was established to 
revitalize Hawaiian. At that point, a careful count of fluent Hawaiian 
speakers aged 18 or younger was numbered at 36. Older highly fluent 
speakers were either born before 1920 or from a tiny isolated community 
on the small island of Ni'ihau. Hawaiian, therefore, had a much more 
endangered profile in the 1980s than most other Native American 
languages as there were many reservations and isolated communities in 
other states where the languages were still being regularly spoken by 
all adults and most children at that time. The potential for Hawaiian 
surviving was also more dismal than that of the related Polynesian 
Maaori language, for which there were many speakers born before 1950.
    The 'Aha Puunana Leo began by establishing ``language nests'', a 
concept pioneered in 1982 in New Zealand for the Maaori language. 
Language nests are full day and full year centers operated five days a 
week where children under the age of public education are gathered 
together with fluent speakers of an endangered language to use that 
target endangered language exclusively throughout the day. They are 
very much focused on the family and rely on community expertise, 
especially elders, to deliver a program that integrates use of the 
endangered language for contemporary purposes, but based in the 
traditional culture and worldview of traditional speakers of that 
language.
    The 'Aha Puunana Leo's language nests are called ``Puunana Leo'' 
and include a system that serves communities throughout the state of 
Hawai'i. In 1986, the state legislature passed legislation allowing 
Puunana Leo to function under state day care and preschool legislation 
with an exemption for any certification requirements for those teaching 
in the Puunana Leo. This recognizes the fact that early childhood 
education qualifications used in English medium preschools do not 
prepare teachers for the unique language and culture requirements of 
Puunana Leo nor for the unique features of teaching academic content 
through Hawaiian. The Puunana Leo carries out internal teacher training 
through on-site apprenticeship-like learning, through an annual live-in 
week long in-service summer training, and through two weekend live-in 
in-service trainings annually. All Puunana Leo training is through 
Hawaiian and conducted in cooperation with the state Hawaiian language 
college. Among the highly distinctive features of that training is 
preparing Puunana Leo teachers to develop early literacy in Hawaiian 
using a syllabic method highly distinctive of Hawaiian and not 
applicable to English. This methodology has resulted in the majority of 
four year-olds in the Puunana Leo able to read in Hawaiian before 
entering kindergarten.
    Contemporary education through Hawaiian was developed from the 'Aha 
Puunana Leo. In 1987, the state Department of Education agreed to 
incorporate a Hawaiian language medium kindergarten established by the 
'Aha Puunana Leo at two different sites. The 'Aha Puunana Leo in turn 
committed to finding families and teachers as well as providing 
teaching materials. The state provided the salaries of those teachers 
and the classrooms. The 'Aha Puunana Leo produced teaching materials 
using Hawaiian language speaking college faculty and students along 
with parent volunteers to cut and paste into the resulting texts. The 
programs expanded in this manner from grade to grade through elementary 
school and also to other sites where language nest educated children 
were ready to enter into elementary kindergarten classes. Education at 
the elementary school level was, and remains, totally through Hawaiian 
with English introduced to a single English language course beginning 
in grade five. Students enter grade five, however, fully fluent in 
conversational English and having transferred their literacy skills in 
Hawaiian to literacy in English.
    At the intermediate and high school levels, different models were 
adapted in different communities based on the availability of 
resources. At one extreme are communities where education through 
Hawaiian to grade 12 is confined to a stream of two or three courses 
per semester within a mainstream English medium school. Students take 
other courses through English with the general population of the host 
school. In other cases, separate full Hawaiian medium intermediate and 
high school sites have been established, typically with attached full 
elementary programs. At these sites, education at the intermediate and 
high school level can be totally in Hawaiian, with the English class 
begun in grade 5 continuing as a single course through to grade 12. The 
English class in some sites, such as that of the Hawaiian language 
college laboratory school site Nawahi School, is taught through 
Hawaiian. Some sites are standard public schools, while others are 
charters.
    In 1996, the state legislature mandated the establishment of a 
Hawaiian language college to serve schooling through Hawaiian with 
undergraduate and graduate training in the Hawaiian language. The 
college, located at the University of Hawai'i at Hilo, works in 
partnership with the non-profit 'Aha Puunana Leo to produce curriculum 
materials, train K-12 teachers, provide inservice, provide new 
vocabulary, and provide electronic access to those resources. In 
addition, the state legislature mandated that the Hawaiian language 
college operate a laboratory school program with the P-12 
Nawahiokalani'opu'u School (Nawahi) site as its primary site. The 
Hawaiian language college itself is operated and administered entirely 
through Hawaiian and requires its faculty to teach in the P-12 level in 
its laboratory school in order to obtain tenure, thus creating an 
integrated program from preschool through the doctorate. The college 
also works closely with the 'Imiloa Science Museum on the university 
campus to provide bilingual Hawaiian and English signage and tours as 
well as displays on education through the Hawaiian language based in 
Hawaiian traditions. This not only provides additional access to 
educational resources through Hawaiian, but also allows the larger 
community to learn about developments in education through Hawaiian.
    Among qualifications provided in the College through Hawaiian are a 
B.A. in Hawaiian Studies, a teaching certificate, an M.A. in Hawaiian 
Language and Literature, an M.A. in Hawaiian Language and Culture 
Education, and a Ph.D. in Hawaiian and Indigenous Language and Culture 
Revitalization.
    Another unique feature of the Hawaiian Language College is its 
outreach mission to other indigenous peoples of the United States and 
the world. The college provides a B.A. in linguistics taught through 
English to allow other Native peoples to come to the University of 
Hawai'i at Hilo and study language revitalization with Native 
Hawaiians. The College's Ph.D. program in Indigenous Language 
Revitalization is open to other indigenous peoples and allows for 
students to continue studying their indigenous languages as part of 
that program. There are plans to implement support at the teacher 
certification and masters' level for other indigenous peoples parallel 
to the presently operational track taught through Hawaiian.
    The movement to revitalize Hawaiian is just over 30 years old and 
began at a period when it was still illegal to use Hawaiian in public 
schooling. For the 2013-2014 school year, there are 2,642 enrolled from 
preschool (Puunana Leo language nest) to grade 12 in schools taught 
through Hawaiian. Unlike Maaori, enrollments in Hawaiian medium 
schooling has never declined but has instead continued to grow steadily 
since its initiation. Most encouraging for the movement has been the 
establishment of Hawaiian language speaking homes where children are 
being raised with Hawaiian as their first language. While still very 
much a minority of the children enrolled in schools taught through 
Hawaiian, this population is the result of graduates of schools taught 
through Hawaiian deciding to use Hawaiian as the first language of 
their children.
    When the movement began, there was great concern within the 
educational establishment that the children in these schools would grow 
up to be adults unable to speak, read and write English and lacking the 
academic skills expected of students graduating from the public 
schools. This concern was not limited to educators, but was also very 
strong in the general community and even among many Native Hawaiians. 
One argument against the schools was that the nonstandard English 
dialect spoken by many Native Hawaiians (popularly called ``Pidgin'') 
made it especially important that Native Hawaiian children attend 
schools where only Standard English was used. There were also those who 
saw attention by the government to Hawaiian in school was inappropriate 
when other languages such as Japanese were of major importance to the 
state economy. Many thought that children educated in Hawaiian in 
elementary school would become dropouts in high school and contribute 
to already dismal high school graduation results of Native Hawaiians.
    The 'Aha Puunana Leo took the stand, however, that maintenance of 
the Hawaiian language among their children was a right of Native 
Hawaiian parents who saw primary fluency in Hawaiian as essential for 
maintaining Native Hawaiian identity and cultural practices--including 
religious practices--that were expressed through the language. Hawaiian 
language medium education was seen as the only way in which this right 
could be protected. Evidence for this position was based on the 
experience of the loss of the Hawaiian language in schools where only 
English was used, and also the observation of loss of Hawaiian among 
Hawaiian speaking children who entered the bilingual education program 
designed for immigrant children. The 'Aha Puunana Leo also argued that 
the academic achievement of Native Hawaiians relative to other ethnic 
groups actually decreased after the elimination of schooling through 
Hawaiian in 1896.
    While the right of Native Hawaiians to maintain the language in its 
homeland has been at the center of the movement in Hawai'i, the 
programs have produced strong academic outcomes. Indeed, some of the 
most impressive outcomes have been in the areas where naysayers were 
most adamant in insisting that such schooling would be a failure. 
Furthermore, the sites that have been strongest in use of Hawaiian have 
also been those that have had the highest level of academic success.
    We have especially good data from Nawahi School, the P-12 
laboratory school of the Hawaiian language college. This is also the 
school that is strongest in use of Hawaiian and the school where there 
is an especially high number of children entering from homes where they 
have spoken Hawaiian from birth. The P-12 enrollment at the Nawahi 
campus for the 2013-2014 school year was 350 students. The graduating 
class represented the fifteenth graduating class of the school. Since 
its first graduating class, Nawahi has had a rate of 100 percent high 
school graduation and over 80 percent continuing on to college. 100 
percent of the class of 2014 is enrolled in college for the fall of 
2014. Students are concurrently enrolled at the university or at the 
Hawaiian language college, earning college credits upon completion of 
high school. The success of Nawahi has resulted in communities 
requesting to establish satellite campuses of Nawahi in other areas and 
still other schools being included in the laboratory school system as a 
way of recognizing their programs. The World Indigenous Nations Higher 
Education Consortium (WINHEC) has confirmed the overall strength of the 
preschool to tertiary programs of the Hawaiian language college through 
international accreditation.
    Upon graduation, the majority of graduates from Nawahi enroll in 
the University of Hawaii system. However, there have been students from 
Nawahi who have graduated from the University of Portland, Northern 
Arizona University, Seattle University, Loyola Marymount University and 
Stanford, among others. The fact that upon high school graduation 
students from Nawahi can function in English medium universities is 
evidence in support of the school's contention that restricting English 
to a single course from grade 5 produces a high level of English 
proficiency by high school graduation. We have also discovered that 
students at Nawahi approach learning Standard English with keen 
interest as an ``additional'' language to Hawaiian eliminating the 
often times observed identity conflicts between the local ``Pidgin'' 
(Creole English) and Standard English use amongst Hawai'i's youth.
    The full use of Hawaiian as the medium of education at Nawahi has 
had the opposite effect predicted by detractors relative to mastery of 
foreign languages. Since the founding of the school, it has sought to 
have all students graduate with experience in learning at least one 
additional language to Hawaiian and English. At present, all students 
in grades 1 through 6 study spoken and written Japanese for 1 hour and 
40 minutes per week. This is more time than is provided in Japanese 
International Baccalaureate programs in the public schools and even 
exceeds the amount of Japanese studied in elementary school in the 
state's sole private Japanese Buddhist school. In the past, Nawahi has 
provided instruction in Latin, Spanish, and Marquesan for intermediate 
and high school students, but presently lacks the resources to maintain 
such programming. The skills that its students have in learning 
languages are also evidenced by the accomplishments of some of its 
graduates upon leaving Nawahi. One graduate completed a B.A. in 
political science in three years with minors in French and Spanish. 
Another studied Italian and then worked as a translator of English 
articles into Italian for an Italian magazine. Still, a third was a 
Peace Corp volunteer in Kazakhstan where he was recognized as the best 
learner of the difficult Kazakh language among those working in that 
country.
    While records are especially good for Nawahi, other programs taught 
through Hawaiian have also done well academically. Over the past 15 
years, there have been graduates of the overall system including Nawahi 
who have gone on to become journalists, doctors, lawyers, nurses, 
contractors, members of the military, television reporters, policemen, 
musicians, firemen, teachers, and professors among other professions. 
The strengths of the program have resulted in one of the challenges of 
schools taught through Hawaiian being the loss of high school students 
to recruitment of prestigious private schools. In such private schools, 
Hawaiian-speaking students provide a unique resource in terms of 
strengthening private school connections to the Native Hawaiian 
community and its culture.
    Often overlooked in evaluating the contribution of Hawaiian 
language medium/immersion schooling in Hawai'i has been the social 
impact. Hawai'i, the Native Hawaiian community in particular, faces a 
``brain drain'', that is those who do well academically are especially 
prone to move away from the islands and the Native Hawaiian community. 
The graduates of schooling through Hawaiian tend to stay in state at 
state colleges and universities and those who leave for education come 
back to Hawaii after graduation. A considerable number of them are 
involved in services to the Native Hawaiian community through work in 
government and private foundation offices involving Native Hawaiian 
people, including education. Others are involved in distinctive Native 
Hawaiian cultural activities in which language fluency is especially 
important.
    Positive social impacts have been observed beyond simply the 
students themselves. The 'Aha Puunana Leo requires all parents in its 
programs to attend weekly meetings, contribute their time to running 
the language nests and also study the Hawaiian language themselves. 
This committed behavior of parents to their child's education continued 
as they entered into the public schools resulting in high parent 
involvement in the education of children in schools conducted through 
Hawaiian. In quite a number of cases, this has resulted in parents 
going on to college to earn a degree, often in the area of education 
and themselves becoming teachers in the Hawaiian language medium/
immersion school system.
    In spite of the huge role that these schools have had in assuring 
the survival of the Hawaiian language and culture and their academic 
and social impacts, they still face challenges. One of these is the 
lack of congruence between best practice as developed for them and the 
educational policies and laws of the federal government and the state 
government. These laws relate to assessment of educational progress, 
provisions of support for students with academic challenges, 
definitions of ``highly qualified teachers'', and programming 
eligibility and reporting requirements for grant funds. Such lack of 
congruence pushes schools taught through Hawaiian away from the types 
of programming that have produced the highest language revitalization, 
academic achievement, and positive social results. Rather than 
disillusionment as occurred under similar pressures on Maaori language 
medium education in New Zealand, Hawaiian medium education has been 
rather resilient and considerably successful in overcoming such 
pressures. Part of the reason for this may be the history of 
interethnic relationships in Hawaii that has resulted in both leaders 
and administrators of public education and the leaders of Hawaiian 
language revitalization more open to addressing issues from a shared 
history and cultural honoring from both sides. Another source of 
support has been from external Native Hawaiian entities that have 
helped move through periods of difficulty as answers to challenges are 
sought.
Other Native American Language Medium Schools
    The general movement to revitalize Native American languages has 
spread throughout Native America with inspiration coming from programs 
in Hawai'i and foreign countries, especially New Zealand and Canada. 
The overall movement has also built from experience during last half of 
the 20th century with bilingual education that approached contemporary 
Native American language medium/immersion education in some features. 
During that period, certain Navajo bilingual programs such as that of 
Rough Rock made extensive use of Navajo with first language speakers of 
the language in the earliest grades, but then switched to primary use 
of English as the medium of education. The academic and English 
proficiency outcomes were quite strong, but the use of Navajo in 
schooling was organized in such a way to gradually lead students away 
from use of Navajo as a language of contemporary life and therefore 
raising their own children in it. Contemporary Native American language 
programming is explicitly focused on having students use the target 
Native American language as their language for raising their own 
children upon adulthood.
    There are currently programs in fourteen states besides Hawaii, 
with programs planned for implementation in the near future in several 
other states and also in US Pacific Island territories. The number of 
languages involved in these efforts is now over twenty. Many other 
communities with other languages are also interested in starting these 
programs. Most of the existing programs are still at the preschool and 
lower elementary school stages and none have full high school programs 
as exist for Hawaiian and the languages in Europe and New Zealand 
described earlier. Only a few of the US programs besides Hawaiian have 
been in existence long enough to have had students who moved on to 
English medium high school and on to graduation. However, preliminary 
results are positive for these students and communities. These families 
have rallied behind the movement to save their languages and are 
investing in the future with their children. Difficulties exist, 
however, with funding and also in the interface with policies and 
legislation that conflict with the goals of Native American language 
revitalization.

    Question 2. Can you discuss the importance of having living 
languages and name some of the benefits as they relate to cognitive 
development, literacy, academic achievement, college attainment or 
other education and development goals?
    Answer. As illustrated above, it is possible for very small groups 
to maintain living languages through schools taught through those 
languages. It is also the case that in the contemporary world such 
schools taught through small languages produce exceptionally high 
proficiency in the mainstream language (e.g., Danish in the Faroe 
Islands, German in Romansh villages, Norwegian in the Northern Sami 
area, etc.) with that high fluency acquired at a very young age simply 
by the high level of interaction with the mainstream language in 
interaction with the mainstream community and government outside school 
itself. This has sometimes been called the ``minority official language 
medium education advantage'' as these small languages have a certain 
distinctive political status in their homelands. Students attending 
school in the country's majority language find it much more difficult 
to learn a second language and usually do not do so until later in 
their school careers, even when there is extensive teaching of a second 
language in early elementary school. (Countries with small official 
languages such as Finland and Denmark share something of the ``minority 
official language medium advantage'' in that from an early age students 
in those countries realize that they need to learn large international 
languages such as English, which are readily available to them through 
international mass media and popular culture.)
    Contemporary brain research has shown that high fluency in two 
languages, especially at a young age, results in higher cognitive 
development. That higher cognitive development is especially critical 
in what is called ``executive functioning.'' Executive functioning 
relates to the ability to concentrate and avoid distractors in focusing 
on a task. This cognitive advantage is useful in academics, and also in 
general adult life. It is an especially useful skill in higher 
education.
    A further advantage of proficiency in two languages is an enhanced 
ability to learn other languages and cultures. Not only is there an 
ability to learn languages and culture, but an appreciation of how 
languages and cultures differ and thus a sensitivity that reduces the 
potential for misunderstanding even when encountering someone from a 
new language and culture for the first time. Linguistic and cultural 
skills are especially important in the contemporary world where there 
is so much economic and political interaction between highly diverse 
peoples. Such skills are also highly valued by the American military as 
it can find itself operating in an isolated area where there is no 
knowledge of English in the local population and no knowledge of the 
local language and culture within its own ranks.
    A major advantage that Native American peoples have relative to the 
cognitive advantages to high multilingualism is the distinctiveness of 
Native American languages relative to English. The greater the 
distinctiveness between languages and cultures proficiently used by a 
student the greater the understanding of the breadth of differences 
possible in human languages and cultures.
    Schools taught through Native American languages have an additional 
advantage relative to the development of literacy, as learning initial 
reading through a Native American language is easier than learning to 
read through English. There are several reasons for this. First, 
English is the most difficult of the European languages in which to 
learn initial reading. The reason is its highly irregular spelling 
system and also the phonotactics of the language with the ``blends'' of 
up to four consonants together that make it difficult for children. 
Native American writing systems are much more regular than that of 
English. The regularity of a writing system makes a huge difference in 
rapid mastery of reading by children. For example, the most regular 
writing system among European languages is that of Finnish. In a study 
on reading mastery, by the end of first grade, children in Finland can 
read Finnish with a rate of just 2 percent mistakes. This contrasts 
with a rate of 66 percent mistakes for first graders in England reading 
through English ( Ziegler & Goswami, 2006).
    An additional advantage of some Native American languages such as 
Cherokee, Ojibwe, Yup'ik and Hawaiian is phonotactics with relatively 
few consonant clusters making initial reading rather easy to acquire. 
Children can generally learn to read syllabically earlier than they can 
learn to read by individual letters, but reading through languages with 
many consonant clusters as the case with English cannot be taught 
syllabically. The Cherokee writing system is distinct in being a 
syllabary, which is one reason for the high literacy among Cherokees in 
the 19th century. The strong identification of the local Native 
American language and culture with academics that develops through 
Native American language medium schooling encourages students in such 
schools to continue their schooling, both within the school and beyond 
it. While such schools are new in many Native American communities, the 
schools that have been in existence the longest--those for Blackfeet 
and Navajo for example--report higher rates of high school graduation 
and college attendance compared to other schools in their communities.
    Although national educational goals of high school graduation and 
college attendance are being attended to and reached through Native 
American language medium schools, there are other important goals being 
reached as well. First, the focus on the traditional language and 
culture in these schools naturally incorporates character education 
from a base in the local indigenous traditions. This leads to a 
healthier community in terms of respecting and caring for others, 
including elders and younger children. The products of these schools 
feel a responsibility to uphold community values and thus are a 
positive force against the importation of criminal activity including 
gang culture into Native American communities. The products of these 
schools have been noted for their participation in community indigenous 
cultural activities and governments at a high level, as they are often 
the youngest individuals fluent in the traditional languages in which 
those highly regarded activities are conducted. Another area where 
these young people have participated is in military service, an 
occupational field where many Native Americans participate. Students 
from these schools have been able to pass the examinations for military 
service and serve honorably for their country. Their knowledge of their 
traditional languages may be of use to the government at some point in 
the same way that earlier generations of Native Americans used their 
languages as ``code talkers'', including tribal members of the Navajo, 
Choctaw, and Comanche once did.

    Question 3. Can you address concerns expressed by critics of 
immersion or bilingual education programs that exposure to two or more 
languages simultaneously at a young age may delay or hamper language 
acquisition or proficiency? Does a child's ability to speak multiple 
languages impact developmental milestones or academic achievement in 
later years? If so how? Are there benefits of training a child to 
communicate in two or more languages?
    Answer. There has been considerable research into multilingual 
education over the past three decades that has discredited former 
commonly held views that education through a less dominant language 
will result in educational deficits. Much of this research has come out 
of Europe and Canada where all school children are required to study at 
least two languages, but there has been considerable research conducted 
in the United States as well. In short, rather than being a detriment, 
learning through a less commonly spoken language and thus learning two 
(or more languages) very well, has a positive academic effect. However, 
those effects are best seen in the long term, rather than in the short 
term, and are best realized in programs that involve a student over the 
many years of compulsory education. Furthermore, programs such as 
Native American language medium schooling are a distinct category 
within such schooling and produce results that are even more 
encouraging than programs in immigrant languages relative to academic 
achievement within the racial subgroup that is attracted to them.
U.S. Foreign Language (and Canadian French) Immersion
    Much of the research in education through more than one language 
has been done in foreign language immersion (German, French, Japanese, 
Spanish, etc.) in the United States and Canadian French immersion (for 
English speaking Canadian children) in English speaking Canadian 
communities. This type of immersion differs in several ways from Native 
American language immersion, but is similar to it in that it produces 
students with proficiency in both the oral and written forms of two 
languages. The research has shown that initially there is a lag in 
reading English as the children focus on learning to read through the 
foreign language. The gap between these children and those in 
mainstream school later closes and the students who were enrolled in 
the immersion program often go on to exceed mainstream education peers 
in all academic areas, including English. The challenge for these 
immersion programs has not been the development of proficiency in 
English, but instead in the ``target language'' (French, German, etc.). 
In the early years of foreign language (and Canadian French) immersion, 
there was concern that the children would not learn English and the 
amount of use of the target language was sometimes only half the day 
beginning in kindergarten with a rather rapid change to all English 
except for one or two classes in the immersion language. Research has 
shown, however, that the English outcomes were the same regardless of 
the amount of English used in the school, due to the role of English 
outside school, while reduction of the amount of the target language 
greatly reduced the proficiency in it and thus the overall benefits of 
high proficiency in two languages.
    The research has also shown that such children who enter a school 
with a foreign language immersion program knowing only English develop 
a high level of proficiency in the target language, while maintaining 
English as their primary home language, out-of-class peer group 
language, and language of their later adulthood and family life. Indeed 
these programs are specifically designed for this outcome, with 
proficiency in the non-English foreign language a secondary level goal 
relative to maintenance of identity with the English language, primary 
fluency in English, and grade level academic programming parallels with 
children being educated totally through English. To give an example, in 
German immersion in the United States, early elementary education is 
conducted through German, but the animals studied are those of North 
America not Europe (e.g., the white tailed deer not the roe deer, the 
cotton wood tree and not the linden, etc.), the cultural holidays 
observed are American not German (e.g., Halloween, Thanksgiving, 
Valentine's Day etc. and not Fasching, Pfingsmontag, Stephanstag, 
etc.), and the literature read is often German translations of the same 
stories read in corresponding English grades rather than what is read 
in corresponding grades in Germany. While foreign language proficiency 
in Foreign Language Immersion is high, it is still considerably below 
that of native speakers, and the cultural base is lower still. Yet when 
compared to foreign language and culture proficiency produced in 
mainstream English medium schools, the skills in foreign language and 
culture are very impressive indeed. Again, the foreign language 
immersion programs that use the foreign languages the most, had the 
highest outcomes in terms of the foreign language and had English 
outcomes ultimately as high as or higher than those immersion programs 
that used more English. Fear that English would be replaced by the 
foreign language or be negatively impacted by the foreign language has 
been the primary force in holding back foreign language immersion 
programs from reaching even higher outcomes.
    Native American language immersion has a distinctly different set 
of goals and thus when implemented properly, potentially even higher 
outcomes in terms of high proficiency in two languages than foreign 
language immersion programs. The most distinctive goal is that the 
school is seen as the means by which the Native American language and 
culture is developed and maintained as the primary language and culture 
of the child for later life. That school programming is designed with 
the goal that the Native American language and culture be the primary 
language and culture of peer group life and later adulthood and family 
life of graduating students. This goal envisions the immersion student 
graduate being able to raise his or her future children in the language 
and culture, something that was not possible for their own parents. 
This goal requires an even stronger use of the ``target'' Native 
American language than ``target'' foreign language use in foreign 
language immersion. Native American language immersion programs, 
however, have very high English outcome goals and academic goals for 
their programs. They seek to produce English outcomes as high as, or 
higher, at the end of high school, than English medium programs serving 
the peers of their students in the local community. This is a realistic 
goal due to the experience of strong foreign language immersion 
programs and even more so the highly local culture oriented experience 
of minority official language medium education in Europe (Faroese, 
Romansh, Sami, etc.). Furthermore, a high level of understanding of 
their own traditional culture and environment is seen as leading to a 
high level of interest in the surrounding English language and its 
cultural base. As we will see later in the Hawaiian example, there is 
evidence that this high level of interest in English does indeed occur 
as the students mature. While the language and culture educational base 
in such schools are strongly Native American, there is also an 
especially strong focus on the overall history and civic culture of the 
United States within which such Native American language schools have 
developed along with distinctive tribal governments that find their 
base in the Constitution of the United States.
    These Native American language schools have had considerable 
academic success. By way of contrast, English medium teaching of Native 
American children has not had very positive academic results. Over the 
past decade, the National Educational Assessment Program (NAEP) results 
produced by mainstream English medium education for American Indian/
Alaska Native education in areas where students have strong Native 
American cultural identities have been especially very poor and little 
changed from year to year.
    High quality Native American language medium/immersion education is 
envisioned as producing students similar to those from foreign 
countries who are entering U.S. universities and graduating with 
exemplary academic records. Students from Scandinavia especially enter 
United States universities having learned English as a second language, 
and yet outperform American English medium educated students in English 
language arts courses and assessments. Large numbers of students are 
graduating from American universities with advanced degrees in 
mathematics and science fields after being educated in foreign 
countries such as China where P-12 education is through a language 
totally different from English in its linguistic structure and cultural 
base. Students being educated through Native American language medium/
immersion schools have a major advantage over such foreign students in 
terms of acquiring English simply from having English language and 
culture so readily available to them through the media and through the 
surrounding general American life.

    Question 4. What are some of the spillover benefits of having 
immersion programs? Can you discuss any impacts or progress toward: (a) 
Creating Leaders (b) Community building (c) Cultural identity/pride.
    Answer. The driving force in developing schooling through Native 
American languages and cultures has been community efforts to prevent 
those languages and cultures from going extinct. The developers of such 
programs realize that they have had to assure high quality academic and 
social outcomes as well for these languages and cultures cannot survive 
in the contemporary world if they came to be identified as the 
languages and cultures of peoples in the lower strata of the overall 
society of the United States. While great accomplishments have been 
made in language and cultural revitalization as well as academic and 
social outcomes for students in the programs, there have been some 
other important spillover effects that have had a positive effect on 
indigenous communities.
Leadership Development
    The very decision to revitalize languages and cultures has required 
community members to step forward as leaders of such efforts. The 
intricate relationships involved in the overall effort has required an 
ever growing number of leaders and levels of leadership that has 
expanded outward from what have always begun as just a handful of 
people and children. The sort of leadership required for education and 
for cultural revival requires a solid base in knowledge about the local 
community from its very oldest historical roots until the present. It 
also requires research into the successes and failures of other 
indigenous communities elsewhere both in the United States and abroad. 
Finally, it requires a strong understanding of policy and law and how 
it can evolve to embrace something new such as Native American language 
medium/immersion education.
    The type of leadership that develops out of Native American 
language medium/immersion education is also very diverse. Successful 
programs involve contributions from Native Americans from outside the 
Native American community in which the school is located, of non-Native 
Americans with specific skills in linguistics and academics, and other 
supporters who assist in fund raising and staff training. Rather than 
fulfilling the negative predictions of detractors, Native American 
language medium/immersion schooling development has resulted in leaders 
who are global in their contacts and extremely broad-minded and open in 
seeking solutions for their communities. They also learn to ``wear many 
hats'' as efforts such as these that begin small scale require leaders 
to be able to take over tasks that in other systems might involve 
hiring external specialist.
Community Development
    Besides the primary leaders who have emerged from Native American 
language medium/immersion education efforts, a large number of others 
have emerged to take on important roles in the resulting education 
systems that grow from them. The first need is teachers who are highly 
fluent in the local Native American language. This obvious need leads 
to local parents and young people seeking out higher education and 
language skills to take on this responsibility. As programs grow, there 
are needs for curriculum developers, school secretaries, organization 
accountants and grant writers/fundraisers and other support positions 
all of which require a background in the language and culture. Again, 
this leads to local community employment and permanent employees versus 
the general situation in English medium school of employing newcomers 
who stay at a school for a few years before moving on. The need to plan 
for growth and address problems distinctive of the community builds 
confidence among program parent volunteers and paid workers relative to 
their own capabilities for community development. Individuals who 
worked in a school then move on to other positions in the community and 
apply the skills and positive attitudes they developed at the school to 
move the community further ahead.
Affects of Increased Sense of Positive Identity and Pride
    A typical experience of Native American language medium/immersion 
schools is that their initial plans and efforts are met with 
considerable resistance in their own communities. Generations of having 
the indigenous identity denigrated result in those very ideas being 
internalized within the community itself. Others worry that efforts 
spent on the disappearing language of earlier times would be time that 
could be better spent on mastering other skills. However, once these 
schools begin to produce results in terms of children speakers who 
demonstrate their language skills, especially with elders, a profound 
sense of pride begins to grow in the larger local indigenous community. 
That pride grows even stronger when the children from such schools 
become known for their academic and social strengths. It becomes 
impossible for the overall Native community to see their heritage as 
debilitating, and the local language and culture and the community 
strengthening values found within them begin to spread into other areas 
of community life, including the mainstream schools. All of this has an 
overriding positive effect on raising the belief of the community in 
themselves and their sense that their unique identity is a strength 
useful for dealing with the larger world, rather than a detriment.
    For individual student products of these school programs and for 
their families, these effects are multiplied. Where often the most 
successful students seek to leave their communities, products of these 
programs are highly oriented toward returning from college and 
contributing to them. Their ties to the growing local use of the 
traditional language and culture to develop the community and economy 
provide them with a natural place for them to begin their contributions 
back to the community. The use of the local language and culture in 
schooling also engenders skills in them for separating cultural 
features into categories of what is appropriately shared in a public 
venue and what is not. Such a skill in separating out what is 
appropriately public culture can be used in locally controlled economic 
development in Native American communities attractive to domestic and 
international tourists. In addition, the sensitivity to multiple 
languages and cultures engendered through participation in such schools 
produces individuals well prepared to work with foreign tourists who 
bring new income into the United States as a whole.

    Question 5. Maintaining living native languages takes an immense 
amount of time, energy and resources to design appropriate curricula 
and learning materials. It is similarly challenging to cultivate native 
language instructors and professionals who can successfully educate 
pupils in the native language. Moreover, piecing together annual 
budgets from a number of different funding sources can be difficult. 
Are more resources needed to support the immersion language programs? 
And if so, why?
    Answer. Native American language medium/immersion programs are 
definitely in need of additional funding. The types of resources and 
methods of resourcing also need to be carefully designed to meet the 
distinctive needs of these programs.
    Programs often begin with no, or very little, funds. There are 
certain benefits to this as it guarantees that the initial efforts are 
led by individuals with a strong vision and dedication to the 
distinctive goals of language revitalization. However, once a program 
has started and is on a positive path, it is crucial to provide 
appropriate funding for the program. While private foundations have a 
very important role in starting programs and providing supplementary 
support, the basic needs of programs are appropriately funded by 
government entities.
    A challenge in developing government funding is that law makers are 
accustomed to directing funding along certain pathways and for certain 
purposes. Sometimes those pathways are poorly prepared to administer 
funding to support Native American language schools. Sometimes, the 
funded purposes are not those most needed in operating a Native 
American language medium/immersion program. A further challenge is the 
lack of regular funding for standard needs (such as state block grants) 
of those immersion programs that are successful parallel to the regular 
funding that English medium schools obtain for their standard needs.
    Directing funding for Native American immersion schools to standard 
government entities rather than to those actually on the ground 
operating the programs can result in funds being misspent and even 
being redirected away from the intended programs. These programs 
require knowledge of languages and cultures beyond the normal expertise 
of staff of government and educational systems, and thus administrators 
who also handle other responsibilities can be poorly prepared to spend 
such funds properly. Furthermore, there is often turnover in such 
government and educational offices resulting in major disruptions in 
understanding of the distinctive features and needs of immersion 
programs.
    The most successful Native American language revitalization efforts 
in the United States have been those led by small non-profit 
organizations that work with tribal, local, state and federal 
governments in developing, operating, and resourcing programs. The 
reason that these nonprofits are important is because they are highly 
focused on language revitalization and its specific needs and issues. 
As non-profits, they are also much more nimble in working on language 
and culture issues and yet they are very stable in terms of their staff 
and leadership. It is therefore useful to provide a means for federal 
funding to be directed toward such organizations with those 
organizations then working closely with government schools.

    Question 6. Language is closely tied to one's identity and self-
confidence, and in communities, language teaches and reinforces the 
traditional culture and values. Do you have evidence or data comparing 
the psychological well-being or academic achievement of immersion 
students versus non-immersion native students?
    Answer. One of the most common remarks that I have heard about 
children who attend Native American language immersion schools, be they 
in Hawaiian, Navajo, Ojibwe, Yup'ik or other language, is how impressed 
visitors are with the respectful behavior of the students. Teaching 
through a Native American language necessarily conveys with it the 
deeply held cultural values passed on by ancestors and elders. The 
schools are clean, with attentive children interested in contributing 
to their own communities and mankind in general. There have not been 
many studies of wellbeing specific to Native American language medium 
education but I am aware of one study by Dr. Shawn Kana'iaupuni. The 
Hawaiian cultural influence on education research study looked at the 
impact of culture-based educational strategies on middle and high 
school students in public and private schools. Hawaiian medium schools 
were included in this study. It was hypothesized that culturally 
relevant teaching and learning strategies have a positive impact on 
students' socioemotional development and contribute to positive 
education outcomes (e.g., school engagement, academic performance). The 
results showed that the overall ``well-being'' (feelings of self-worth 
and engagement with schooling) of Native Hawaiian students was highest 
in schools where teachers implemented ``intense'' language and culture 
as found in Hawaiian medium schools and that positively related to both 
reading and math outcomes of these students. The researchers also 
concluded that culture-based strategies is seen as an issue of social 
justice in aligning what goes on in these things that we call 
``schools'' and what goes on in communities and showing in fact that 
schools are an important and integral part of the community. (2009, 
Thomas, Scott & Heck, Ron)

    Question 7. In your work, have you noted whether native language 
proficiency and native culture familiarity have any impact on the self-
esteem and resiliency of native immersion students?
    Answer. As I stated earlier, Native Hawaiian language medium/
immersion schools have higher rates of high school graduation and 
college attendance than mainstream English medium schools. A larger 
percentage of children in these schools come from what would be 
considered disadvantaged backgrounds--over 70 percent student 
population at Nawahi School, for example. Studies have found that 
students from disadvantaged backgrounds are less likely to graduate 
from high school or attend college, but Nawahi School's statistics are 
higher than the state's average.
    The cultural teachings that form the basis of education through 
Hawaiian promote a mindset of resiliency. Students then experience 
first hand the successes of this form of education in spite of having a 
resource based many times smaller than that of mainstream English 
medium schools.

    Question 8. In your written testimony, you stated that the 
nonprofit organization which you represent is the oldest Native 
American language immersion program in the United States. What are some 
of the most important lessons you have learned as a pioneer in native 
language medium education? Do you think the number of Hawaiian 
immersion students would grow if more support was provided by the 
federal government?
    Answer. Native American peoples, be they American Indians, Alaska 
Natives, Native Hawaiians, or Native American Pacific Islanders, have a 
history as ``involuntary minorities'', that is groups forcibly 
incorporated into the United States. Furthermore, they are all 
indigenous peoples with cultures and traditional life styles highly 
different from those of the majority population of the United States. 
It is widely observed that throughout the world ``involuntary 
minorities'', especially involuntary indigenous minority peoples, have 
experienced very low-level educational and socioeconomic outcomes 
compared to the majority populations of their countries. Sometimes it 
is assumed that this low level of achievement is due to an 
incompatibility between the traditional culture and language of those 
peoples and modern development. Historical and comparative studies have 
shown that this assumption is false.
    For example, several Native American peoples had higher literacy 
rates and also high socioeconomic outcomes previous to having their 
local education systems and economies fully incorporated into the 
United States. The Cherokees are the best known example with their 
highly successful school system producing literacy in two languages 
(Cherokee and English) at a higher level than surrounding Euro-American 
communities produced in one language (English). Native Hawaiians also 
have a long history of a strong education system through their own 
language producing high literacy and a strong socio-economic position. 
Various groups of Northwest American Indians were also very strong 
economically as they integrated aspects of Euro-American farming into 
their traditional salmon fishing economies. All of these systems, 
however, were destroyed as these groups were fully incorporated into 
the United States, during periods when certain philosophies and 
legislation relative to racial minorities had a huge negative impact on 
Native American peoples.
    The challenge for Native Americans is to maintain their identity 
while still participating in the larger national society of the United 
States and the ``global village'' where people throughout the world 
participate with each other economically and in aspects of popular 
culture. When an indigenous language and culture are excluded from 
education, or marginalized in it, young people who identify with that 
language and culture do not identify with the educational system. For 
those who have especially strong connections to the ancestral language 
and culture from the home or community, there is often a sense that 
education is intended to eliminate one's identity. The history of 
Native American boarding school education and punishment for use of 
Native American languages and cultures in schools has reinforced such 
feelings in Native American communities. The manner in which even 
Native American language enrichment courses in mainstream English 
medium schools have been marginalized into the present times has 
confirmed for many young Native American students that their languages 
and cultures are considered inferior and academically worthless 
compared to English.
    Establishing schooling totally through the medium of Native 
American languages using the cultural heritage of those languages as 
the basis of education makes a bold statement that Native American 
languages and cultures are fully valued and equal to English within the 
framework of the American Constitution. This has a positive effect on 
the self-image of the students.
    Furthermore, the use of the target language is based in the local 
Native American culture rather than mainstream American culture. Many 
Native American peoples have their own traditional festivals and 
observances that are incorporated into these schools as central parts 
of learning, along with their own local flora and fauna and own 
distinctive literature. This results in a much more distinctive 
academic curriculum than found in mainstream English medium schools.
    As with the European, New Zealand, and Hawaiian examples, these 
schools have been making good progress in meeting their core goal of 
developing children speakers of the endangered target languages with a 
commitment to the cultures and communities associated with those 
languages. There have also been positive results in terms of academics 
and social outcomes. One of the oldest programs is that of the non-
profit Piegan Institute of Montana founded in 1987. Using Blackfeet as 
the language of instruction in a small private school on the Blackfeet 
Reservation, the school graduates students from a total Blackfeet 
language program into ninth grade at the local English medium high 
school. Piegan students have consistently been some of the highest 
performing students in that high school. Contrary to fears among tribal 
leaders, these students have also gone on to college at a higher rate 
than their peers. Especially encouraging to the founders of the program 
has been products of the school taking on ceremonial responsibilities 
that require use of the language and which had been feared would be 
lost with the passage of Blackfeet speaking elders. The school, 
however, faces major funding challenges and challenges in obtaining 
Blackfeet speaking teachers and curriculum materials.
    Another early Native American language medium/immersion school is 
Tsehootsooi Dine Bi'olta Immersion School in Fort Defiance, Arizona on 
the Navajo Reservation. This is a public school founded in 1986 with a 
full K-8 program. There are pressures on the school from the broader 
society that do not exist in a private school such as the Piegan 
Institute. For example, the school is subject to Arizona state 
assessments beginning in grade 3 and must consider ``highly qualified'' 
status designed for English medium schools in hiring teachers. This has 
pushed the school to use more English in its program than is generally 
considered best international practice for language revitalization-
based schooling, attention that is not expected to make a difference in 
ultimate English outcomes in high school, but expected to weaken 
indigenous language outcomes. Even with this pressure the school is 100 
percent Navajo medium in K-2, with English introduced for the first 
time in grade 3. The school has produced English medium test results 
from its students as good as, or better than, their peers in local 
English medium schools. The school has a large enrollment and plans to 
move into a college preparatory high school program similar to that of 
Nawahi School in Hawai'i.
    Niigaane Ojibwe Immersion Program at Leech Lake Reservation in 
Minnesota Niigaane was founded in 2003 as an Ojibwe language immersion 
stream within Bug-O-Nay-Ge- Shig School, a Bureau of Indian Education 
School. The program added grades year by year to a full elementary 
school within a school. Challenges remain for resources in the 
development of curriculum and staff and teachers.
    These programs and schools would flourish with supportive policies 
and resources.
        *The attachments to this prepared statement have been retained 
        in the Committee files*
                                 ______
                                 

    *Response to these same questions submitted to Sonta Hamilton Roach 
was not received before this hearing went to print*

                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                      Hon. Lillian Sparks Robinson

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Response to Written Questions Submitted by Hon. Brian Schatz to 
                      Hon. Lillian Sparks Robinson
                                         

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jon Tester to 
                            William Mendoza


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Response to Written Questions Submitted by Hon. Brian Schatz to 
                            William Mendoza
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
</pre></body></html>
